<html>
<title> - FUNDING A ROBUST FREIGHT AND PASSENGER RAIL NETWORK</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]











          FUNDING A ROBUST FREIGHT AND PASSENGER RAIL NETWORK

=======================================================================

                                (116-57)

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON RAILROADS, PIPELINES,
                        AND HAZARDOUS MATERIALS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 4, 2020

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation

                             _________
                              
                 U.S. GOVERNMENT PUBLISHING OFFICE
                 
42-633 PDF               WASHINGTON : 2021


































             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

  PETER A. DeFAZIO, Oregon, Chair
SAM GRAVES, Missouri                 ELEANOR HOLMES NORTON,
DON YOUNG, Alaska                      District of Columbia
ERIC A. ``RICK'' CRAWFORD, Arkansas  EDDIE BERNICE JOHNSON, Texas
BOB GIBBS, Ohio                      RICK LARSEN, Washington
DANIEL WEBSTER, Florida              GRACE F. NAPOLITANO, California
THOMAS MASSIE, Kentucky              DANIEL LIPINSKI, Illinois
MARK MEADOWS, North Carolina         STEVE COHEN, Tennessee
SCOTT PERRY, Pennsylvania            ALBIO SIRES, New Jersey
RODNEY DAVIS, Illinois               JOHN GARAMENDI, California
ROB WOODALL, Georgia                 HENRY C. ``HANK'' JOHNSON, Jr., 
JOHN KATKO, New York                 Georgia
BRIAN BABIN, Texas                   ANDRE CARSON, Indiana
GARRET GRAVES, Louisiana             DINA TITUS, Nevada
DAVID ROUZER, North Carolina         SEAN PATRICK MALONEY, New York
MIKE BOST, Illinois                  JARED HUFFMAN, California
RANDY K. WEBER, Sr., Texas           JULIA BROWNLEY, California
DOUG LaMALFA, California             FREDERICA S. WILSON, Florida
BRUCE WESTERMAN, Arkansas            DONALD M. PAYNE, Jr., New Jersey
LLOYD SMUCKER, Pennsylvania          ALAN S. LOWENTHAL, California
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
BRIAN J. MAST, Florida               STACEY E. PLASKETT, Virgin Islands
MIKE GALLAGHER, Wisconsin            STEPHEN F. LYNCH, Massachusetts
GARY J. PALMER, Alabama              SALUD O. CARBAJAL, California, 
BRIAN K. FITZPATRICK, Pennsylvania   Vice Chair
JENNIFFER GONZALEZ-COLON,            ANTHONY G. BROWN, Maryland
  Puerto Rico                        ADRIANO ESPAILLAT, New York
TROY BALDERSON, Ohio                 TOM MALINOWSKI, New Jersey
ROSS SPANO, Florida                  GREG STANTON, Arizona
PETE STAUBER, Minnesota              DEBBIE MUCARSEL-POWELL, Florida
CAROL D. MILLER, West Virginia       LIZZIE FLETCHER, Texas
GREG PENCE, Indiana                  COLIN Z. ALLRED, Texas
                                     SHARICE DAVIDS, Kansas
                                     ABBY FINKENAUER, Iowa
                                     JESUS G. ``CHUY'' GARCIA, Illinois
                                     ANTONIO DELGADO, New York
                                     CHRIS PAPPAS, New Hampshire
                                     ANGIE CRAIG, Minnesota
                                     HARLEY ROUDA, California
                                     CONOR LAMB, Pennsylvania

     Subcommittee on Railroads, Pipelines, and Hazardous Materials

 DANIEL LIPINSKI, Illinois, Chair
ERIC A. ``RICK'' CRAWFORD, Arkansas  ALBIO SIRES, New Jersey
SCOTT PERRY, Pennsylvania            DONALD M. PAYNE, Jr., New Jersey
RODNEY DAVIS, Illinois               LIZZIE FLETCHER, Texas
BRIAN BABIN, Texas                   ANDRE CARSON, Indiana
MIKE BOST, Illinois                  FREDERICA S. WILSON, Florida
RANDY K. WEBER, Sr., Texas           MARK DeSAULNIER, California
DOUG LaMALFA, California             STEPHEN F. LYNCH, Massachusetts
LLOYD SMUCKER, Pennsylvania          TOM MALINOWSKI, New Jersey
PAUL MITCHELL, Michigan              GRACE F. NAPOLITANO, California
BRIAN K. FITZPATRICK, Pennsylvania   STEVE COHEN, Tennessee
TROY BALDERSON, Ohio                 JESUS G. ``CHUY'' GARCIA, Illinois
ROSS SPANO, Florida                  ELEANOR HOLMES NORTON,
PETE STAUBER, Minnesota                District of Columbia
GREG PENCE, Indiana                  EDDIE BERNICE JOHNSON, Texas
SAM GRAVES, Missouri (Ex Officio)    ALAN S. LOWENTHAL, California
                                     COLIN Z. ALLRED, Texas, Vice Chair
                                     ANGIE CRAIG, Minnesota
                                     CONOR LAMB, Pennsylvania
                                     PETER A. DeFAZIO, Oregon (Ex 
                                     Officio)






























                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                 STATEMENTS OF MEMBERS OF THE COMMITTEE

Hon. Daniel Lipinski, a Representative in Congress from the State 
  of Illinois, and Chairman, Subcommittee on Railroads, 
  Pipelines, and Hazardous Materials:

    Opening statement............................................     1
    Prepared statement...........................................     2
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chairman, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     3
    Prepared statement...........................................     4
Hon. Eric A. ``Rick'' Crawford, a Representative in Congress from 
  the State of Arkansas, and Ranking Member, Subcommittee on 
  Railroads, Pipelines, and Hazardous Materials:

    Opening statement............................................     4
    Prepared statement...........................................     5
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure, prepared statement.............................    71

                               WITNESSES

Stephen Gardner, Senior Executive Vice President and Chief 
  Operating and Commercial Officer, National Railroad Passenger 
  Corporation (Amtrak):

    Oral statement...............................................     7
    Prepared statement...........................................     9
Hon. Sandra Bury, O.D., Mayor, Village of Oak Lawn, Illinois:

    Oral statement...............................................    16
    Prepared statement...........................................    18
Kevin S. Corbett, President and Chief Executive Officer, NJ 
  Transit Corporation:

    Oral statement...............................................    19
    Prepared statement...........................................    21
Robert J. Shanahan, Jr., Assistant to the President-Director of 
  Arbitration, Brotherhood of Maintenance of Way Employes 
  Division, International Brotherhood of Teamsters:

    Oral statement...............................................    24
    Prepared statement...........................................    26
Kevin Artl, President and Chief Executive Officer, American 
  Council of Engineering Companies of Illinois:

    Oral statement...............................................    28
    Prepared statement...........................................    30
Ian Jefferies, President and Chief Executive Officer, Association 
  of American Railroads:

    Oral statement...............................................    33
    Prepared statement...........................................    35

                       SUBMISSIONS FOR THE RECORD

Submissions for the record by Hon. Tom Malinowski:

    Letter of March 3, 2020, from Bruce H. Bergen, Chairman, 
      Raritan Valley Rail Coalition..............................    71
    Letter of March 3, 2020, from County of Union, New Jersey, 
      Board of Chosen Freeholders................................    72





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                           February 28, 2020

    SUMMARY OF SUBJECT MATTER

    TO:      LMembers, Subcommittee on Railroads, Pipelines, 
and Hazardous Materials
    FROM:  LStaff, Subcommittee on Railroads, Pipelines, and 
Hazardous Materials
    RE:      LSubcommittee Hearing on ``Funding a Robust 
Freight and Passenger Rail Network.''
_______________________________________________________________________


                                PURPOSE

    The Subcommittee on Railroads, Pipelines, and Hazardous 
Materials will meet on Wednesday, March 4, 2020, at 10:00 a.m. 
in 2167 Rayburn House Office Building to hold a hearing titled, 
``Funding a Robust Freight and Passenger Rail Network.'' The 
hearing will discuss the benefits of both freight and passenger 
rail, examine the current state of the network, and address the 
need for continued investment through federal programs. The 
Subcommittee will hear testimony from Amtrak, Village of Oak 
Lawn, NJ TRANSIT Corporation, Brotherhood of Maintenance of Way 
Employees Division--International Brotherhood of Teamsters, 
American Council of Engineering Companies of Illinois, and the 
Association of American Railroads.

                               BACKGROUND

I. BACKGROUND

A. INTERCITY PASSENGER RAIL

    The National Railroad Passenger Corporation, known as 
``Amtrak,'' was created by the Rail Passenger Service Act of 
1970.\1\ Prior to Amtrak's creation, privately-owned railroads 
provided passenger rail transportation, pursuant to their 
common carrier obligation that dated back to the late 1800s. As 
the federal government supported the growth of airports and 
invested heavily to develop the expansive interstate system, 
travel by aircraft and car grew in popularity while passenger 
rail mileage declined from 40 million in 1947 to less than 8 
million just two decades later.\2\
---------------------------------------------------------------------------
    \1\ Public Law 91-518.
    \2\ Wilner, Frank. Amtrak: Past, Present, Future. Omaha, Simmons-
Boardman Books, Inc., 2012. Page XIV.
---------------------------------------------------------------------------
    In 1970, with several major railroads in or nearing 
bankruptcy, Congress relieved the private railroads from their 
obligation to provide passenger rail service by creating Amtrak 
as the Nation's passenger rail provider. Amtrak was established 
under the corporation laws of the District of Columbia (DC) but 
would receive government funding. Railroads bought into Amtrak 
and the purchase price was satisfied either by cash or rolling 
stock; in exchange, the railroads received common non-voting 
stock. Amtrak began operating passenger service on May 1, 1971.
    Amtrak operates much of its service over tracks that are 
owned, maintained, and dispatched by the freight railroads. Due 
to the historical bargain in which freight railroads were 
relieved from their common carriage obligation for passenger 
rail service, Amtrak trains have a statutory ``preference'' 
over freight transportation in using a rail line, junction, or 
crossing, except in emergencies or unless the Surface 
Transportation Board (STB) orders otherwise.\3\
---------------------------------------------------------------------------
    \3\ 49 U.S.C.  24308(c).
---------------------------------------------------------------------------

B. COMMUTER RAIL

    Rail transportation modes split into transit rail (heavy 
rail, light rail, and streetcar) and commuter rail. Typically, 
transit rail passengers use these services for shorter trips 
and on closed rail systems; commuter rail services carry 
passengers for longer trips on the Federal Railroad 
Administration (FRA)-regulated general railroad system, 
connected to the broader interstate railroad network. As such, 
commuter rail is designed to provide a longer-distance, 
regional service that connects riders from suburban areas to 
city centers. Commuter rail typically operates with higher-
speed, higher-capacity trains and less-frequent stops, and 
often operates on freight railroad right-of-way.

C. FREIGHT RAIL

    The U.S. freight railroad industry operates a 140,000-mile 
network across the country, delivering on average five million 
tons of goods every day. This industry is composed of varying 
sized railroads measured by their annual operating revenues 
into three different classes. The largest railroads include the 
seven Class Is, which are the biggest railroads that 
collectively provide long-haul operations in 44 states and 
D.C.\4\ The Class Is transport nearly 69 percent of U.S. 
freight mileage.\5\
---------------------------------------------------------------------------
    \4\ The seven Class I railroads include Burlington Northern Santa 
Fe Railway (BNSF); Union Pacific Railroad (UP); Norfolk Southern 
Railway (NS); CSX Transportation; Canadian National Railway (CN); 
Canadian Pacific Railway (CP); and Kansas City Southern (KCS).
    \5\ Association of American Railroads https://www.aar.org/railroad-
101/.
---------------------------------------------------------------------------
    The 603 short line and regional railroads operate 38% of 
the nation's rail network.\6\ Short lines are often the only 
way rural America can connect to the rest of the national 
freight network--playing an important role in providing first-
mile and last-mile service that extends the reach of the rail 
network to rural communities, manufacturers, farmers, and 
others.\7\ These smaller railroads range in size from small 
operators handling just a few carloads a month, to others that 
cross state lines and approach the size of the large Class I 
railroads. The short line and regional railroads move about 
one-third of all U.S. freight, and operate in every state 
except Hawaii.
---------------------------------------------------------------------------
    \6\ American Short Line and Regional Railroad Association https://
www.aslrra.org/.
    \7\ American Short Line and Regional Railroad Association https://
www.aslrra.org/web/About/Industry_Facts/web/About/
Industry_Facts.aspx?hkey=bd7c0cd1-4a93-4230-a0c2-c03fab0135e2.
---------------------------------------------------------------------------
    In 2018, the seven Class I freight railroads operating in 
the U.S. spent $24.9 billion on infrastructure and equipment 
throughout the country.\8\ In addition, states also make 
investments in the rail network such as those that fund port 
improvements, capacity preservation and expansion, and grade 
crossing improvement projects. For example, the state of 
Indiana developed the Local Trax Rail Overpass Program, in 
which $125 million in state matching funds was made available 
to cities, towns, and counties interested in pursuing high-
priority railroad grade separations, crossing closures, and 
other safety enhancements at railroad intersections with local 
roads.
---------------------------------------------------------------------------
    \8\ Association of American Railroads, ``Overview of America's 
Freight Railroads,'' June 2019, Available at https://www.aar.org/wp-
content/uploads/2018/08/Overview-of-Americas-Freight-RRs.pdf.
---------------------------------------------------------------------------

II. RAIL INVESTMENT NEEDS: A SNAPSHOT

    Since Amtrak began operations in 1971, federal funds have 
fluctuated, forcing Amtrak to cut services and defer 
maintenance on equipment and infrastructure across its network. 
Moreover, under the Railroad Revitalization and Regulatory 
Reform Act of 1976, Congress gave Amtrak ownership of the 
Northeast Corridor (NEC) after the Penn Central Railroad went 
bankrupt.\9\ The heavy usage of the NEC combined with the age 
of bridges and tunnels--many of which date back to the period 
between the Civil War and the New Deal--has led to major needs 
in maintenance and capital infrastructure improvements, in 
order to remove bottlenecks and increase capacity along the 
corridor. According to the revised Northeast Corridor 
Commission's Capital Investment Plan for Fiscal Years 2020-
2024, more than $21 billion remains unfunded for major rail 
infrastructure projects along the NEC. Some of these projects 
include: the Baltimore & Potomac Tunnel ($4.59 billion project, 
with $4.52 billion unfunded), which was built in 1873 and 
requires replacing the Civil-War era tunnel with a newer curve-
moderated tunnel; replacement of the swing-span Portal North 
Bridge ($1.78 billion project, with $811 million unfunded) over 
the Hackensack River; and replacement of the Susquehanna River 
Bridge ($1.88 billion project, with $1.86 billion 
unfunded).\10\
---------------------------------------------------------------------------
    \9\ Railroad Revitalization and Regulatory Reform Act of 1976, 
Public Law 94-210.
    \10\ Northeast Corridor Capital Investment Plan, Fiscal Years 2020-
2024, Northeast Corridor Commission, Available at https://nec-
commission.com/app/uploads/2019/12/NEC-Capital-Investment-Plan-20-
24_Amended.pdf
---------------------------------------------------------------------------
    In addition to the NEC major projects, much of Amtrak's 
fleet has aged and is in need of replacement. The average 
passenger railcar that Amtrak owns or leases is nearing 34 
years of age, and the average locomotive or trainset unit is 
more than 20 years old.\11\ Amtrak defines equipment as having 
a useful life of 30 years for locomotives and 40 years for 
railcars.\12\ Aging equipment can negatively impact Amtrak's 
services, such as when old road diesel locomotives suffering 
from mechanical challenges cause train delays or when outdated 
railcars lacking amenities like Wi-Fi and changing tables 
degrade passenger satisfaction.\13\ As these locomotives and 
railcars begin reaching the end of their useful life, Amtrak is 
planning major initiatives to modernize its rolling stock by 
replacing or refreshing locomotives and railcars currently in 
service. While Amtrak is experiencing additional rolling stock 
investment needs, Amtrak's FY 2021 grant request indicates an 
additional $3.8 billion in federal funds is required for a 
series of upgrades.\14\ This includes replacement of Amfleet I 
railcars used throughout the network; Amfleet II railcars used 
primarily on long-distance routes serving New York and some 
state corridors; Superliner railcars used on a host of long-
distance routes; and new diesel locomotives that operate on 
long-distance routes. Amtrak indicates these upgrades will 
benefit train performance and customer experience, while also 
achieving higher speeds, greater fuel range, and reduced 
emissions by up to 90 percent.\15\
---------------------------------------------------------------------------
    \11\ Amtrak Five-Year Asset Line Plans, Fiscal Years 2020-2025 
(Base and Five-Year Strategic Plan), Available at https://
www.amtrak.com/content/dam/projects/dotcom/english/public/documents/
corporate/businessplanning/Amtrak-Asset-Line-Plans-FY21-25.pdf. Pages 
17-18.
    \12\ Id. at 24.
    \13\ Id.
    \14\ Amtrak General and Legislative Annual Report and Fiscal Year 
2021 Grant Request, Available at https://www.amtrak.com/content/dam/
projects/dotcom/english/public/documents/corporate/reports/Amtrak-
General-Legislative-Annual-Report-FY2021-Grant-Request.pdf Page 42.
    \15\ Amtrak Five-Year Asset Line Plans, Fiscal Years 2020-2025 
(Base and Five-Year Strategic Plan), Available at https://
www.amtrak.com/content/dam/projects/dotcom/english/public/documents/
corporate/businessplanning/Amtrak-Asset-Line-Plans-FY21-25.pdf Pages 
17-34.
---------------------------------------------------------------------------
    More than 500 stations (owned by states, cities, host 
railroads, and Amtrak) within Amtrak's network must be properly 
maintained. Amtrak is investing in projects that enhance the 
passenger experience, sustain the national passenger rail 
network, provide much-needed additional capacity, and improve 
reliability and safety.\16\ In 2016, Amtrak received a $2.5 
billion Railroad Rehabilitation and Improvement Financing 
(RRIF) loan to purchase 28 new trains, make station 
improvements at Washington Union Station and Moynihan Station 
in New York City, and improve track capacity and ride quality 
in the NEC.\17\ Amtrak's FY 2021 grant request indicates an 
additional $4.3 billion in federal funds is needed for select 
station and facility improvements.\18\ Additionally, the 
Americans with Disabilities Act (ADA) required that all 
stations in the intercity rail transportation system be made 
accessible to and usable by individuals with disabilities no 
later than 2010.\19\ Amtrak has sole or shared financial 
responsibility to bring 387 stations into compliance with ADA 
requirements and estimates that it will cost over $1 billion to 
complete this work.\20\
---------------------------------------------------------------------------
    \16\ Amtrak Five-Year Asset Line Plans, Fiscal Years 2020-2025 
(Base and Five-Year Strategic Plan), Available at https://
www.amtrak.com/content/dam/projects/dotcom/english/public/documents/
corporate/businessplanning/Amtrak-Asset-Line-Plans-FY21-25.pdf Page 67.
    \17\ Progressive Railroading, ``Amtrak Receives $2.5 Billion RRIF 
Loan for Alstom Trains, Northeast Corridor Upgrades,'' Available at 
https://www.progressiverailroading.com/amtrak/news/Amtrak-receives-25-
billion-RRIF-loan-for-Alstom-trains-Northeast-Corridor-upgrades--49275.
    \18\ Amtrak General and Legislative Annual Report and Fiscal Year 
2021 Grant Request, Available at https://www.amtrak.com/content/dam/
projects/dotcom/english/public/documents/corporate/reports/Amtrak-
General-Legislative-Annual-Report-FY2021-Grant-Request.pdf, Page 42.
    \19\ 42 U.S.C.  12162.
    \20\ Amtrak General and Legislative Annual Report and Fiscal Year 
2021 Grant Request, Available at https://www.amtrak.com/content/dam/
projects/dotcom/english/public/documents/corporate/reports/Amtrak-
General-Legislative-Annual-Report-FY2021-Grant-Request.pdf page 43.
---------------------------------------------------------------------------
    Commuter railroads are also in need of significant 
investments to maintain and upgrade infrastructure and rolling 
stock and to expand service. In September 2019, the 
Subcommittee heard testimony from several commuter railroads 
about their investment needs, with one stating it has a $444 
million backlog \21\ in unfunded maintenance and rehabilitation 
state-of-good-repair projects and another needing to invest 
more than $1 billion annually over the next decade to achieve 
and maintain a state-of-good-repair.\22\ Commuter railroads 
also continue working toward compliance with the positive train 
control (PTC) mandate from 2008. According to the FRA's 2019 
fourth quarter reporting, of the 28 commuter railroads required 
to install PTC, six have fully implemented their systems and 
another 22 expect to complete implementation in 2020. The 
American Public Transportation Association estimates that 
commuter railroads will spend approximately $160 million 
annually in operations and maintenance of these systems.\23\
---------------------------------------------------------------------------
    \21\ Wiggins, Stephanie N., Southern California Regional Rail 
Authority (Metrolink), Testimony before the House Subcommittee on 
Railroads, Pipelines, and Hazardous Materials, September 24, 2019, 
Available at https://transportation.house.gov/imo/media/doc/Testimony-
Wiggins.pdf, Page 8.
    \22\ Derwinski, James., Metra, Testimony before the House 
Subcommittee on Railroads, Pipelines, and Hazardous Materials, 
September 24, 2019, Available at https://transportation.house.gov/imo/
media/doc/Testimony-Derwinski.pdf, Page 2.
    \23\ Skoutelas, Paul P. American Public Transportation Association, 
Testimony before the House Subcommittee on Railroads, Pipelines, and 
Hazardous Materials, September 24, 2019, Available at https://
www.apta.com/wp-content/uploads/APTA-TESTIMONY-TI-Rail-Subc.-Hearing-
re-Commuter-Rail-09.24.2019.pdf Page 5.
---------------------------------------------------------------------------

III. FUNDING AMTRAK

APPROPRIATIONS

    Like several other transportation modes in the U.S., Amtrak 
receives funding from the General Fund through the annual 
appropriations process. The chart below indicates Amtrak's 
funding levels authorized by the Fixing America's Surface 
Transportation Act (FAST Act) and the amounts appropriated by 
Congress:

------------------------------------------------------------------------
                   Northeast Corridor             National Network
             -----------------------------------------------------------
                Authorized    Appropriated    Authorized    Appropriated
------------------------------------------------------------------------
    FY 16     $450,000,000         *        $1,000,000,00        *
                                                       0
    FY 17     $474,000,000   $328,000,000   $1,026,000,00  $1,167,000,00
                                                       0              0
    FY 18     $515,000,000   $650,000,000   $1,085,000,00  $1,291,600,00
                                                       0              0
    FY 19     $557,000,000   $650,000,000   $1,143,000,00  $1,291,600,00
                                                       0              0
    FY 20     $600,000,000   $700,000,000   $1,200,000,00  $1,300,000,00
                                                       0              0
------------------------------------------------------------------------
* Amtrak received FY 16 appropriations in the format that existed prior
  to FAST Act enactment: $288,500,000 in operating grants, and
  $1,101,500,000 in capital and debt service grants.

STATE-SUPPORTED ROUTES, SECTION 209 OF PRIIA

    Prior to enactment of the Passenger Rail Investment and 
Improvement Act of 2008 (PRIIA 2008), most of the expenses 
associated with state-supported routes were funded by the 
federal government through Amtrak. However, PRIIA Section 209 
shifted that funding responsibility to the states and required 
Amtrak and its state partners to jointly develop a methodology 
to determine operating and capital costs of state-supported 
routes. The Section 209 methodology became effective in October 
2013. Continued operation of these state-supported routes is 
subject to annual operating agreements and state legislative 
appropriations according to Section 209. In FY 2018, state 
contributions to Amtrak for state-supported services totaled 
$233.8 million for operations and $57.2 million for equipment 
capital.\24\ Fueled by Amtrak's partnership with its state 
partners, state-supported routes carried 15.438 million 
passengers in FY 2019, a 2.4% increase from 15.079 million in 
FY 2018.\25\
---------------------------------------------------------------------------
    \24\ FY 2018 is the most recent year for which data is available, 
State-Amtrak Intercity Passenger Rail Committee, 2018 Annual Report, 
Page 2.
    \25\ Amtrak Route Ridership FY 2019 vs. FY 2018, Available at 
http://media.amtrak.com/wp-content/uploads/2019/11/FY19-Year-End-
Ridership.pdf.
---------------------------------------------------------------------------
    State-supported routes have previously benefited from 
additional investments through high-speed passenger rail 
investment grants.\26\ These grants supported a broad range of 
projects that increased speeds, added service frequencies, 
extended service to new stations, and improved reliability of 
aging infrastructure on state-supported routes.\27\ While many 
improvements were made to state-supported routes under these 
programs, additional opportunities for improvement remain.\28\ 
For instance, the State of Michigan used federal funds to 
purchase and upgrade a track segment in the Chicago-Detroit 
corridor, allowing 110-mph service. Planning studies identified 
additional potential service improvements, but these projects 
are on hold. Likewise, travel times and congestion on certain 
portions of the Chicago-St. Louis corridor were improved 
through use of $1.3 billion of federal funding. A federally 
funded environmental study of the corridor identified 
investments capable of doubling existing service levels and 
reducing end-to-end travel time. The study estimated that such 
investments would cost between $4.9 billion and $5.2 
billion.\29\
---------------------------------------------------------------------------
    \26\ Goldman, Ben. Improving Intercity Passenger Rail Service in 
the United States, Congressional Research Service R45783, June 25, 2019 
Available at https://fas.org/sgp/crs/misc/R45783.pdf page 2.
    \27\ Id. at 10.
    \28\ Id.
    \29\ Id. at 12.
---------------------------------------------------------------------------

NORTHEAST CORRIDOR, SECTION 212 OF PRIIA

    Moreover, under Section 212 of PRIIA 2008, the Northeast 
Corridor Commission (Commission) is directed to develop a 
standardized formula for determining and allocating operating 
and capital costs to Amtrak and commuter rail agencies 
operating in the NEC based on their proportionate share of 
joint-benefit costs. The formula must also ensure that there is 
no cross-subsidization of commuter, intercity, or freight rail 
transportation on the NEC. In September 2015, the Commission 
adopted the NEC Commuter and Intercity Rail Cost Allocation 
Policy, which took effect in FY 2016 and remains effective 
until the Commission replaces or annuls it.\30\ The total 
amount that Amtrak and commuter operators have paid to the four 
NEC infrastructure owners is more than $5.5 billion, of which 
$4.3 billion has been paid to Amtrak by both commuter operators 
and Amtrak itself.\31\
---------------------------------------------------------------------------
    \30\ Northeast Corridor Commuter and Intercity Rail Cost Allocation 
Policy, Effective October 1, 2019. Available at https://nec-
commission.com/app/uploads/2018/04/2019-06-19_Cost-Allocation-
Policy_v09.00_Cmsn-Amended-2019-June-19-Clean.pdf
    \31\ The four NEC owners include Amtrak, Connecticut DOT, 
Massachusetts Bay Transportation Authority, and Metro-North Railroad. 
Data is from the Northeast Corridor Commission.
---------------------------------------------------------------------------

IV. GRANT OPPORTUNITIES FOR INTERCITY PASSENGER AND FREIGHT RAIL

    Congress authorizes several federal discretionary grant 
programs that can be used to support intercity passenger and 
freight rail services, such as those discussed below.

FEDERAL RAILROAD ADMINISTRATION GRANT PROGRAMS

  CONSOLIDATED RAIL INFRASTRUCTURE AND SAFETY IMPROVEMENTS

    The FAST Act authorized the Consolidated Rail 
Infrastructure and Safety Improvements (CRISI) grant program to 
provide discretionary grants for projects that improve the 
safety, efficiency, or reliability of freight and passenger 
rail transportation systems.\32\ Short line and regional 
railroads, any rail carrier (including Class Is) in partnership 
with at least one state entity, public agencies or public 
chartered authorities established by one or more states, states 
or groups of states, interstate compacts, political 
subdivisions of states, Amtrak, and others are eligible for 
grants under the program, which the Federal Railroad 
Administration (FRA) administers. Activities eligible for CRISI 
funds include capital projects that improve short line and 
regional railroad infrastructure; highway-rail grade crossing 
improvements projects; and rail line relocation and improvement 
projects, among others. The maximum federal share of total 
project costs under the program is 80 percent. For FY 2020, 
CRISI was authorized at $330 million,\33\ and the program was 
appropriated $325 million.\34\
---------------------------------------------------------------------------
    \32\ 49 U.S.C.  24407.
    \33\ Public Law 114-94 Sec. 11102.
    \34\ Further Consolidated Appropriations Act of 2020, Public Law 
116-94.
---------------------------------------------------------------------------

  FEDERAL-STATE PARTNERSHIP FOR STATE OF GOOD REPAIR

    The FAST Act also authorized the Federal-State Partnership 
for State of Good Repair grant program, which awards federal 
funds for capital projects to replace or rehabilitate qualified 
railroad assets to reduce the state of good repair backlog.\35\ 
Eligible applicants include states or their political 
subdivisions, groups of states, interstate compacts, public 
agencies or publicly chartered authorities established by one 
or more states, Amtrak, or any combination of these entities. 
Federal-State Partnership for State of Good Repair grants have 
a maximum federal share of 80 percent.\36\ The FAST Act 
authorized the program at $300 million in FY 2020,\37\ and it 
was appropriated at $200 million.\38\
---------------------------------------------------------------------------
    \35\ Public Law 114-94 Sec. 11302.
    \36\ 49 U.S.C.  24911.
    \37\  Public Law 114-94 Sec. 11103.
    \38\ Further Consolidated Appropriations Act of 2020, Public Law 
116-94.
---------------------------------------------------------------------------

  RESTORATION AND ENHANCEMENT GRANTS

    The FAST Act authorized the Restoration and Enhancement 
grant program, which provides operating assistance grants to 
initiate, restore, or enhance intercity rail passenger 
transportation.\39\ Eligible entities include states or their 
political subdivisions, groups of states, interstate compacts, 
public agencies or publicly chartered authorities established 
by one or more states, Amtrak or other intercity rail carriers, 
rail carriers in partnership with any eligible entities, or a 
combination thereof.\40\ For projects funded by a Restoration 
and Enhancement grant, the grant may not exceed 80 percent of 
the projected net operating costs for the first year of 
service; 60 percent of the net operating costs for the second 
year of service; and 40 percent of the projected net operating 
costs for the third year of service. For FY 2020, the 
Restoration and Enhancement grant program was authorized at $22 
million,\41\ and it was appropriated $2 million in funding.\42\
---------------------------------------------------------------------------
    \39\ 49 U.S.C.  22908.
    \40\ Id.
    \41\ Public Law 114-94 Sec. 11104.
    \42\ Further Consolidated Appropriations Act of 2020, Public Law 
116-94.
---------------------------------------------------------------------------

OTHER DEPARTMENT OF TRANSPORTATION (DOT) FUNDING

  BUILD GRANTS

    DOT awards grants for national infrastructure investments 
under its ``Better Utilizing Investments to Leverage 
Development (BUILD)'' grant program, formerly known as 
``TIGER.'' Eligible applicants for BUILD transportation grants 
are state, local, and tribal governments, including U.S. 
territories, transit agencies, port authorities, metropolitan 
planning organizations (MPOs), and other political subdivisions 
of state or local governments. These grants are awarded on a 
competitive basis for surface transportation infrastructure 
projects that will have a significant local or regional impact, 
with a balance between projects in rural and urban areas.\43\ 
In FY 2020, the BUILD program was appropriated $1 billion, and 
required a maximum federal share of 80 percent for projects, 
while giving the Secretary discretion to allow a higher federal 
share for rural projects.\44\
---------------------------------------------------------------------------
    \43\ Department of Transportation, https://www.transportation.gov/
BUILDgrants/2019-build-application-faqs.
    \44\ Further Consolidated Appropriations Act of 2020, Public Law 
116-94.
---------------------------------------------------------------------------

  INFRA GRANTS

    The FAST Act also created a new competitive grant program, 
providing $4.5 billion over the life of the bill, to assist 
states in funding nationally-significant highway, bridge, and 
freight projects.\45\ The Nationally Significant Freight and 
Highway Projects program (referred to as INFRA by this 
Administration and FASTLANE by the previous Administration) is 
funded by the Highway Trust Fund and is generally aimed at 
large-scale and multi-jurisdictional projects that cannot be 
funded with highway funding apportioned to the states.\46\ At 
least 25 percent of the funding is reserved for projects in 
rural areas, and 10 percent of the funding is reserved for 
smaller projects (project costs of less than $100 million). Up 
to $500 million over the life of the FAST Act may be used to 
fund freight rail or intermodal projects if the projects will 
significantly improve freight movements on the National Highway 
Freight Network. For FY 2020, the INFRA program was authorized 
at $1 billion,\47\ with an appropriation of $906 million.\48\
---------------------------------------------------------------------------
    \45\ Public Law 114-94 Sec. 1105.
    \46\ INFRA is funded through funds appropriated out of the Highway 
Trust Fund other than the Mass Transit Account.
    \47\ Public Law 114-94 Sec. 1101.
    \48\ Further Consolidated Appropriations Act of 2020, Public Law 
116-94.
---------------------------------------------------------------------------

  RAILROAD REHABILITATION AND IMPROVEMENT FINANCING PROGRAM

    The Railroad Rehabilitation and Improvement Financing 
(RRIF) program was originally established by Congress in Title 
V of the Railroad Revitalization and Regulatory Reform Act of 
1976 and later amended in the Transportation Equity Act for the 
21st Century (TEA-21). RRIF offers long-term, low-interest 
loans for improving rail infrastructure. Eligible recipients 
include railroads, state and local governments, government-
sponsored corporations, and joint ventures that include at 
least one railroad. RRIF-eligible projects include the 
following: acquiring, improving, and rehabilitating track, 
bridges, rail yards, buildings, and shops; preconstruction 
activities; PTC; transit-oriented development projects; and new 
rail or intermodal activities. Under this program DOT is 
authorized to provide direct loans and loan guarantees up to 
$35 billion to finance development of railroad infrastructure. 
Since 2002 the RRIF program has provided $6.286 billion in 
financing. There is currently about $30.2 billion available in 
loan authority under the RRIF program.

V. FUNDING COMMUTER RAIL

    Ensuring the safety of commuter rail is the responsibility 
of the Federal Railroad Administration (FRA), which establishes 
minimum acceptable levels of railroad safety equipment and 
operating practices. While FRA regulates safety, federal 
funding for commuter rail transportation is provided by the 
Federal Transit Administration (FTA).
    Commuter rail agencies are eligible to receive FTA formula 
funds, including funding under 49 U.S.C. Sections 5307 
(Urbanized Area Formula Grants); 5337 (State of Good Repair 
Grants); and 5340 (High Density States Formula funds). These 
formula funds typically go to a regional transportation agency 
(designated recipient) and are allocated by regional agreements 
to various transit agencies operating commuter rail, heavy and 
light rail, streetcars, ferries, and bus transit in the same 
urban area. The FAST Act authorized approximately $38 billion 
for these programs from fiscal year 2016 through fiscal year 
2020.
    Additionally, commuter railroads may compete for 
discretionary grants under FTA's Capital Investment Grant (CIG) 
program, which funds capital investments in commuter rail as 
well as heavy and light rail, street cars, and bus rapid 
transit projects. The FAST Act authorized $11.5 billion for the 
CIG program over five years.
    While commuter railroads are not statutorily eligible for 
the FRA grant programs discussed above, in FY 2018, Congress 
made commuter railroads temporarily eligible for $250 million 
available under the CRISI program for PTC installation.\49\ Of 
these funds, commuter railroads received $187 million, 
according to the FRA.\50\ In the FAST Act, Congress also 
authorized $199 million in fiscal year 2017 FTA funds to assist 
financing the installation of PTC. Moreover, commuter railroads 
are eligible for RRIF loans to support infrastructure 
improvement projects.
---------------------------------------------------------------------------
    \49\ FY 18 Consolidated Appropriations Act, 2018, Public Law 115-
141.
    \50\ In determining this figure, the FRA does not consider the 
Alaska Railroad to be a commuter railroad. Alaska Railroad received 
$12.9 million under the program.
---------------------------------------------------------------------------

VI. SNAPSHOT: CHICAGO'S CREATE PROJECT

    The city of Chicago's unique history as a rail hub has led 
to modern-day congestion challenges. In 2003, a coalition of 
private and government entities initiated the Chicago Region 
Environmental and Transportation Efficiency (CREATE) project--a 
$4.6 billion public-private partnership to address passenger 
and freight rail congestion in the Chicago area rail 
network.\51\ Chicago's rail congestion is partly due to the 
fact that 25 percent of all U.S. freight rail traffic touches 
Chicago.\52\ CREATE has three broad infrastructure focuses: 1) 
increasing capacity, speed, and reliability for freight train 
traffic; 2) separating freight and commuter trains at six key 
junctions; and 3) eliminating 25 highway-railroad grade 
crossings through grade separations to reduce the impact of 
railroads on the surrounding local communities.\53\ Many of 
these projects will benefit both passenger and freight trains 
due to shared track.
---------------------------------------------------------------------------
    \51\ http://createprogram.org/linked_files/CREATE_Overview.pdf.
    \52\ Id. at 6.
    \53\ Id. at 2.
---------------------------------------------------------------------------
    CREATE partners include the U.S. DOT (Federal Highway 
Administration and FRA), the Illinois Department of 
Transportation, the Chicago Department of Transportation, Cook 
County, the six largest Class I freight railroads, two 
switching railroads (Belt and Indiana Harbor Railroads), and 
two passenger railroads (Amtrak and Metra, Chicago's commuter 
rail authority).\54\ The CREATE project received an initial 
federal contribution of $100 million in 2005 through the 
Projects of National and Regional Significance funding 
established by the Safe, Accountable, Flexible, Efficient 
Transportation Equity Act: A Legacy for Users (SAFETEA-LU) 
surface transportation reauthorization.\55\
---------------------------------------------------------------------------
    \54\ http://createprogram.org/linked_files/CREATE_Overview.pdf. at 
2.
    \55\ https://ops.fhwa.dot.gov/freight/safetea_lu/
1301_pnrs_funding.htm.
---------------------------------------------------------------------------
    As of August 2019, 30 of the 70 identified projects have 
been completed with 21 projects underway in various stages 
(construction, engineering, environmental review).\56\ These 
projects have been funded through a variety of federal, state, 
and local sources. For example, the 75th Street Corridor 
Improvement Project, a major $474 million project that will 
build a new double track rail connection between two rail lines 
to increase freight and passenger rail capacity and upgrade 
crossover speeds to allow for higher freight speeds, received a 
$132 million INFRA grant in 2018. That $132 million will be 
matched by $337 million in funds from other CREATE 
partners.\57\ In total, the $4.6 billion CREATE public-private 
partnership has a projected benefit over 30 years of $31.5 
billion.\58\
---------------------------------------------------------------------------
    \56\ http://createprogram.org/linked_files/status_map.pdf.
    \57\ Id.
    \58\ Id.
---------------------------------------------------------------------------

                              WITNESS LIST

    <bullet> LMr. Stephen Gardner, Senior Executive Vice 
President and Chief Operating and Commercial Officer, Amtrak
    <bullet> LDr. Sandra Bury, Mayor, Village of Oak Lawn, 
Illinois
    <bullet> LMr. Kevin Corbett, President and Chief Operating 
Officer, NJ TRANSIT Corporation
    <bullet> LMr. Rob Shanahan, Assistant to the President, 
Brotherhood of Maintenance of Way Employees Division-
International Brotherhood of Teamsters
    <bullet> LMr. Kevin Artl, President and Chief Operating 
Officer, American Council of Engineering Companies of Illinois
    <bullet> LMr. Ian Jefferies, President, Association of 
American Railroads

 
          FUNDING A ROBUST FREIGHT AND PASSENGER RAIL NETWORK

                              ----------                              


                        WEDNESDAY, MARCH 4, 2020

                  House of Representatives,
Subcommittee on Railroads, Pipelines, and Hazardous 
                                         Materials,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2167, Rayburn House Office Building, Hon. Daniel Lipinski 
(Chairman of the subcommittee) presiding.
    Mr. Lipinski. The subcommittee will come to order.
    I ask unanimous consent that the chair be authorized to 
declare recesses during today's hearing.
    Without objection, so ordered.
    I will begin by recognizing myself for 5 minutes for an 
opening statement.
    Good morning. Today's hearing is the last hearing before 
the final drafting of the surface transportation 
reauthorization bill. I am very proud of the subcommittee's 
focus the last few months on several important topics in the 
upcoming reauthorization. In September, we held a hearing for 
the first time in the subcommittee's recent history on the 
needs of commuter railroads and how we must address the state-
of-good-repair backlog for commuter rail while we also expand 
passenger service.
    In November, we held an oversight hearing on Amtrak and its 
future vision, including how to protect long-distance train 
services, and ensure Amtrak is respecting the rights of its 
workers.
    Finally, last month, we heard testimony on the importance 
of improving grade-crossing safety and addressing other 
community issues such as the hassles of blocked crossings and 
the need for more quiet zones.
    With January's release of infrastructure principles by 
House Democrats, led by Chairman DeFazio, we include a robust 
$55 billion investment for rail infrastructure, and today's 
hearing will focus on how we can best utilize this proposed 
investment to strengthen our passenger and freight rail 
networks and what role the Federal Government should play as 
part of this investment. I am pleased that we have multiple 
perspectives today about this important topic.
    I have spoken many times about the importance of the CREATE 
program in Chicago and how it is enhancing both passenger and 
freight service in the Chicago region by relieving rail 
congestion. I look forward to hearing from Mr. Artl about 
ACEC's perspective on the importance of programs like CREATE, 
and how the Federal Government can advance the CREATE projects 
not currently completed, which, disproportionately, are grade 
separations. The need for more grade separations is one of the 
top issues I hear about from my constituents.
    I am delighted we also have Dr. Sandra Bury, mayor of the 
village of Oak Lawn, who emphasized the importance of commuter 
rail service to her community and others. Metra rail service is 
the economic foundation of these communities, and it is 
imperative that we do what we can to expand Metra service.
    Part of building a more robust passenger rail network is 
streamlining the process between local communities and freight 
railroads on adding commuter rail service. It should not take 
10 years or more to add additional commuter train service. I 
look forward to the mayor's testimony on that issue, as well as 
the real-world impact Oak Lawn is facing because of Metra's 
state-of-good-repair backlog.
    I am pleased that we have Rob Shanahan from the BMWED to 
testify about the importance of labor protections as part of 
any investment. While I am one of Congress' biggest advocates 
for increased infrastructure investment, especially our rail 
infrastructure, we must make sure that these investments don't 
undermine the bedrock labor protections in our laws or 
jeopardize the livelihoods of unionized men and women.
    Recently, there has been a concerning amount of contracting 
out of formerly union work in the Chicago area by Amtrak to 
nonunion workers. I look forward to Mr. Shanahan's testimony on 
the very serious and concerning safety implications of Amtrak's 
actions.
    America has a freight rail network that is the envy of the 
world. While much of the investment in our freight rail network 
is by private companies, Federal investments in recent years 
have played a critical role in strengthening our national 
freight network.
    Some notable projects involving Federal funding and 
leadership include the 75th Street corridor improvement program 
project in Chicago and the Crescent and Heartland Corridor 
projects that greatly expedited double-stacked freight 
corridors in much of the Eastern United States. I am interested 
in Mr. Jefferies' testimony on how the Federal Government can 
continue to be a partner with freight railroads and build a 
more robust freight rail network.
    With that, I will yield back my time, and I will recognize 
the chairman of the full committee, Mr. DeFazio, for an opening 
statement.
    [Mr. Lipinski's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Hon. Daniel Lipinski, a Representative in 
  Congress from the State of Illinois, and Chairman, Subcommittee on 
             Railroads, Pipelines, and Hazardous Materials
    Good morning. Today's hearing is the last hearing before the final 
drafting of the surface transportation reauthorization bill. I am very 
proud of the Subcommittee's focus the last few months on several 
important topics in the upcoming reauthorization. In September, we held 
a hearing for the first time in this Subcommittee's recent history on 
the needs of commuter railroads, and how we must address the state of 
good repair backlog for commuter rail while we also expand passenger 
service. In November, we held an oversight hearing on Amtrak and its 
future vision, including how to protect long distance train services 
and ensure Amtrak is respecting the rights of its workers. Finally, 
last month we heard testimony on the importance of improving grade 
crossing safety and addressing other community issues such as the 
hassles of blocked crossings and the need for more quiet zones.
    With January's release of infrastructure principles by House 
Democrats, which include a robust $55 billion investment for rail 
infrastructure, today's hearing will focus on how we can best utilize 
this proposed investment to strengthen our passenger and freight rail 
networks and what role the Federal Government should play as part of 
this investment.
    I am pleased that we have multiple perspectives today about this 
important topic. I have spoken many times about the importance of the 
CREATE program in Chicago, and how it is enhancing both passenger and 
freight service in the Chicago region by relieving rail congestion. I 
look forward hearing from Mr. Artl about ACEC's perspective on the 
importance of programs like CREATE and how the federal government can 
advance the CREATE projects not currently completed which 
disproportionately are grade separations. The need for more grade 
separations is one of the top issues I hear about from my constituents.
    I am delighted we also have Dr. Sandra Bury, mayor of the village 
of Oak Lawn, who will emphasize the importance of commuter rail service 
to her community and others. Metra rail service is the economic 
foundation of these communities and it's imperative we do what we can 
to expand Metra service. Part of building a more robust passenger rail 
network is streamlining the process between local communities and the 
freight railroads on adding commuter rail service. It should not take 
10 years or more to add additional commuter train service. I look 
forward to the Mayor's testimony on that issue as well as the real 
world impact Oak Lawn is facing because of Metra's state of good repair 
backlog.
    Finally, I am pleased that we have Rob Shanahan from the BMWED to 
testify about the importance of labor protections as part of any 
investment. While I am one of Congress' biggest advocates for increased 
infrastructure investment, especially in our rail infrastructure, we 
must make sure that these investments don't undermine the bedrock labor 
protections in our laws or jeopardize the livelihoods of unionized men 
and women. Recently, there has been a concerning amount of contracting 
out of formerly union work in the Chicago area by Amtrak to non-union 
workers. I look forward to Mr. Shanahan's testimony on the very serious 
and concerning safety implications of Amtrak's actions.
    America has a freight rail network that is the envy of the world. 
While much of the investment in our freight rail network is by private 
companies, federal investments in recent years have played a critical 
role in strengthening our national freight network. Some notable 
projects involving federal funding and leadership include the 75th 
Street CIP project in Chicago, and the Crescent and Heartland corridor 
projects that greatly expedited double stack freight corridors in much 
of the Eastern United States. I am interested in Mr. Jefferies' 
testimony on how the federal government can continue to be a partner 
with freight railroads and build a more robust freight rail network.

    Mr. DeFazio. Thanks, Mr. Chairman.
    This is a very timely hearing since we are in the midst of 
drafting the rail title to the infrastructure investment plan, 
and, in part, we will be informed by testimony we hear today.
    As we know, moving people by rail or freight by rail is 
much more efficient than road transportation by trucks or 
single-occupancy vehicles, and I am pleased that both Amtrak 
and the AAR are here today, and hopefully we can have a 
dialogue on how we are going to improve on-time performance 
with Amtrak and get their statutory preference, and talk about 
a future where there is a more cooperative relationship for the 
potential for the proposals that Amtrak has to do--city pair 
corridor routes, which I am very excited about, potentially 
taking away the need for a lot of regional air traffic and a 
lot of highway traffic around the country.
    So I am looking forward to the hearing, and, with that, I 
yield back the balance of my time.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
     Congress from the State of Oregon, and Chairman, Committee on 
                   Transportation and Infrastructure
    Thank you, Chairman Lipinski and Ranking Member Crawford, for 
calling today's hearing to discuss how the Federal government can be a 
better partner in repairing and building-out robust national freight 
and passenger rail systems. The needs of these systems are massive and 
complex, the result of decades of underinvestment.
    Climate change is one of the most important battles of our time. 
The fact is, the transportation sector is the largest source of 
greenhouse gas emissions in the U.S. and we need to act quickly to 
reduce carbon pollution. As rail is one of the cleanest forms of 
transportation, making significant investments in our rail network 
should be part of our plan.
    In 2017, the freight railroads comprised just 2 percent of 
transportation-related greenhouse gas emissions and only 0.6 percent of 
all greenhouse gas emissions in the U.S. Despite its lower 
environmental impact, the freight rail industry packs a punch, 
operating across a 140,000-mile national network to deliver an average 
of almost 5 million tons of goods per day. The U.S. Department of 
Transportation estimates that freight movements are expected to grow 
across all modes and will increase 42 percent by 2040. It is critical 
that our freight rail network is capable of keeping pace with demand.
    Our passenger rail network also contributes to lower emissions. 
According to their statistics, Amtrak is 47 percent more efficient than 
car travel and 33 percent more efficient than domestic air travel, per 
passenger mile. While demand for commuter and intercity passenger rail 
has increased substantially in recent years, Federal investment has 
lagged in support for the network that transports tens of millions of 
passengers annually.
    The average age of an Amtrak rail car traveling across the national 
network is 34 years old. Amtrak projects an additional $3.8 billion in 
Federal funds are needed for a series of planned fleet upgrades. As 
these cars near the end of their useful lives, the infrastructure they 
operate over isn't fairing much better. In the Northeast Corridor, the 
backlog of major infrastructure projects totals more than $21 billion, 
with some infrastructure dating back to the Civil War era in dire need 
of replacement.
    This is not sustainable. In order to meet future demands, reduce 
congestion, and meet a state of good repair, now is the time to invest. 
That is why I am proposing a $55 billion investment in rail projects 
over 5 years in the next surface reauthorization.
    In 2019 alone, China spent more than $165 billion on rail projects, 
while countries across Europe are making huge investments in their rail 
systems. And those numbers will only increase in the years to come as 
roads become more congested.
    So today, as we find ourselves in the middle of writing the rail 
title of a surface reauthorization bill, I look forward to hearing from 
our witnesses about how Congress can better support freight and 
passenger rail projects through funding programs--benefitting current 
and future generations.

    Mr. Lipinski. Thank you.
    And now I call on the ranking member of the subcommittee, 
Mr. Crawford, for his opening statement.
    Mr. Crawford. I thank the chairman for holding this hearing 
today. And I also want to thank our witnesses for being here 
today.
    As the committee looks at reauthorizing surface 
transportation programs, it will assess how best to fund our 
railroad system to meet our Nation's future needs. It is 
important to fairly balance the needs of freight and passenger 
rail so that each industry may continue to grow in the coming 
years.
    We must ensure that our Nation's passenger rail systems run 
efficiently and on time and use Federal funds in a way that is 
transparent and best serves the needs of passengers.
    Likewise, we must ensure that our freight rail networks can 
operate effectively and that they have proper funding for 
important maintenance and safety upgrades.
    We must also balance the interests of busy urban areas like 
Chicago with the needs of our rural areas. Focusing only on a 
few large, congested hubs ignores the vast rural areas 
throughout the country that are equally as important to 
stability and success of the entire rail industry.
    Finally, efficient and effective use of Federal funds is a 
top priority. It is very important to make sure that money 
appropriated is easily accessible and used effectively.
    Once again, thank you to all of our witnesses for being 
here, and I thank the chairman, and yield back the balance of 
my time.
    [Mr. Crawford's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Eric A. ``Rick'' Crawford, a Representative 
      in Congress from the State of Arkansas, and Ranking Member, 
     Subcommittee on Railroads, Pipelines, and Hazardous Materials
    As the Committee looks at reauthorizing surface transportation 
programs, it will assess how best to fund our railroad system to meet 
our Nation's future needs. It is important to fairly balance the needs 
of freight and passenger rail so that each industry may continue to 
grow in the coming years.
    We must ensure that our Nation's passenger rail system runs 
efficiently and on time and uses federal funds in a way that is 
transparent and best serves the needs of passengers.
    Likewise, we must ensure that our freight rail networks can operate 
effectively, and that they have proper funding for important 
maintenance and safety upgrades.
    We also must balance the interests of busy urban areas like Chicago 
with the needs of our rural areas. Focusing only on a few large, 
congested hubs ignores the vast rural areas throughout the country that 
are equally as important to the stability and success of the rail 
industry.
    Finally, efficient and effective use of federal funds is a top 
priority. It is very important to make sure the money appropriated is 
easily accessible and used effectively.

    Mr. Lipinski. Thank you, Mr. Crawford.
    Before I introduce all of our witnesses, I am going to give 
a special introduction to three of our witnesses here who are 
from back in the State of Illinois.
    So let me begin with the introduction of Dr. Sandra Bury, 
mayor of the village of Oak Lawn. Dr. Bury is the mayor of the 
village of Oak Lawn, a first-tier suburb of Chicago with a 
population of about 58,000. She was first elected in 2013 on a 
platform of increased transparency, economic development, and 
lower property taxes.
    Under her administration, the local economy has added 
thousands of jobs, and several more commercial projects are 
under development. Municipal debt has been reduced by over $25 
million, the municipal tax levy has been reduced 6 percent, and 
first responder pension contributions have been increased over 
800 percent from 2012.
    Dr. Bury received her doctorate from the Illinois College 
of Optometry in 1995 and owns Complete Vision Care, where she 
practices full-scope primary eye care in addition to her role 
as mayor. She is a past president of the Illinois Optometric 
Association, the Chicago South Suburban Optometric Society, 
Volunteer Optometric Services to Humanity-Illinois chapter, and 
the Oak Lawn Rotary Club. She has been a senior clinical 
examiner for the National Board of Examiners in Optometry. We 
welcome Dr. Bury.
    Mr. Robert J. Shanahan, Jr., proudly serves as the 
assistant to the president-director of arbitration of the 
Brotherhood of Maintenance of Way Employes Division of the 
International Brotherhood of Teamsters. Mr. Shanahan was 
appointed to this position last year after previously serving 
as a labor advocate in the BMWED-IBT Arbitration Department. 
Prior to his work in the Arbitration Department, Mr. Shanahan 
was elected to serve as local chairman of BMWED-IBT Local Lodge 
469.
    He began his railroad career in April 2000 in the 
Maintenance of Way Department of the Metra Commuter Railroad, 
where he was assigned work throughout the Metropolitan Chicago 
area performing various aspects of construction, maintenance, 
and repair to the tracks, structures, and bridges.
    A native of Manhattan, Illinois, Mr. Shanahan has 
instructed various BMWED labor advocacy courses and completed 
advocacy courses at the National Labor College located in 
Silver Spring, Maryland.
    Mr. Kevin Artl is the president and CEO of the American 
Council of Engineering Companies of Illinois, where he 
represents and advocates for over 200 engineering and 
affiliated companies representing over 11,000 employees. Prior 
to his current role at ACEC Illinois, Mr. Artl served as chief 
operating officer of the Illinois Tollway, where he helped 
manage and execute the tollway's $14 billion Move Illinois 
capital program.
    As the tollway's COO, Mr. Artl coordinated with industry 
leaders on tollway policy and capital plans, emerging 
technologies, and best business practices. In addition to his 
work at the Illinois Tollway, Mr. Artl served in senior roles 
for over 15 years in both the United States Senate and Illinois 
General Assembly.
    Mr. Artl served as State director for former United States 
Senator Mark Kirk and as his director of communications and 
later as the director of policy for former Illinois House 
Minority Leader Tom Cross. Prior to his work in Government, Mr. 
Artl served as the director of government affairs for Amtrak.
    Welcome.
    Now, I would like to welcome the remaining witnesses on the 
panel.
    First, Mr. Stephen Gardner, the senior vice president and 
chief operating and commercial officer for Amtrak.
    As I said, Dr. Sandra Bury, mayor of the village of Oak 
Lawn, Illinois.
    Mr. Kevin Corbett, president and chief executive officer of 
New Jersey Transit Corporation.
    Mr. Rob Shanahan, assistant to the president, BMWED.
    Mr. Kevin Artl, president and chief executive officer of 
ACEC Illinois.
    And Mr. Ian Jefferies, president of the Association of 
American Railroads.
    Thank you all for being here today, and I look forward to 
your testimony.
    Without objection, our witnesses' full statements will be 
included in the record, and, since your written testimony has 
been made part of the record, the subcommittee requests that 
you limit your oral testimony to 5 minutes.
    Mr. Gardner, you may now proceed. I recognize you for 5 
minutes.

 TESTIMONY OF STEPHEN GARDNER, SENIOR EXECUTIVE VICE PRESIDENT 
 AND CHIEF OPERATING AND COMMERCIAL OFFICER, NATIONAL RAILROAD 
PASSENGER CORPORATION (AMTRAK); HON. SANDRA BURY, O.D., MAYOR, 
VILLAGE OF OAK LAWN, ILLINOIS; KEVIN S. CORBETT, PRESIDENT AND 
  CHIEF EXECUTIVE OFFICER, NJ TRANSIT CORPORATION; ROBERT J. 
     SHANAHAN, Jr., ASSISTANT TO THE PRESIDENT-DIRECTOR OF 
    ARBITRATION, BROTHERHOOD OF MAINTENANCE OF WAY EMPLOYES 
 DIVISION, INTERNATIONAL BROTHERHOOD OF TEAMSTERS; KEVIN ARTL, 
  PRESIDENT AND CHIEF EXECUTIVE OFFICER, AMERICAN COUNCIL OF 
ENGINEERING COMPANIES OF ILLINOIS; AND IAN JEFFERIES, PRESIDENT 
 AND CHIEF EXECUTIVE OFFICER, ASSOCIATION OF AMERICAN RAILROADS

    Mr. Gardner. Good morning, Chairman Lipinski, Chairman 
DeFazio, Ranking Member Crawford, and all the members of the 
subcommittee.
    My name is Stephen Gardner, and I serve as Amtrak's chief 
operating and commercial officer. It is my pleasure to testify 
today on how an infrastructure bill and surface transportation 
reauthorization could help lead to a new era of growth and 
utility for intercity passenger rail.
    Amtrak's recent successes prove that intercity passenger 
rail service is working in America. The numbers speak for 
themselves. Over the past 20 years, ridership and passenger 
revenue have grown by 60 and 130 percent respectively, and we 
have reduced our net operating loss to just under $30 million 
last year, allowing us to spend far more of our Federal dollars 
on addressing our huge capital needs instead of funding 
operations, yet we can and must do more.
    As a point of reference, Germany, a nation the size of New 
Mexico with one-quarter of our population, international 
railway Deutsche Bahn, just committed $96 billion to improve 
their railway network. They did so to achieve their carbon 
reduction targets, and to meet a surging demand for more 
passenger trains. This 10-year program alone is nearly twice 
what the United States Government has invested in Amtrak over 
our entire 49-year history.
    With better policy and reliable long-term funding, 
intercity passenger rail could similarly become a much larger 
part of our transportation system and a key aspect of our 
climate response. In fact, I struggle to see any future where 
this isn't a requirement given the lack of capacity on our 
other transportation modes.
    Our State-supported business, which provides roughly half 
of our ridership and has been our biggest source of growth, 
illustrates intercity passenger rail's potential. Thanks to 
State sponsorship and financial support, these routes provide 
effective transportation in many regions of our Nation, yet we 
and our State partners have often been stymied in our efforts 
to improve and expand services in many places for four basic 
reasons.
    First, there has been insufficient long-term Federal 
funding to support frequency expansion, route improvements, and 
new services.
    Second, the high burdens on States to provide both capital 
and operating funding right from the start of new service has 
hampered growth, even when conditions clearly warrant it.
    Third, decades of insufficient Federal funding for our 
fleet means we lack the equipment to support growth, and we 
incur higher costs and less reliability every day.
    And, finally, we struggle with many of our host railroad 
partners to gain reasonable access to their infrastructure and 
preferential treatment over their railroad as required by 
existing Federal law.
    In response, Amtrak's reauthorization proposals, some of 
which were recently released in our annual request to Congress, 
calls for establishment of a long-term source of capital 
investment for Amtrak expansion, fleet replacement, and 
infrastructure renewal; funding for Amtrak to provide initial 
capital and operating assistance for State-supported 
expansions, and new routes nationwide; an expedited and fair 
process for obtaining access to host railroads, including a 
method to establish any necessary capital investments; and 
better enforcement of our legal rights to dispatching 
preference.
    And, finally, significant funding for major rail mega 
projects, like our proposal for a passenger-dedicated route 
into Chicago to support growth and on-time performance.
    We firmly believe that the Nation's 50 largest metropolitan 
regions, at a minimum, should be served by high-quality 
intercity passenger rail service, with many more communities 
deserving it also. While we have great partnerships in place 
today, there are so many underserved communities and corridors 
in the Nation, places like Nashville to Atlanta, Colorado's 
Front Range, or the Texas Triangle. They all deserve Amtrak 
service.
    For proof of how much more rail can do for the Nation, we 
only need look to the Northeast Corridor, the continent's 
busiest railroad, which provides 260 million trips a year 
between commuter and intercity service, yet this success is in 
jeopardy because of decades of deferred investment and the 
ravages of age and high use.
    Amtrak is fully committed to working with our NEC partners, 
like Mr. Corbett and New Jersey Transit, to advance key renewal 
capacity projects, like Portal Bridge and the Hudson Tunnel, 
but achieving these monumental projects requires a long-term 
partnership with the Federal Government and billions of 
dollars' worth of reliable, consistent, and dedicated funding 
for these efforts.
    Finally, our long-distance network is in dire need of 
Federal investment to replace our aging fleet, which is 
dominated by equipment nearly as old as I am. We recognize the 
importance of these routes to many communities across the 
Nation, and modernizing our fleet and services is essential to 
ensuring their long-term vitality.
    So thank you for the chance to discuss these issues today. 
I want to commend Chairman DeFazio, Chairman Lipinski, and the 
House leadership for their recent bold proposal for passenger 
rail infrastructure investment. As you can see from the German 
example, $55 billion for rail is a reasonable and great start. 
If Amtrak knew such amounts were available for a 10-year 
period, we could rebuild our assets, dramatically expand 
service, and make a significant contribution to enhancing 
mobility and reducing our carbon footprint.
    We are excited to work with the subcommittee and the full 
committee, and urge you to increase funding for Amtrak and our 
State partners so that we collectively can do more for the 
Nation.
    Thank you.
    [Mr. Gardner's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Stephen Gardner, Senior Executive Vice President 
and Chief Operating and Commercial Officer, National Railroad Passenger 
                          Corporation (Amtrak)
    Good morning Chairman Lipinski, Ranking Member Crawford, and all 
the members of this Subcommittee. My name is Stephen Gardner and I 
serve as Senior Executive Vice President and Chief Operating and 
Commercial Officer for Amtrak. It is my pleasure to testify here today 
on behalf of Amtrak's many dedicated employees.
    I look forward to discussing with you the many productive steps 
that could be taken to support a robust passenger rail network in the 
United States. In particular, there has been recent discussion by this 
committee on the potential infusion of additional federal funding for 
rail as part of an infrastructure bill, as well as new federal policy 
and programs that could be considered as part of a multiyear surface 
transportation reauthorization. Such opportunities can help ensure the 
safety, reliability, and future growth of intercity passenger rail 
throughout this nation and Amtrak wants to work with Congress to help 
realize this potential.
    My testimony today will focus on both the opportunities and 
challenges that exist for Amtrak's National Network with includes the 
state-supported services we partner with states to deliver and long 
distance service, and the Northeast Corridor (NEC).
            State Supported Service and Corridor Development
    Amtrak's 27 state-supported routes--our short-distance services 
outside of the NEC--illustrate both intercity passenger rail's enormous 
potential and our nation's failure to realize it more fully.
    In FY 2019, state-supported routes carried 15.4 million riders, 47% 
of Amtrak's total ridership and a 19% increase from ten years ago. 
State-supported revenues, including state payments, covered 93% of 
operating costs, resulting in a federal operating funding requirement 
of $58 million. States also contributed approximately $60 million for 
equipment overhaul capital costs, and many states also made significant 
capital investments in state-owned equipment, stations and 
infrastructure. Most state-supported routes operate over heavily 
populated short distance corridors ranging from approximately 100 to 
400 miles in length.
    Many of the state-supported routes benefited from various USDOT 
competitive grant programs in recent years, often with the support of 
state matching funds. While these grants funded several very worthwhile 
intercity passenger rail projects, there has not been enough Federal 
money to develop or significantly improve even a single corridor--or 
for that matter to fund a single interstate highway interchange or 
airport terminal expansion. Imagine for a moment what our highways or 
our aviation system would look like if they were funded at the levels 
at which we fund intercity passenger rail. Addressing this funding 
deficit through a reliable and substantial source of Federal funding 
remains the most important change needed to support a reemergence or 
expansion of intercity passenger rail service in our nation.
    The most immediate investment need on our state-supported routes is 
new equipment. Most of the passenger cars and many of the locomotives 
operating on our state-supported corridors are approaching or have 
reached the end of their useful lives. The newest of the Amfleet I cars 
built in 1975-1977 is 43 years old. In addition to providing our 
Northeast Regional service between Boston and Washington, these cars 
are utilized on all our Northeastern and Virginia state-supported 
routes, and on several other state-supported routes. In January 2019, 
we issued a Request for Proposals (RFP) for 75 new trainsets (or 
railcar equivalents) to replace the 458 Amfleet I cars, as well as 16 
of the original Metroliner railcars built a half century ago and the 
five Talgo VI trainsets operated on the Amtrak Cascades service in the 
Pacific Northwest. The RFP also called for options for up to 50 
additional trainsets to provide equipment for new or additional short 
distance services. Bids have been received and are being evaluated by 
Amtrak and its state partners. An award is expected later in 2020.
    The RFP contemplates the acquisition of equipment that will be bi-
directional, eliminating the need to turn trains at endpoints, and 
dual-mode--capable of operating under electric power on the NEC between 
Boston and Washington and the Philadelphia-Harrisburg Keystone Line and 
with diesel power elsewhere. This will allow us to eliminate engine 
changes on Northeast Regional and other trains that operate on both the 
NEC and unelectrified state-supported routes, reducing trip times and 
delays.
    While the states that fund Amtrak's state-supported service welcome 
the opportunities that a new equipment fleet will provide, they have 
told us that they are unable to fund the entire capital cost of 
wholesale replacement of the Amfleet I equipment operating on their 
routes, acquired by Amtrak with federal funding over four decades ago. 
Acquisition of new equipment will be severely constrained if no federal 
funding is provided to match state investments. To address this, our 
legislative and grant request proposes that Congress continue to set 
aside at least $100 million annually for the upfront Amfleet I 
replacement costs, as it did in FY 2020, to offset 50% of the states' 
proportional share of acquisition costs.
    The next highest investment priority for both existing state-
supported routes and future corridor development is infrastructure. 
Four of Amtrak's ten highest ridership routes outside of the NEC--the 
Oakland/Sacramento-Bakersfield San Joaquins; the Chicago-St. Louis 
Lincoln Service; the Boston-Portland/Brunswick Downeaster and the 
Amtrak and Michigan DOT-owned portions of the Chicago-Detroit/Pontiac 
Wolverine route--are still predominantly single-track railroad. That 
means that when two Amtrak trains going in opposite directions meet, 
one must pull over onto a siding or passing track and cannot proceed 
until the other train has passed. This increases trip times, and also 
constrains increases in service frequency.
    Only a few of our short distance routes offer trip times that are 
truly competitive with driving or flying. Outside of the Boston-to-
Washington NEC, there are only four corridor routes--all owned and/or 
operated and maintained by Amtrak--on which our trains exceed 90 miles 
per hour. Stations in major cities where we have significant corridor 
service like Chicago, or where we should have such service like Atlanta 
and Cleveland, are inadequate to accommodate even our existing trains, 
let alone much needed growth in passenger rail service.
    As Amtrak explained in testimony before this committee last 
November,\1\ because of lack of funding and a coordinated national 
effort, we are missing out on enormous opportunities to expand 
intercity passenger rail service. Amtrak could do, and needs to do, a 
great more than we do today to offer effective connections between 
communities in heavily populated corridors across America; alleviate 
worsening congestion on highways and our aviation system; and encourage 
use of a more sustainable transportation option that is more energy 
efficient and environmentally friendly than travel by other modes. We 
need to start pursuing those opportunities now.
---------------------------------------------------------------------------
    \1\ https://transportation.house.gov/imo/media/doc/
Anderson%20Testimony2.pdf
---------------------------------------------------------------------------
    We do not have to look very far to see what can be accomplished 
when elected officials and policymakers decide to invest in intercity 
passenger rail. When Amtrak was created in 1971, the only Amtrak trains 
that rumbled through the tunnel beneath Capitol Hill that leads to the 
Long Bridge to Virginia were three pairs of overnight long-distance 
trains that stopped in Richmond on their way to Florida. In 2009, 
Virginia began providing funding for expanded Amtrak service, which 
ultimately included new trains from Washington to Richmond, Norfolk, 
and Lynchburg/Roanoke. The number of passengers traveling on these new 
services exceeded expectations: ridership on Amtrak's Virginia services 
nearly doubled over the ensuing ten years. Demand for Amtrak in 
Virginia has been so high that it could easily support doubling the 
frequency of service we offer today.
    So, Amtrak and the Commonwealth of Virginia are going to do exactly 
that. Amtrak, Virginia, and our host railroad, CSX, have reached 
agreements that will allow us to double the level of service we provide 
between Washington and Richmond to near hourly by 2030, and to increase 
service frequency to both Norfolk and Newport News. The agreements 
provide for construction of 37 miles of additional track to increase 
capacity, and of a new double-track bridge over the Potomac River. By 
supplanting the existing Long Bridge, which is at 98% capacity during 
peak periods, the new bridge will alleviate the major bottleneck to 
increasing Amtrak and Virginia Railway Express commuter rail service 
between Washington and Virginia. The additional capacity the new 
Potomac River bridge will provide, and Virginia's acquisition of the 
Virginia portion of a more direct, largely abandoned rail line from 
Petersburg to Raleigh and of an east-west rail line from the Richmond 
area to western Virginia, also set the stage for future expansion of 
rail service throughout Virginia, and to Raleigh to link up to North 
Carolina's Charlotte-Raleigh Piedmont Corridor Amtrak service.
    The partnership between Amtrak and Virginia demonstrates what can 
be accomplished when Amtrak and states partner to develop increased and 
new Amtrak services on growing, heavily traveled corridors. For the 
past two years, Amtrak has been working to identify the corridors with 
the highest demand for multi-frequency, high-quality passenger rail 
service. We have been analyzing data on demographics, population 
density and growth, and travel demand on other modes; reviewing state 
and regional rail plans; and talking with federal and state elected 
officials, our state partners, and departments of transportation in 
states with which we do not currently have state partnerships.
    Through this analysis, we have identified more than two dozen 
promising corridors we either do not serve at all or do not serve well, 
today, and existing corridors on which there is significant unmet 
demand for additional--and better--Amtrak service. We expect to finish 
our analysis shortly and will share it with you and other stakeholders 
to solicit your input. Our goal is to serve many more people and more 
communities than we do today by developing a national network of 
corridors with service that is trip time-competitive with other modes 
and will link major and growing population centers in all regions of 
the United States.
    Realizing that goal is going to require new federal funding 
mechanisms to jump start intercity passenger rail growth and give 
states financial incentives to fund additional services. In the annual 
grant requests and legislative proposals we submitted to Congress on 
February 15, we recommended that Congress establish a Corridor 
Development Program. Under this proposal:
    <bullet>  the federal government would provide additional funding 
to Amtrak that could be used to cover up to 100% of the initial capital 
costs for new or additional services in high potential corridor routes;
    <bullet>  the federal funding would also cover up to 100% of the 
operating losses and ongoing capital costs for these services in the 
first two years of operation, and up to 90%, 80% and 50% in years 
three, four, and five, respectively; and
    <bullet>  beginning in year six, these services would become state-
supported services, with states funding most operating losses and some 
capital costs in accord with the methodology developed by Amtrak and 
states pursuant to Section 209 of the Passenger Rail Investment and 
Improvement Act of 2008 (PRIIA).

    While our corridor development plan will require a significant 
increase in federal funding for intercity passenger rail service, it 
will also produce a much bigger ``bang for the buck'' by providing a 
higher return for each dollar of federal investment. Offering services 
that are trip time competitive with other modes and provide multiple 
frequencies rather than just one round trip per day will generate 
higher revenues from passengers and produce operational efficiencies 
that lower costs. Our projections indicate that an expanded corridor 
network would have a much lower federal operating funding requirement 
per passenger than our existing services. It will also produce 
thousands of additional well-paying, high-skilled permanent railroad 
jobs, in addition to the jobs associated with construction of 
infrastructure investments and manufacture of new equipment and all of 
the jobs created by the enhanced economic activity resulting from new 
and increased Amtrak services.
    In addition to infrastructure and equipment, advancing a corridor 
development program will also require increased federal funding for 
major investments in station redevelopment and new station construction 
to match investments by state, local, transit and private partners. The 
greatest need is in Chicago. Chicago Union Station (CUS), the largest 
station we own outside of the NEC CUS is a vital asset for both 
Amtrak's existing National Network and future corridor development 
efforts. It has the fourth highest ridership of any Amtrak station, 
behind only New York, Washington, and Philadelphia. It is one of the 
endpoints, and in many cases the highest ridership station, on Amtrak 
routes serving 34 states stretching from Massachusetts to California. 
CUS is the hub of our state-supported Midwest corridor network, our 
nationwide long-distance network, and the future Midwest High Speed 
Rail Network. It is also the most important of Chicago's four commuter 
rail terminals, the Chicago terminus of six Metra commuter rail lines.
    After working with other stakeholders to complete a Master Plan for 
CUS, we have recently entered into a Master Developer agreement to 
begin implementation of that plan. Among the key components are 
numerous platform improvements, including additional platform access 
and egress points that will improve access and walkability for 
passengers, particularly commuters on crowded peak period trains. The 
office tower that will be built on former Amtrak property across the 
street from the station will accommodate the first block of a planned 
two-block pedestrian connection to the Clinton Street Subway Station, 
restoring a direct connection with Chicago's subway/elevated network 
which CUS has lacked since the Chicago Elevated line serving the 
station was abandoned in 1958. We are also evaluating the feasibility 
of developing a new ``passenger route'' into CUS for trains from the 
East and South.
                        Northeast Corridor (NEC)
    Our Boston-to-Washington NEC services--the high-speed Acelas and 
Northeast Regional--carried 12.6 million passengers in FY 2019, a 3.3% 
increase over FY 2018. They generated $1.4 billion in revenues, over 
half of Amtrak's total from intercity train operations, and had an 
operating cost recovery of 170%, producing $569 million in net 
operating revenues for NEC capital investments. To put those figures 
into perspective, after Amtrak acquired the NEC in 1976 Congress 
established a statutory goal of 55% operating cost recovery.
    NEC ridership has increased 26%, and ticket revenues have grown 
57%, over the past decade despite the fact that we have been able to 
make only modest increases in capacity due to equipment and 
infrastructure constraints. While we are still operating the same 20 
Acela trainsets with just 299 seats per train we acquired two decades 
ago, improved equipment utilization allowed us to introduce non-stop 
Acela service between New York City and Washington last year, reducing 
our fastest trip time to two hours and 33 minutes. During FY 2020, we 
will complete the programs we began in FY 2018 to refresh the Acela 
trainsets and the Amfleet I cars we operate on Northeast Regional 
trains. These refresh programs, which include new seat cushions, 
carpets and other interior improvements, have significantly increased 
customer satisfaction scores.
    Over four plus decades of Amtrak ownership, the NEC has been 
transformed from a deteriorated rail line that was literally falling 
apart into North America's only high-speed railroad and most heavily 
trafficked commuter rail line, accommodating over 2,000 commuter trains 
each weekday in addition to 140 Amtrak trains. While Amtrak's NEC is a 
major success story--a vital cog in the transportation network of our 
country's largest megaregions--it faces two major challenges: 
infrastructure and stations in urgent need of investment to maintain 
and improve existing services and provide much needed increases in 
capacity, and an equipment fleet that has reached the end of its useful 
life.
Infrastructure
    Amtrak, states, and commuter railroads will contribute 
approximately $3.1 billion for base capital costs over the next five 
years through the NEC Commuter and Intercity Rail Cost Allocation 
Policy developed in accord with Section 212 of PRIIA, helping create a 
reliable source of funding for the capital renewal of basic 
infrastructure assets. However, that funding will not address the NEC's 
state-of-good repair (SOGR) needs, most recently estimated at $42 
billion by the NEC Commission (including the non-Amtrak portions of the 
NEC owned by states). The NEC has hundreds of miles of aging track bed, 
hundreds of century-old small bridges, over a dozen century-old major 
bridges and tunnels, and power supply and signal systems that still 
rely on 1930s technology. Amtrak and the states alone do not have the 
funds to reduce the NEC SOGR backlog, let alone address many of the 
major projects that are so critical to the region and the nation. 
Simply put, these infrastructure projects are perfect examples of why 
we cannot wait to invest in our infrastructure.
    The Subcommittee's members are very familiar with Amtrak's most 
urgent NEC infrastructure needs, which Amtrak and its NEC state 
partners have detailed in testimony and reports for well over a decade. 
I will therefore provide only a brief update on the progress Amtrak and 
our partners have in preparing to construct these critical projects 
when then the necessary federal, and in some cases other, funding is 
made available.
    I did not say ``if and when'' because none of these projects is 
discretionary. The infrastructure, all more than a century old, these 
projects will replace or reconstruct is increasingly unreliable. At 
some point it will no longer be usable in whole or part. Therefore, 
these multi-year projects must be initiated over the next few years if 
we are to avoid dramatic degradations and reductions in Amtrak and 
commuter service on the NEC. In fact, for some of these projects, it 
may turn out to be too late.
            Portal North Bridge
    This 109-year old swing bridge over the Hackensack River in New 
Jersey is used by the up to 450 Amtrak and NJ Transit (NJT) trains that 
travel each day between Newark, New Jersey, and New York Penn Station, 
more trains than any other rail bridge in the Western Hemisphere even 
though it only has two tracks. Trains must slow down to a maximum speed 
of 60 miles per hour before they cross and come to a stop when the 
bridge rotates open for maritime traffic in the Hackensack River below. 
Sometimes the bridge will not close thereafter, shutting down the NEC. 
Early construction work for its replacement began in 2017. Amtrak and 
NJT have committed funding for approximately 50% of the estimated 
project cost of $1.6 billion. The Federal Transit Administration (FTA) 
has recently approved moving the project into the engineering phase, 
which makes it eligible for FTA funding. Future construction of an 
additional two-track bridge is a key component of the Gateway Program 
that would change the NEC's greatest bottleneck--the predominantly two-
track, 10-mile line between Newark and New York Penn Station--into a 
four-track railroad, doubling capacity on the NEC segment with the 
highest train density.
            Hudson Tunnel Project
    More than nine years have passed since Super Storm Sandy flooded 
both of the two single-track tubes of the North River Tunnels beneath 
the Hudson River that have served as the only rail link between New 
York Penn Station and New Jersey since 1910. The corrosion of the track 
structure, the concrete bench walls that line the tunnels, and the 
critical high-voltage cables within the bench walls that power NEC 
trains resulting from the tunnels' inundation with millions of gallons 
of brackish sea water continues to progress. Failures of the tunnels' 
deteriorated infrastructure are a frequent occurrence, resulting in 
multi-hour delays for Amtrak and NJT passengers. We do not know for 
sure the point at which one, and eventually both, of the existing North 
River Tunnels will have to be taken out of service for an extended 
period of reconstruction. But we do know that it will take about seven 
years to construct the new tunnels, and if they are not ready in time 
the number of trains Amtrak and NJT can operate between Penn Station 
and New Jersey will decrease by as much as 75%. Amtrak, New York and 
New Jersey agreed last year to increase their combined funding 
commitment to $5.9 billion, 56% of the project's projected cost. We 
await federal action on the updated draft of the Final Environmental 
Impact Statement (EIS) for the project that NJT submitted in 2018, and 
to provide the federal funding needed to advance this vital project.
    Given the delays in advancing the Hudson Tunnel Project, we have 
begun considering what steps may be possible to ensure the reliability 
of the existing tubes while we await construction of the new tunnel 
which is a precursor to completing full rehabilitation. We are 
currently undertaking a review of whether we can advance some elements 
of tunnel rehabilitation or undertake other stabilization efforts in 
the near term, to bolster reliability without incurring major impacts 
to service. A new Hudson River Tunnel remains critical to the NEC and 
the nation and we look forward to our continued work with the USDOT to 
advance this project.
            East River Tunnels Reconstruction
    The tunnels that carry the NEC beneath the East River to Queens 
were also severely damaged by Hurricane Sandy. These four single-track 
tunnels were constructed in 1910 and are used each day by up to 810 
Amtrak and Long Island Rail Road trains and NJT trains stored and 
serviced at Amtrak's Sunnyside Yard. Amtrak expects to complete design 
work for their reconstruction next year and plans to take each tunnel 
out of service for extended periods beginning in 2023. The latest cost 
estimate for the tunnel repair project is over $1 billion and we are 
actively exploring ways that we might advance elements of this work 
prior to tunnel closure to limit outage durations and accelerate 
repairs.
            Baltimore & Potomac (B&P) Tunnel Replacement
    Amtrak is currently in design phase for a four-track tunnel to 
replace the two-track B&P tunnel that carries the NEC south from 
Amtrak's Baltimore station. Built in 1873, the B&P Tunnel is among the 
oldest infrastructure along the NEC: a soggy, two-track, 1.4-mile 
bottleneck through which high speed Acela trains must slow to just 30 
miles per hour. It is literally sinking, requiring frequent repairs, 
and it constrains any significant expansion of Amtrak and MARC commuter 
rail services. The projected cost of the new tunnel is approximately $5 
billion, and funding has not been identified.
            Susquehanna River Bridge
    Following environmental reviews, FRA issued a Finding of No 
Significant Impact in March 2017 for replacement of the two-track swing 
bridge over the Susquehanna River between Havre de Grace and 
Perryville, Maryland. The current bridge is 4,000 feet long and was 
built in 1906. Each opening for maritime traffic requires a large crew 
and significantly disrupts train operations even if there is not a 
breakdown of the bridge's ancient operating mechanisms. The new bridge 
design includes two new high-level, fixed bridges with a total of four 
tracks, one of which will be designed for 160 miles per hour high speed 
operations, and 60 feet of vertical clearance that will eliminate 
bridge openings for maritime vessels. Funding is needed to finish 
design and for the estimated $1.7 billion cost of constructing the new 
bridge.
    While securing the funding for and constructing all these projects 
is a major challenge, it is also an opportunity. In addition to 
addressing urgent SOGR needs, these projects and the other major NEC 
SOGR projects Amtrak is advancing with our state and federal partners 
will significantly improve reliability and on-time performance for all 
NEC services. Many will also provide much needed additional capacity 
and increased speeds, reducing trip times.
    There are also significant investment needs and opportunities 
between New York and Boston. Acela trip times between those cities are 
a full hour longer than between the nearly identical distance between 
New York and Washington due to slower speeds on many segments. As a 
result, Amtrak carries just over half of the travelers who use air or 
rail between New York and Boston, versus more than 75% between New York 
and Washington.
Stations
    As those who ride Amtrak in the NEC are well aware, many of its 
most important stations have inadequate track capacity and concourses 
and customer waiting areas and lounges that are overcrowded, poorly 
designed, and outdated. While we invested $114 million in FY 2019 to 
improve NEC stations, much higher levels of investment are needed to 
transform these stations into the world class facilities our passengers 
and major Northeast cities deserved. To jump start that process, we 
have commenced Major Station Asset Development Programs at the four 
Amtrak-owned NEC stations with the highest ridership to advance 
projects for which funding is available and develop plans for more 
comprehensive future investments when funding allows.
    <bullet>  In New York, in partnership with New York's Empire State 
Development, the Moynihan Train Hall in the James A. Farley Post Office 
building across the street from Penn Station is expected to open by the 
end of this year. In addition to relieving severe overcrowding in the 
current subterranean passenger concourse, it will provide an enhanced 
passenger experience within a grand space featuring a sky-lit atrium 
approximately the size of the Grand Central Terminal's Main Hall. 
Additionally, we are working with our partners to advance Penn Station 
expansion, known as Penn South, which would increase the number of 
tracks at Penn Station for the first time since it opened 110 years 
ago.
    <bullet>  At Washington Union Station, we are working with other 
stakeholders to advance the Washington Union Station Expansion Project 
to transform this vital transportation hub while preserving the iconic 
historic station building, which is owned by the Federal Railroad 
Administration and managed by the Union Station Redevelopment 
Corporation. This project, when completed, will provide significantly 
more concourse space and improved passenger facilities; new tracks and 
platforms to accommodate increased Amtrak, MARC and Virginia Railway 
Express services; a new train hall over the tracks; and new bus and 
parking facilities.
    <bullet>  In Philadelphia we are continuing initiatives to 
integrate the William H. Gray III 30th Street Station with the 
surrounding 30th Street Station District, improve customer amenities 
and create an easy to navigate pedestrian path between the Station and 
SEPTA's adjacent Subway/Trolley Station.
    <bullet>  At Baltimore Penn Station, we reached commercial close 
last year for $90 million of improvements that will expand and modify 
the station and facilitate redevelopment of the surrounding 
neighborhood.
Equipment
    With the exception of the new ACS-64 locomotives acquired in 2014-
16 to replace the NEC's electric locomotive fleet, virtually all the 
equipment used in Amtrak's NEC services requires replacement. Next 
year, we expect to mark Amtrak's 50th anniversary by placing in service 
the first of the new 28 high-speed Acela trainsets that will replace 
the 20 original Acela trainsets. In addition to providing significantly 
enhanced customer amenities and accessibility improvements that go 
beyond Americans with Disabilities Act (ADA) requirements, the 
increased number of trainsets, each with 30% more capacity than the 
current Acela fleet, will enable us to add Acela frequencies and 
accommodate additional passengers on trains that frequently sell out 
today. The new trainsets are primarily funded through a Railroad 
Rehabilitation and Investment Financing (RRIF) loan from the FRA, which 
will be repaid from incremental net revenues generated through 
increased Acela ridership.
    As I have already mentioned, we are also working with our state 
partners to procure a new equipment fleet to replace the Amfleet I 
equipment currently used on Northeast Regional trains. We welcome the 
opportunity this procurement, the largest in Amtrak's history, will 
provide to transform the operation, schedules and customer experience 
on Northeast Regional, our highest ridership route. However, funding 
this procurement will be more of a challenge than the Acela procurement 
because of the state funding constraints I have noted and the lower 
yields per passenger mile attainable from upgrading our Northeast 
Regional service.
                             Long Distance
    Amtrak long distance trains--the 15 routes over 750 miles in 
length--carried 4.6 million customers in FY 2019, 14% of our total 
ridership. These services create important connections between our 
major metropolitan centers and communities in the various regions of 
our nation.
    Long distance faces two major funding challenges. The first is 
that, unlike the NEC and State-Supported Service Lines, it is dependent 
upon federal funding to cover significant operating losses and 
virtually all its capital costs. Revenues covered 53% of long distance 
operating costs last year, producing a federally funded operating loss 
of $475 million that accounted for 89% of Amtrak's FY 2019 operating 
loss. Long distance capital costs, funded almost entirely by Amtrak's 
National Network grant, totaled $542 million last year.
    The second major funding challenge confronting long distance is 
that most of the long-distance equipment fleet is at or nearing the end 
of its useful life and requires replacement with modern equipment. The 
majority of our long-distance passengers travel on cars built between 
1979 and 1983: the bi-level Superliner I cars used predominantly on our 
Western trains and the single level Amfleet II cars used on Eastern 
long-distance routes. The P42 diesel locomotives that power long 
distance trains are on average 20 years old, have traveled an average 
of over 3.3 million miles, and burn more fuel and produce more 
emissions than modern locomotives. Forty-year old passenger cars do not 
provide the accommodations or amenities today's travelers expect, which 
negatively impacts long-distance revenues, and both cars and 
locomotives are increasingly expensive to maintain and prone to 
breakdowns.
    Two long distance equipment procurements are currently underway. In 
December 2018, we awarded an $850 million contract for 75 new ALC-42 
diesel locomotives, which we plan to use primarily to replace some of 
the P42s operating on long distance trains. These units are being 
funded with cash reserves and our National Network grant. During 2020, 
we also expect to receive the last of the long delayed 130 single level 
Viewliner II cars we ordered in 2010 that replaced the last of the 60-
70-year-old passenger cars Amtrak inherited when it took over 
operations from private railroads in 1971.
    As discussed in the most recent update to our comprehensive fleet 
strategy, included in the FY 2021-2025 asset line plans we recently 
provided to Congress,\2\ replacement of Superliner I, Amfleet II, and 
remaining P42 long distance fleet is predicated on both policy 
decisions and funding. We anticipate that the upcoming reauthorization 
will provide guidance to Amtrak from Congress regarding the future 
long-distance route network that the new long-distance fleet must 
support, and that Congress will provide the level of funding needed to 
acquire that fleet. We estimate that complete replacement of this 
equipment to maintain service on all current long-distance routes would 
require an over $2 billion federally funded financial commitment.
---------------------------------------------------------------------------
    \2\ https://www.amtrak.com/content/dam/projects/dotcom/english/
public/documents/corporate/businessplanning/Amtrak-Asset-Line-Plans-
FY21-25.pdf
---------------------------------------------------------------------------
    In addition to equipment, there are also significant funding 
requirements to bring long distance stations, 230 of which are served 
solely by long distance trains, into full compliance with ADA 
requirements, and to renew track and signals and install positive train 
control on the 200-mile portion of the Southwest Chief route in 
Colorado and New Mexico on which the Chief is the only train operating. 
Infusion of federal funds through an infrastructure bill could help 
Amtrak address these and other long distance capital funding 
challenges.
                      Amtrak and Freight Railroads
    I would be remiss if I did not end by addressing two great threats 
to the continued operation and growth of our state supported and long 
distance routes: abysmally poor on-time performance (OTP) on some of 
our host railroads and the extreme difficulty Amtrak faces in adding 
new routes or expanding existing services on host railroad track.
    Amtrak's creation relieved the railroads now referred to as 
``freight railroads'' of their legal obligation to provide themselves 
intercity passenger rail service, on which they were incurring huge 
financial losses. In return, federal law (49 U.S.C. 24308(c)) requires 
them to give Amtrak's trains preference over their freight trains, and 
to accommodate increases in Amtrak train operations. Too often today, 
host railroads are ignoring these legal obligations, to the detriment 
of our passengers, our employees, the state partners who fund our 
state-supported services and the taxpayers who provide Amtrak's federal 
funding.
    Amtrak's on time performance (OTP) on many host railroads is poor 
and has gotten worse, even though freight rail traffic has declined by 
more than 10% since 2006. In FY 2019, only 42% of long distance 
passengers arrived at their destination on time. Host-railroad 
responsible delays account for 67% of the delays to Amtrak trains 
operating over host railroad lines. Freight train interference is the 
largest cause of such delays: during FY 2019, it accounted for over one 
million minutes of delays on host railroads.
    By statute, currently only the U.S. Department of Justice (DOJ) can 
enforce preference in a civil action before a District Court judge. In 
Amtrak's entire history, DOJ has initiated only one enforcement action, 
against the Southern Pacific in 1979. Amtrak supports continued 
authority for the DOJ to initiate an action, but we request that this 
authority be supplemented by authorizing Amtrak to enforce preference 
in federal court.
    In addition, changes in the statutory provisions governing Amtrak's 
right to operate additional trains over host railroads are necessary to 
ensure a fair and expeditious process. The Rail Passenger Service Act 
(RPSA) of 1970 gave Amtrak broad rights to operate over any rail line. 
In recent years, however, some railroads have resisted Amtrak requests 
to add additional trains through delay and imposition of unreasonable 
and unilaterally determined demands for excessive capital investments. 
Updating the RPSA provision Congress enacted in 1980 provide an 
``expedited procedure'' for Amtrak to add additional trains \3\ to 
conform it with the procedures of the Surface Transportation Board 
(STB), which received jurisdiction over it in PRIIA, and to specify a 
process for determining whether and what capital investments are 
necessary to accommodate the additional trains, is necessary to address 
this problem.
---------------------------------------------------------------------------
    \3\ House Conference Rep. No. 96-1041, May 20, 1980, p. 42, 
reprinted in 1980 U.S. Code Congressional & Administrative News at 
1183, 1203-04.
---------------------------------------------------------------------------
    As demonstrated last year, Amtrak has experienced record ridership 
and revenue, and we are confident that these trends will continue. 
There is clearly a demand for intercity passenger rail service and 
Amtrak is ready to do its part to meet this demand. We believe our 
performance in recent years is proof of our good stewardship of 
taxpayer dollars, and we hope to earn your continued support so that we 
can lead a passenger rail renaissance in the United States.
    I thank you again for inviting me to speak here today, and I look 
forward to your questions.

    Mr. Lipinski. Thank you, Mr. Gardner.
    I now recognize Dr. Bury for 5 minutes.
    Dr. Bury. Good morning.
    My name is Dr. Sandra Bury. I am the mayor of the village 
of Oak Lawn and a practicing optometrist. It is an incredible 
honor to be asked to present to you the perspective of a local 
mayor and describe the impact rail service and rail 
infrastructure has on our residents.
    Thank you very much, Congressman Lipinski, for the 
invitation, and I would like to thank the members of the 
subcommittee for their kind attention as well.
    In our area, the rail was laid out about 1880 when we were 
just farmland. By 1909, 287 people were living around our small 
train station, and the village of Oak Lawn was incorporated. 
One hundred eleven years later, we are a bustling first-tier 
suburb of about 58,000 people, and that rail line continues to 
be an economic engine of growth and opportunity. As our 
community has evolved, our rail service has evolved.
    We still have freight traffic, but, these days, commuter 
traffic is really the majority. Thirty trains move thousands of 
commuters through Oak Lawn every day, and our residents enjoy 
affordable access to high-paying jobs, and the service helps 
reduce traffic, pollution, improve home values, and enhance 
quality of life. Our train station is the heart of our 
community.
    We have a strategic plan in our village to develop the area 
further. By adding a traffic signal near this train station, we 
could bring commuter traffic finally onto our main streets, 
away from our neighborhood streets. It has taken more than a 
decade, but I am happy to say Illinois Department of 
Transportation approvals are in place, and construction is 
finally proceeding.
    The one hurdle we face is our rail line. You see, our 
commuter rail service, Metra, must upgrade every signal on the 
line before our traffic signal can be turned on, and they just 
don't have the funding for it.
    They have said it would be 2020; then said, well, let's try 
2021. Now they are asking for 2022. We have a building in the 
center of our town waiting to be built, a traffic nightmare for 
our residents that could be eliminated, and a public safety 
problem of the antiquated signals that should not exist at all. 
This is a very specific and telling instance of how lack of 
rail funding has impacted our local economy, public safety, and 
quality of life.
    The Illinois State Legislature passed a capital bill in 
2019 that has helped, and municipalities like Oak Lawn have 
invested their own funds, but Federal help is needed for us to 
address the enormous backlog of critical needs. Metra spends 
millions of dollars maintaining obsolete equipment. The signals 
that must be upgraded on our line are so antiquated, you can't 
even get parts for repairs anymore.
    They receive steady funding for operations, but they have 
no steady reliable capital funding, and this has created a 
precarious situation from a safety and operational standpoint. 
The towns our train line serves in Illinois have the highest 
rate of growth and increase in population in the State, but we 
have seen no increases to the minimal Saturday service 
Congressman Lipinski worked so hard to get us back in 2009, and 
we still have no Sunday service.
    Everyone wants to take a train into the city on the 
weekends and take advantage of the amazing events in Chicago, 
but, with the present service, it is just not possible.
    It is not only the funding I want to talk about. More 
weekend service or additional weekday service requires the 
cooperation of the freight railroads, and it has been, frankly, 
a frustrating and drawn-out process to get them to agree to 
more service. There must be a better way to add commuter rail 
service that our communities need, and I hope that Congress can 
address this issue.
    Freight railroads must also commit to being community 
partners and maintain their crossings, bridges, and property to 
acceptable standards. This is not currently done.
    Please fund the infrastructure that supports commuter rail. 
An additional parking tower in our downtown would spark 
economic investment, add business, add vibrancy, and encourage 
more ridership. We also need funding to train our first 
responders in dealing with rail disasters and the hazardous 
materials moving through our community. Better rail 
infrastructure is urgently needed to expand the service. The 
CREATE program which Congressman Lipinski supports and has 
gotten funding for is a perfect example of a public-private 
partnership which benefits everyone. Please use additional 
funding for rail to invest in programs like CREATE.
    So, in summary, I want to thank you again for the 
opportunity to speak. Adequate funding for our passenger and 
freight rail service is a critical thing for improving safety, 
livability, and growing our economy, and, in addition to the 
improved rail service, please don't forget to fund 
infrastructure, training, and require all parties to work 
together.
    Thank you.
    [Dr. Bury's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Sandra Bury, O.D., Mayor, Village of Oak 
                             Lawn, Illinois
    Good morning. My name is Dr. Sandra Bury. I am the mayor of the 
Village of Oak Lawn and a practicing optometrist. It is an incredible 
honor to be asked to present you with the perspective of a local mayor 
and describe the impact rail service and rail infrastructure has on our 
residents. Thank you Congressman Lipinski for the invitation and I 
would like to thank the members of this Subcommittee for their kind 
attention.
    In our area, the rail line was laid around 1880 when we were just 
farmland. By 1909, a small community of 287 had formed around a station 
on that line and the Village of Oak Lawn was incorporated. One hundred 
and eleven years later, we are a bustling first-tier suburb of about 
58,000 and that rail line continues to be an economic engine of growth 
and opportunity. As our community has evolved, our rail service has 
evolved.
    We still have freight traffic, but these days commuter traffic is 
the majority. Thirty trains move thousands of commuters through Oak 
Lawn every day. Our residents enjoy affordable access to high-paying 
jobs and the service helps reduce traffic, pollution, improve area home 
values, and enhance quality of life. Our train station is the heart of 
our community.
    We have a strategic plan to develop the area further. By adding a 
traffic signal near the train station, we could bring commuter traffic 
onto our main streets away from our neighborhood streets. It has taken 
more than a decade but I am happy to say Illinois DOT (IDOT) approvals 
are in place and construction is finally proceeding. The one last 
hurdle we face is from our rail line.
    You see our commuter rail, Metra, must upgrade all signals on the 
line before our new traffic signal can be turned on and they don't have 
the funding for it. They have said it would be 2020, then 2021 and now 
are asking for 2022. We have a building in the center of our town 
waiting to be built, a traffic nightmare for our residents that could 
be eliminated, and the public safety problem of antiquated signals that 
should not exist at all. This is a very specific and telling instance 
of how lack of rail funding has impacted our local economy, public 
safety, and quality of life.
    The Illinois State Legislature passed a capital bill in 2019 that 
has helped, and municipalities have invested their own funds, but 
federal help is needed for us to address the enormous backlog of 
critical needs. Metra spends millions of dollars maintaining obsolete 
equipment. The signals that must be upgraded on our line are so 
antiquated that you can no longer get parts for repairs. They receive 
steady funding for operations but they have no steady, reliable capital 
funding and this has created a precarious situation from a safety and 
operational standpoint.
    The towns our train line services have the highest rate of growth 
and increase in population in Illinois, but we have seen no increases 
to the minimal Saturday service Congressman Lipinski worked so hard to 
get us in 2009, and we have no Sunday service. Everyone wants to take a 
train into the city on the weekend to take advantage of Chicago's 
amazing events, but the present service doesn't make that possible.
    It's not only about funding. More weekend service or additional 
weekday service requires the cooperation of the freight railroads. It 
has been a frustrating and drawn-out process to get them to agree to 
more service. There must be a better way to add the commuter rail 
service that our communities need and I hope that Congress can address 
this issue. Freight railroads must also commit to being community 
partners andmaintain their crossings, bridges and property to 
acceptable standards, which is not currently done.
    Please fund the infrastructure that supports commuter rail. An 
additional parking tower in our downtown would spur investment from 
business and add vibrancy while encouraging more riders. We also need 
funding to train our first responders in dealing with rail disasters 
and the hazardous materials moving through our community.
    Better rail infrastructure is urgently needed to expand service. 
The CREATE program, which Congressman Lipinski supports and has gotten 
funding for, is a perfect example of a public-private partnership which 
benefits everyone. Please use additional funding for rail to invest in 
programs like CREATE.
    In summary, adequate funding of our passenger and freight rail 
infrastructure is critical for improving safety, livability and in 
growing our economy. In addition to additional and improved rail 
service, please fund infrastructure, training, and require all parties 
to work together. Thank you very much for this opportunity to testify.

    Mr. Lipinski. Thank you, Mayor.
    And, before I recognize Mr. Corbett, I just want to make 
sure I showed it. I have the New Jersey Transit app on my phone 
[indicating his cell phone]. Love taking that from Penn Station 
out to the airport, so--but, Mr. Corbett, I now recognize you 
for 5 minutes for your statement.
    Mr. Corbett. Thank you very much. Very impressed.
    Good morning, Chairman Lipinski, Ranking Member Crawford, 
and members of the subcommittee.
    I am Kevin Corbett, president and CEO of New Jersey 
Transit. Thank you for holding this hearing on a topic of vital 
national interest, funding of a robust freight and passenger 
rail network.
    Let me also thank Chairman DeFazio and all the members of 
the Transportation and Infrastructure Committee for the 
invitation to speak today.
    As some of you may know, I also serve as cochair of the 
Northeast Corridor Commission with FRA Administrator Ron 
Batory. And, while I don't speak for the Commission as a whole, 
I know that many of my fellow Commission members face similar 
challenges to those I will discuss today.
    But, first, I would like to set the stage with some basic 
facts about New Jersey Transit. We are the third largest 
transit agency in the Nation operating in the most densely 
populated U.S. State. By total population, New Jersey is the 
Nation's 11th largest State, and New Jersey Transit is also the 
Nation's largest statewide transit agency and third largest 
overall in the country.
    In this sense, our operation is a great asset, but also a 
significant burden on New Jersey's resources and must support 
an asset orders of magnitude greater than its population and an 
asset that is a legacy of a number of 19th-century private 
railroads with all the challenges of an aging infrastructure 
system.
    Every weekday, we provide more than 925,000 passenger trips 
across a service region that spans more than 5,300 square 
miles. We have more than 2,200 buses, 1,200 train cars, and 90 
light rail vehicles. We run 251 bus routes, 3 light rail lines, 
and 12 commuter rail lines throughout New Jersey, linking major 
points in New York, Philadelphia, and everywhere in between.
    Through our rail service on the Northeast Corridor, we work 
and coordinate closely with Amtrak, which owns, operates, and 
maintains the entire corridor, relied on by many of our 
customers to get in and out of New York.
    New Jersey Transit rail service is also growing. Despite 
low gas prices and declining nationwide rail ridership trends, 
our rail ridership went up 3 percent year over year.
    Our operations run virtually 24 hours a day, 7 days a week, 
leaving us a small window to accomplish vital maintenance and 
improvement work. We also provide an extensive paratransit 
network called Access Link throughout the State.
    All together, we are the lifeblood of New Jersey and a 
central element of the New York metropolitan region's $1.7 
trillion economy, which accounts for about 10 percent of the 
entire Nation's GDP. Every year, on average, New Jersey Transit 
receives about $604 million in various Federal formula funds. 
This money is vital for construction projects, including 
station rehabilitation, track replacements, and other 
infrastructure projects, and community transportation and other 
vehicles. We depend on Federal funding, which is a key 
component of many of our capital projects.
    New Jersey Transit is also eligible to apply for Federal 
funds through FRA's Federal-State Partnership for State of Good 
Repair program. Last year, New Jersey Transit received more 
than $18 million through this program to renovate platform D at 
Newark Penn Station, which is a critical transfer point for 
Amtrak and New Jersey Transit customers.
    New Jersey Transit appreciates all the support we get from 
the FRA and FTA, and take extremely seriously our 
responsibility to use these funds as responsibly and 
efficiently as possible.
    As grant recipients, we are collaborating with the FRA and 
FTA in discussing ways in which the grant process can be 
improved, commonsense solutions to get projects across the 
finish line faster.
    We strongly support an increase in flexibility for FRA 
grants to allow grant recipients, whose projects come in under 
budget, to use unexpended funds to advance other elements of 
the project integral to that project's success. For example, 
there is currently nearly $3 million in unexpended FRA grant 
funds, thanks to Portal North Bridge early action construction 
work that was completed under budget. We would like to use 
these funds to advance the project even further.
    This sort of procedural change already in place under FTA's 
Capital Investment Grant program would be usually beneficial 
for New Jersey Transit and to commuter railroads nationwide. In 
recent discussions, we are pleased that there is a willingness 
to consider ways that this can be accomplished.
    Just a few weeks ago, U.S. DOT issued an improved rating 
for the Portal North Bridge project on the Northeast Corridor, 
and we are now entering the engineering phase, which is the 
next step to a full-funding grant agreement and getting shovels 
in the ground. This project, estimated at $1.7 billion, is in 
addition to more than $1 billion in projects we have already 
committed in just the past few years under Governor Murphy when 
I first came, took this position.
    Replacing the Portal North Bridge is critically important, 
but it is just one component of New Jersey Transit's much 
larger goal to dramatically increase trans-Hudson capacity. 
Right now, our region and the State and the regional economy 
depend on two centory-old tunnels into and out of New York 
City. If just one of those tunnels goes out of service for any 
number of reasons, the amount of trains into and out of New 
York drop by 75 percent. Just 1 month ago, an incident occurred 
shutting one of those tunnels at the worst possible time, in 
the middle of the evening rush hour.
    Absent additional tunnels, major regional halting incidents 
like the one I just referenced will continue to occur, 
depressing regional productivity and economic growth, 
disrupting regional travel, and profoundly inconveniencing our 
customers. Aside from the risk of continuing to rely on these 
aging tunnels, the current situation is clearly a constraint on 
economic growth--regionally and even nationally. To be blunt, 
our current capacity to and from Penn Station New York is maxed 
out critically during rush hour.
    I would also like to comment as well on the Positive Train 
Control effort, which is a federally mandated but largely 
federally unfunded responsibility that has been put on all the 
national railroads, including commuter rail.
    We have spent over $340 million on the project to date, and 
we estimate the full cost of installation to be approximately 
$500 million when it is fully operational. The FRA has made 
available PTC project delivery money, but it comes without 
preaward authority, and it represents just a small portion of 
the overall costs for our railroads.
    Overall, we have a long list of projects going back for a 
century-old infrastructure in addition to beyond the Hudson----
    Mr. Lipinski. Mr. Corbett, if you could wrap up.
    Mr. Corbett. Sorry. We have extensive rail stations, high-
level platforms for ADA compliance, and a long list of other 
projects that require funding, like many of the older rail 
systems.
    So, in closing, that is why I strongly support Chairman 
DeFazio's new infrastructure bill and the investing $55 billion 
in national rail infrastructure, and we certainly look forward 
to working with the committee in advancing that.
    [Mr. Corbett's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Kevin S. Corbett, President and Chief Executive 
                    Officer, NJ Transit Corporation
                              Introduction
    Good morning, Chairman Lipinski, Ranking Member Crawford, and 
members of the Subcommittee.
    I'm Kevin Corbett, President and CEO of NJ TRANSIT.
    Thank you for holding this hearing on a topic of vital national 
interest: Funding a robust freight and passenger rail network.
    Let me also thank Chairman DeFazio and all the members of the 
Transportation and Infrastructure Committee for the invitation to speak 
today.
    As some of you may know, I also serve as Co-Chair of the Northeast 
Corridor Commission with FRA Administrator Ron Batory.
    And while I don't speak for the Commission as a whole, I know that 
many of my fellow Commission members face similar challenges to those 
I'll discuss today.
                       NJ TRANSIT ``Fast Facts''
    To begin, I'd like to set the stage with some basic facts about NJ 
TRANSIT--the third largest transit agency in the nation, operating in 
the most densely populated U.S. state.
    By total population, New Jersey is the nation's 11th largest state, 
yet NJ TRANSIT is also the nation's largest state-wide transit agency--
and third largest overall in the country.
    In this sense, our operation is a great asset but also a 
significant burden on New Jersey's resources, as it must support an 
asset orders of magnitude greater than its population--and an asset 
that is a legacy of a number of 19th Century private railroads, with 
all the challenges of an aging infrastructure system.
    Every weekday, we provide more than 925,000 passenger trips across 
a service region that spans more than 5,300 square miles.
    We have more than 2,200 buses, 1,200 train cars, and 90 light rail 
vehicles.
    We run 251 bus routes, three light rails lines, and 12 commuter 
rail lines throughout New Jersey--linking major points in New York, 
Philadelphia, and everywhere in between.
    Through our rail service on the Northeast Corridor, we work and 
coordinate closely with Amtrak, which owns, operates, and maintains the 
entire corridor--relied on by many of our customers to get in and out 
of New York.
    NJ TRANSIT rail service is also growing.
    Despite low gas prices and declining nationwide rail ridership 
trends, our rail ridership went up three percent year-over-year.
    Our operation runs virtually 24 hours a day, seven days a week--
leaving us a small window to accomplish vital maintenance and 
improvement work.
    We also provide an extensive paratransit network called Access 
Link.
    All together, we are the lifeblood of New Jersey and an essential 
element of the New York Metropolitan region's $1.7 trillion economy, 
which accounts for about 10 percent of our entire nation's GDP.
    Every year, on average, NJ TRANSIT receives about $604 million in 
various federal formula funds. This money is vital for construction 
projects including station rehabilitation, track replacements andother 
infrastructure projects, and community transportation and other 
vehicles.
    We depend on federal funding, which is a key component of many of 
our capital projects.
    NJ TRANSIT is also eligible to apply for federal funds through the 
FRA's Federal-State Partnership for State of Good Repair Program.
    Last year, NJ TRANSIT received more than $18 million through this 
program to renovate Platform D at Newark Penn Station, which is a 
critical transfer point for Amtrak and NJ TRANSIT customers.
    NJ TRANSIT appreciates all the support we get from the FRA and FTA, 
and takes extremely seriously our responsibility to use these funds as 
responsibly and efficiently as possible.
                     FRA and FTA Grant Efficiencies
    As grant recipients, we are collaborating with the FRA and FTA and 
discussing ways in which the grant process can be improved--common 
sense solutions to get projects across the finish line faster.
    We strongly support an increase in flexibility for FRA grants to 
allow grant recipients--whose projects come in under budget--to use 
unexpended funds to advance other elements of the project, integral to 
that project's success.
    There is currently nearly $3 million dollars in unexpended FRA 
grant funds, thanks to Portal North Bridge early action construction 
work that was completed under budget.
    We would like to use these funds to advance the project even 
further.
    This sort of procedural change--already in place under the FTA's 
Capital Investment Grants Program--would be hugely beneficial to NJ 
TRANSIT and to commuter railroads nationwide.
    In recent discussions, we are pleased that there is a willingness 
to consider ways that can accomplish this.
                              Portal North
    Just a few weeks ago, USDOT issued an improved rating for the 
Portal project, and we're now entering the engineering phase, which is 
the next step toward a Full Funding Grant Agreement and getting shovels 
in the ground.
    This project--estimated at $1.7 billion--is in addition to the more 
than the one billion dollars in projects we've already committed in 
just the past two years.
    Replacing the Portal North Bridge is critically important, but it's 
just one component of NJ TRANSIT's much larger goal to dramatically 
increase trans-Hudson capacity.
    Right now, our region--and the state and regional economy--depends 
on two century-old tunnels into and out of New York City.
    If just one of those tunnels goes out of service--for any number of 
reasons--the amount of trains into and out of New York drops by 75 
percent.
    Just one month ago, an incident occurred shutting one of the 
tunnels at the worst possible time--in the middle of the evening rush 
hour.
    Absent additional tunnels, major, region-halting incidents like the 
one I just referenced, will continue to occur--depressing regional 
productivity and economic growth, disrupting regional travel, and 
profoundly inconveniencing our customers.
    Aside from the risk of continuing to rely on these aging tunnels, 
the current situation is clearly a constraint on economic growth--
regionally and even nationally.
    New tunnels will not only eliminate the railroad bottleneck, but 
they will bring even greater economic growth, similar to the way 
MidTown Direct service on our Morris & Essex Lines led to strong 
increases in property values and economic productivity. This is the 
kind of benefit new tunnels will bring to other areas of our rail 
system, like our Raritan Valley Line and rail lines in Bergen County.
    But to be blunt, our current capacity to and from Penn Station New 
York is maxed out, particularly during rush hour.
    Every year, the urgency for action--the urgency for additional 
tunnels--increases.
                                  PTC
    As we work to replace the Portal North Bridge, we're advancing one 
of the most complicated, most time- and resource-consuming projects in 
NJ TRANSIT's history: the federally-mandated rail safety enhancement 
project, Positive Train Control, or PTC.
    NJ TRANSIT met the December 2018 interim milestone for this 
project, and last month, we received approval from the FRA to enter 
into Revenue Service Demonstration, or RSD testing.
    That means we'll begin testing PTC on trains in revenue service 
ahead of our previously projected start date.
    Meeting the December 2020 deadline will still require a monumental, 
behind-the-scenes effort, but based on our success in 2018, the recent 
approval to enter into RSD testing, and the continued support from the 
FRA, I'm confident we're going to make it.
    PTC is a meaningful safety enhancement for our system, but the 
costs for this federal mandate are not insignificant.
    We've spent about $340 million on the project to date, and we 
estimate the full cost of installation to be approximately $500 
million.
    The FRA has made available PTC project delivery money, but it comes 
without pre-award authority.
    That means it can only be used for costs expended in the future, as 
opposed to the substantial costs we've incurred to date.
    In addition, application periods take about a year to resolve, but 
in one year the project will no longer be eligible for the grant.
    Following full PTC installation, we will continue to incur 
significant annual costs to maintain and operate the system--including 
software and equipment upgrades, licensing, labor, and other costs--and 
the nation prepares the next phase of evolving PTC safety technology.
    We are encouraged by opportunities to apply for federal monies to 
offset some of these costs. However, current opportunities represent 
just a small percentage of the total capital and operating PTC costs 
for us and most railroads.
                        NJT Finances / The Need
    Like almost ever transit agency in the country, NJ TRANSIT requires 
public support, both federal and state.
    As we await movement on the additional Hudson River tunnels, there 
are many other areas where the federal government can support NJ 
TRANSIT.
    We have extensive needs in regards to the Americans with 
Disabilities Act--about half of our 165 rail stations are not currently 
accessible.
    Other needs include high-level platforms, public address and 
signage upgrades.
    NJ TRANSIT bridges need to be modernized and replaced.
    Major NJ TRANSIT facility upgrades require backup power generation.
    Signal systems systemwide need to be upgraded, as do several power 
substations.
    In short, our needs are great at a time when demand is surging and 
resources are limited.
    The needs and challenges we're facing are significant, and they're 
likely challenges Congress will see more and more. As the U.S. 
population trend continues to shift from rural to urban settings, more 
metropolitan areas are competing for transits dollars than ever 
before--and that trend will only continue.
                               Conclusion
    Esteemed members of Congress . . . A strong NJ TRANSIT means a 
strong New Jersey . . . a strong metropolitan region--are integral to a 
healthy national economy.
    The federal government has good reason to invest in NJ TRANSIT's 
network--to sustain and support economic vitality.
    You can't have a first-world economy on third-world infrastructure.
    That's why NJ TRANSIT strongly supports Chairman DeFazio's new 
infrastructure bill, which calls for investing $55 billion in the 
national railroad network.
    We also strongly support an increase in flexibility for FRA grants 
to allow unexpended funds to advance other elements of projects.
    We also support efforts to broaden FRA grant programs for freight 
rail to include commuter rail, and to broaden safety grants to include 
infrastructure spending.
    I want to once again thank you, Chairman DeFazio, Chairman 
Lipinski, and Ranking Member Crawford, for inviting me to join you 
today.
    NJ TRANSIT very much looks forward to working with all of you to 
build on the progress we've made.

    Mr. Lipinski. Thank you, Mr. Corbett.
    I now recognize Mr. Shanahan for 5 minutes.
    Mr. Shanahan. Thank you, Chairman DeFazio, Chairman 
Lipinski, Ranking Member Crawford, and members of the 
subcommittee.
    I am Robert Shanahan, Jr., and I am a member of the BMWED-
IBT. The BMWED represents railroad workers who perform 
inspection, construction, maintenance, repair, and dismantling 
of tracks, roadbeds, bridges, structures, facilities, and 
appurtenances on railroads throughout the United States.
    Since 2013, I have worked in the BMWED Arbitration 
Department located in Chicago. I am currently assigned as the 
assistant to the president-director of arbitration, where I 
have the honor of representing BMWED members in various 
contract disputes, discipline disputes, and contract 
negotiations.
    Prior to working in the Arbitration Department, I worked 
for 13 years in the Maintenance of Way Department at the 
commuter railroad Metra. During my time with Metra, I was 
assigned to perform various maintenance of way duties 
throughout the Chicago metropolitan area.
    While working in the field at Metra, I encountered numerous 
situations where tracks, bridges, and/or catenary structures 
needed drastic repair or, in many instances, complete 
replacement. I was particularly concerned by the number of 
railroad bridges in disrepair. I frequently observed bridges 
with crumbling concrete, rotten steel, and decomposed timbers. 
Metra claims it has nearly 500 bridges that are over a century 
old. I don't think I need to explain to you the safety threat 
inherent in 100-year-old infrastructure that is deteriorating.
    When working in the field, I can recall several instances 
of repairing the rotting steel decks on ballast deck bridges. 
This situation can result in large stone raining down on 
streets, cars, people, or whatever may lie below.
    Another area of bridge repair I often encountered involved 
the concrete support systems. There were many instances where I 
found that sections of the concrete support systems were able 
to be removed with a small hammer and, in some cases, even with 
bare hands.
    There is no question that BMWED members are the most 
qualified and highly trained to perform this work. My 
experience in the field at Metra shows the urgent need for 
greater infrastructure funding for passenger railroads, but any 
infrastructure package needs to add protections to ensure that 
the work is performed by union members who have been properly 
trained on FRA safety rules.
    I would like to quickly go over some of the trends 
currently affecting our membership in arbitration. From 2016 
through 2018, our Arbitration Department saw an 84-percent 
annual increase in files received as compared to the period 
from 2006 through 2015.
    The significant reason for the spike in arbitration filings 
can be attributed to the rail carriers increasingly assigning 
workers of BMWED members to nonunion rail contractors. For 
example, multiple carriers are now electing to assign nonunion 
contractors to perform on-track protection. On-track protection 
is work assigned to an employee who is responsible for the 
communication with train dispatchers, train crews, and work 
groups to ensure the safety of all individuals present within 
the area of track protection.
    Last month, Amtrak assigned on-track protection work for a 
major project occurring in Chicago to nonunion contractors. The 
problem with this decision is that the nonunion contractors are 
subject to a qualification process that minimally complies with 
FRA regulations.
    BMWED members, on the other hand, are extensively trained 
and tested on FRA safety rules governing how work on or near 
railroad tracks must be conducted. These safety rules are not 
arbitrary, and many have been instituted as a result of 
accidents, some fatal, all avoidable.
    Our primary concern is that the FRA safety rules are not 
being properly administered by Amtrak in Chicago. Looking to 
achieve a minor cost savings, Amtrak is putting anyone in the 
immediate vicinity of this project at risk. We should not be 
putting profitability ahead of safety.
    Another area of our concern for our members is the recent 
implementation of unvetted technologies. In January 2020, at 
the NRC conference in San Diego, FRA representatives were 
actively encouraging rail carriers to seek waivers to implement 
automated track inspection technology on their mainline tracks.
    Moreover, at the RSAC meeting on April 20, 2019, 
Administrator Batory stated that he was instructing his staff 
to grant every technology waiver that the railroads request. 
Not only are they replacing physical track inspections with 
automated technologies; they are allowing the data obtained to 
be reviewed by individuals who are not FRA-qualified track 
inspectors.
    As you can imagine, many train derailments, collisions, and 
other incidents that jeopardize human lives are the result of 
deteriorating track conditions. Without the guarantee of 
qualified BMWED members reviewing the data, it is only a matter 
of time before these types of catastrophic incidents become 
commonplace.
    We urge the FRA to operate as an agency tasked with 
ensuring the safe operation of railroads rather than an agency 
concerned with implementing unvetted technology at the 
potential cost of human lives.
    I would like to thank Chairman Lipinski and this 
subcommittee for inviting me to testify on behalf of the tens 
of thousands of BMWED members. They are the best railroaders 
this country has to offer, and they stand poised and ready to 
complete this much-needed railroad infrastructure project.
    As a BMWED member who worked on the railroad, I can 
personally attest that employing anybody else to accomplish 
this massive infrastructure project would be a fool-hearted 
endeavor.
    Thank you for your time today, and I welcome any questions.
    [Mr. Shanahan's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Robert J. Shanahan, Jr., Assistant to the 
 President-Director of Arbitration, Brotherhood of Maintenance of Way 
       Employes Division, International Brotherhood of Teamsters
    Thank you, Chairman Lipinski, Ranking Member Crawford and members 
of the Subcommittee.
    I am Robert J. Shanahan Jr., and I am a member of the Brotherhood 
of Maintenance of Way Employes Division of the International 
Brotherhood of Teamsters (BMWED-IBT). The BMWED-IBT represents railroad 
workers who perform inspection, construction, maintenance, repair, and 
dismantling of tracks, roadbeds, bridges, structures, facilities, and 
appurtenances on railroads throughout the United States, including the 
major Class 1 freight railroads as well as many of the largest commuter 
lines in the country.
    Currently, I work as the Assistant to the President-Director of 
Arbitration within the BMWED-IBT Arbitration Department located in 
Chicago. Prior to that appointment, I worked as a BMWED-IBT Arbitration 
Labor Advocate. In my experience as the Director of Arbitration, as 
well as an Arbitration Labor Advocate, I have had the honor of 
representing BMWED Members in various contract disputes, discipline 
disputes and contract negotiations.
    Prior to working in the BMWED-IBT Arbitration Department, I worked 
in the Maintenance of Way Department for 13 years on the Northeast 
Illinois Regional Commuter Railroad Corporation, otherwise known as 
Metra, in Chicago. During my time with Metra, I was assigned to perform 
various aspects of construction, maintenance and repair to the tracks, 
structures and bridges, working throughout the Chicago Metropolitan 
Area.
  My Observations of the Railroad Infrastructure While Working in the 
                                 Field
    While working in the field at Metra from 2000-2013, I encountered 
numerous situations where tracks, bridges and/or catenary structures 
were in need of drastic repair, or in many instances, complete 
replacement. As many of you are probably aware, the Chicago area is the 
largest rail hub in the nation. Railroad construction began in Chicago 
in 1848 and railroad traffic has continued to boom to date.
    One area of particular concern is the amount of railroad bridges in 
the Chicago region that are close to, or even over, a century old. 
Metra alone claims to operate nearly 500 bridges that are over a 
century old. In my experience, their age shows. I frequently observed 
crumbling concrete, rotten steel and decomposed timbers that are in 
desperate need of repair or complete replacement. I don't think I need 
to explain to you the safety threat inherent in 100-year-old 
infrastructure that is deteriorating.
    Clearly, the heavy rail traffic and Chicago winters have taken 
their toll on the 100-year-old bridges. When working in the field, I 
can recall several instances of repairing the crumbling steel decks on 
ballast deck bridges. When bridge decks are failing, it can result in 
large stone raining down on streets, cars, people, or whatever may lie 
below. This falling stone poses an obvious threat to anyone walking or 
driving below the problem area.
    Another area of bridge repair I often encountered involved the 
concrete support system found under bridges. There were many instances 
where I found that sections of the concrete support system were able to 
be removed with a small hammer and in some cases even with bare hands. 
In addition to decaying concrete and steel supports, it was also common 
to perform repairs to rotten and missing bridge timbers on many 
bridges. These large timbers would often break with little effort when 
being removed to make repairs. From my experience bridge timbers were 
often the most deteriorated portion of bridge structures.
    Only the most qualified and highly trained railroad maintenance of 
way workers possess the ability to recognize the vital work that needs 
to be performed on rail infrastructure. And only the most qualified and 
highly trained railroad maintenance of way workers possess the ability 
to best perform the work that needs to be completed. There is no 
question that the most qualified and highly trained workers to perform 
this work are BMWED-IBT represented railroad workers. We request that 
the funding in this infrastructure package have protections to ensure 
that there are stipulations requiring that the work be performed by 
union members who have been properly trained on Federal Railroad 
Administration (FRA) safety rules and policies.
My Observations of the Current Trends Impacting the Lives of BMWED-IBT 
                                Members
    Now that I'm heading our organization's arbitration department, I'd 
like to go over with you some of the trends I've been seeing affecting 
our membership. From 2016 through 2018, the BMWED-IBT Arbitration 
Department received on average two thousand thirty-seven (2037) files 
per year to be considered for Arbitration, with an average of eight 
hundred eighteen (818) files involving BMWED-IBT work being assigned to 
outside contractors. This is an 84% increase in files received compared 
to the period from 2006 through 2015, where we averaged one thousand 
one hundred thirty (1130) files per year to be considered for 
Arbitration, with an annual average of four hundred sixty-eight (468) 
files involving BMWED-IBT work being assigned to outside contractors. A 
significant reason for the spike in arbitration filings can be 
attributed to both private and public rail carriers increasingly 
assigning work reserved to BMWED-IBT members to non-union rail 
contractors.
    A recent example of this development involves multiple rail 
carriers who have elected to assign non-union contractors to perform 
the work of providing on-track protection for passengers, employees, 
the general public, and various other machinery that could be impacted 
by a train collision. One such rail carrier is Amtrak.
    Last month, Amtrak chose to start assigning the work of providing 
on-track protection for a major project occurring in Chicago to non-
union contractors. On-track protection is work assigned to an employee 
who is responsible for the communication with train dispatchers, train 
crews and work groups to ensure the safety of train crews, passengers, 
work groups and the general public. The problem with this decision by 
Amtrak is that non-union contractors are subject to only bare bones 
qualification processes that minimally comply with federal regulations. 
BMWED-IBT members on the other hand are extensively trained and tested 
on FRA safety policies and rules governing how work on or near railroad 
tracks must be conducted. These safety policies and rules are not 
arbitrary and many have been instituted as a result of incidents or 
accidents--some fatal, all avoidable. Our concerns in this instance are 
that the FRA safety rules are not being properly administered by Amtrak 
in Chicago. Looking to achieve minor cost savings, Amtrak has 
potentially endangered rail passengers, the general public, employees 
and the surrounding infrastructure. We should not be putting 
profitability ahead of safety.
    Another area of concern for our members is the recent 
implementation of unvetted automated technologies. In January 2020, at 
the National Railroad Construction & Maintenance Association Conference 
(NRC) held in San Diego, FRA representatives were actively encouraging 
rail carriers to seek waivers to implement automated track inspection 
technology on their main line tracks. From the reports of our officers 
in attendance at the Rail Safety Advisory Committee (RSAC) on April 20, 
2019, Administrator Batory stated that he was instructing his staff to 
grant every technology waiver that the railroads request. Not only are 
they replacing physical track inspections with automated technologies, 
they are allowing the data obtained to be reviewed by individuals who 
are not FRA-qualified track inspectors. As you can imagine, many train 
derailments, collisions and other incidents that jeopardize public 
lives are the result of deteriorating track conditions. Without the 
guarantee of a qualified BMWED-IBT member making determinations 
regarding the data obtained by the new technology, it is only a matter 
of time before these types of catastrophic incidents become 
commonplace. We urge the FRA to return to operating as an agency tasked 
with ensuring the safe operation of railroads, rather than an agency 
concerned with implementing unvetted new technology at the potential 
cost of human lives.
                               Conclusion
    In conclusion, I would first like to thank Chairman Lipinski and 
this Subcommittee for inviting me to testify on behalf of tens of 
thousands of BMWED-IBT railroad construction and maintenance 
professionals. They are the best railroaders this country has to offer 
and they stand poised and ready to tackle and complete this much-needed 
railroad infrastructure project. I am a BMWED-IBT member, I worked on 
the railroad in the Maintenance of Way department alongside other 
members, and I can personally attest that employing anyone else to 
accomplish this massive infrastructure project would be a fool-hearted 
endeavor.
    There are infrastructure issues on our Nation's railroads, some of 
which are serious and have been patch worked or completely neglected 
for far too long. We need to fix them before they result in something 
catastrophic. I hope that this body will agree to the appropriate 
funding to remedy these problems and that you will see to it that BMWED 
members, with their collective expertise, knowledge, timeliness and 
attention to safety, will be the workers employed to accomplish the 
task.
    Thank you for your time today and I welcome any questions.

    Mr. Lipinski. Thank you, Mr. Shanahan.
    I now recognize Mr. Artl for 5 minutes.
    Mr. Artl. Thank you, Chairman DeFazio, Ranking Member 
Graves, Chairman Lipinski, and Ranking Member Crawford. Thank 
you for inviting me here today to discuss infrastructure 
improvements to the Nation's rail network.
    I would like to especially thank Chairman Lipinski for all 
of his work and engagement on Illinois infrastructure issues. 
Chairman Lipinski has been a strong advocate at the Federal 
level for greater investments in our infrastructure, especially 
in improving the Chicagoland passenger and freight rail 
systems. In addition, his staff has always been recognized for 
their effectiveness and responsiveness.
    I would also like to thank and recognize Congressman Garcia 
and Congressman Davis, both of whom have been strong and 
reliable advocates for infrastructure improvements in Illinois. 
Congressman Davis' district encompasses one of the most 
critical rail projects in our State, and his support of the 
10th Street corridor project has been instrumental in its 
advancement.
    As Chairman Lipinski mentioned, I am the president and CEO 
of the American Council of Engineering Companies of Illinois. 
We are the voice of the engineering industry in Illinois, 
representing over 200 engineering firms and affiliates and 
their over 11,000 employees. Our primary mission is to 
strengthen the business environment for our member firms 
through Government advocacy, political action, and business 
education.
    In addition, Illinois is a member of the national ACEC, 
where we join with 51 other State and regional councils, 
representing more than 600,000 engineers, architects, land 
surveyors, and other specialists.
    ACEC member firms in Illinois and nationally are engaged in 
a wide array of engineering and related professional services 
for public and private sector rail clients.
    Looking at Illinois, in the beginning of 2019, Illinois' 
road and transit system was facing nearly $30 billion in 
deferred maintenance. Our infrastructure was graded at C minus, 
and we had not had a multiyear capital plan since 2009.
    In response to those challenges last year, the Rebuild 
Illinois capital plan that was approved by the legislature and 
signed into law by Governor Pritzker. The plan is a $45 billion 
infrastructure investment with over $33 billion going into 
Illinois' transportation system. But, after decades of neglect, 
it doesn't solve the entirety of Illinois' transportation 
challenges, and that is why it is so critical that a national 
infrastructure funding program be approved. With the State of 
Illinois now having now stepped up and done its share to 
improve infrastructure, I urge Congress to do the same.
    At ACEC Illinois, we see every day the need for more 
infrastructure investment, including in our passenger and 
freight rail system. Funding and completion for projects like 
the 75th Street corridor project in Chicago or the 10th Street 
corridor project in Springfield are critical, but currently 
lack the funding to be completed.
    Therefore, the proposed investment from the House 
Transportation and Infrastructure Committee in rail of $55 
billion over 5 years is necessary to complete these critical 
projects and address the state-of-good-repair backlog in the 
Nation's rail system.
    From an engineering and business perspective, having the 
funding and project certainty provided by the Federal 
Government is critically important. It is hard for one of 
ACEC's members to complete a project or keep it on time and 
budget for that matter if it is not clear how the project will 
be funded. The Federal Government is a vital part of funding 
and partnering on infrastructure projects, and that must 
continue.
    Overall, Illinois is the second largest rail system in the 
Nation. In all, 41 railroads provide service throughout the 
State and to every part of the Nation. We are the only State 
home to every Class I railroad, and 25 percent of all U.S. rail 
traffic touches Chicago.
    The expansiveness of Illinois' rail network led to the 
formation of the CREATE program in 2003. The CREATE program is 
a leading example of the progress we can make on infrastructure 
if freight railroads, passenger railroads, local communities, 
and State and Federal Government all work together.
    Since 2003, over $1.6 billion has been spent and 30 
projects have been completed through the CREATE program, 
including projects that required creative engineering solutions 
from ACEC members like the Englewood flyover and the ongoing 
75th corridor improvement project.
    Last year, Illinois committed an additional $400 million 
for the CREATE program from its newly enacted capital bill. As 
successful as the CREATE program is, it still needs to be fully 
funded. In particular, most of the planned 25 grade separations 
have not been completed yet, with many of those projects not 
started at all. Underscoring that is that Illinois ranks in the 
top five of grade-crossing accidents and fatalities nationally.
    Grade separation is a local issue with national 
implications. A focus on grade separation will not only 
increase safety, but also mobility on a global scale. More 
efficient truck movement means getting goods and services to 
market across the world quicker. New incentives, greater 
flexibility, and increases in funding for grade-crossing 
separation should be considered a priority in the new Federal 
bill. Funding these grade-crossing separations and similar 
projects will provide not just mobility and economic benefits, 
but save lives.
    Overall, programs like CREATE are essential for improving 
safety, alleviating congestion, and enhancing mobility in the 
economic competitiveness of our region, but, ultimately, for 
their continued success, they need your continued support.
    In conclusion, I want to thank Congressman Lipinski and the 
subcommittee again for the opportunity to testify. It was a 
momentous achievement last year when the State of Illinois 
passed the capital bill for the first time in 10 years, and I 
am hopeful this year will be the year Congress steps up to the 
plate as well.
    Our Nation deserves nothing less than a world-class 
transportation system, and ACEC Illinois and its member 
companies stand ready to help and figure out how to get there. 
We just need your partnership.
    Thank you.
    [Mr. Artl's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Kevin Artl, President and Chief Executive 
     Officer, American Council of Engineering Companies of Illinois
    Chairman DeFazio, Ranking Member Graves, Chairman Lipinski, and 
Ranking Member Crawford, thank you for inviting me here today to 
discuss infrastructure improvements to the nation's rail network.
    I'd like to especially thank Chairman Lipinski for all of his work 
and engagement on Illinois infrastructure issues. As Illinois' senior 
member on the Transportation and Infrastructure Committee, our state 
benefits greatly from both your leadership and your deep understanding 
of the issues, especially on the transportation side. In addition, the 
Congressman's staff has always been knowledgeable and responsive to 
agency and local concerns.
    I'd also to like to thank and recognize Congressman Garcia and 
Congressman Davis, both of whom have been strong and reliable advocates 
for infrastructure improvements in Illinois. Congressman Davis' 
district encompasses one of the most critical rail projects in our 
state and his support of the 10th street corridor project has been 
instrumental in its advancement.
    As Chairman Lipinski mentioned, I'm the President and CEO of the 
American Council of Engineering Companies of Illinois--we are the voice 
of the engineering Industry in Illinois, representing over 200 
engineering firms and affiliates and their over 11,000 employees. Our 
primary mission is to strengthen the business environment for our 
member firms through government advocacy, political action, and 
business education. In addition, Illinois is a member of the national 
ACEC, where we join with 51 other state and regional councils 
representing more than 600,000 engineers, architects, land surveyors 
and other specialists.
    ACEC member firms in Illinois and nationally are engaged in a wide 
array of engineering and related professional services for public and 
private sector rail clients, including Amtrak, Class I and short line 
railroads, and state and local governments overseeing passenger rail 
programs and facilities. Our members perform track design, bridge and 
tunnel inspections, right-of-way and surveying, and grade separations, 
as well as planning and design for intermodal facilities, terminals, 
and yards, just to name a few.
    I find it only fitting that Illinois is represented at this table 
given our state's deep roots in the development of the national rail 
network. By signing the Pacific Railway Act of 1862, President Lincoln 
began the process of bringing planning and design to this critical 
industry.
    Let me briefly outline why this conversation and discussion of 
funding is so critical for Illinois and probably for every other state 
in the Union.
    At the beginning of 2019, Illinois' road and transit system was 
facing nearly $30 billion in deferred maintenance. Our infrastructure 
was graded at a C-.
    Illinois had not had a multi-year capital plan since 2009--and that 
plan had many serious shortcomings.
    In May of 2019, during the waning days of the state legislative 
session, the Rebuild Illinois Capital Plan was approved by the 
legislature and signed into law by Governor Pritzker.
    The plan is a $45 billion infrastructure investment with over $33 
billion going into Illinois' transportation system. It was critical, it 
was necessary, it is historic in its size and scope and it would not 
have been possible without the bi-partisan leadership of Governor 
Pritzker, and both Democrat and Republican leaders in the House and 
Senate.
    But, after decades of neglect, it doesn't solve the entirety of 
Illinois's transportation challenges and that is why it is so critical 
that a national infrastructure funding program be approved. With the 
State of Illinois having now stepped up and done its share to improve 
infrastructure, I urge Congress to do the same.
    At ACEC-IL, we see everyday in Illinois the need for more 
infrastructure investment, including in our passenger and freight rail 
system. Currently, Illinois has the second largest rail system in the 
nation with 41 railroads, including all seven class I railroads, 
providing service throughout the state, and from Illinois to every part 
of the nation. About 500 freight trains and 700 passenger trains 
including commuter lines, pass through Chicago every day. Overall, 25% 
of all US rail traffic touches Chicago, making Chicago the undisputed 
rail-hub of the United States.
    However, given the age of the infrastructure, the high level of 
rail congestion, and the desire for more passenger and freight rail 
service throughout the State, more funding is needed. Projects like the 
75th Street Corridor project in Chicago or the 10th Street Corridor 
project in Springfield are critical to the future of the States' rail 
system, but currently lack the funding to be completed.
    Therefore, the proposed investment from the House Transportation 
and Infrastructure Committee in rail of $55 billion over five years is 
necessary to complete these critical projects and address the state of 
good repair backlog in Illinois's and our nation's rail system.
    It is critical that the federal government be a reliable partner 
for the rehabilitation and replacement of public infrastructure assets. 
Federal funds are typically the catalyst that brings together state, 
local, and private sources of additional funding to address major 
projects.
    That is certainly the case in my home state of Illinois, where 
federal funds for the CREATE project help drive additional investment 
from state and local partners. In the state infrastructure funding 
package that we enacted last year, we made sure to include transit and 
rail funding in addition to the increases for highways. In fact, 
passage of that bill would not have been politically possible if we had 
not included rail programs. And the need to match federal funds with 
state dollars was a driving factor.
    Larger rail projects, including those in Chicago in particular, are 
tough to advance because of the magnitude of funding required and the 
partnerships needed to accomplish the project. For these projects in 
particular, the federal government plays an important role in helping 
bring the projects to fruition. From an engineering and business 
perspective, having the funding and project certainty provide by the 
federal government is critically important. It's hard for one of ACEC's 
members to complete a project, or keep it on time and budget for that 
matter, if it is not clear how the project will be funded or if the 
right partners are not part of the project. The federal government has 
long been a vital part of funding and partnering on infrastructure 
projects and needs to continue to be.
    I want to touch on one notable example in the Chicago region that I 
believe could be a model for the Subcommittee, the Chicago Region 
Environmental and Transportation Efficiency or CREATE Program, which 
was launched in 2003.
    And let me outline, from an Illinois perspective, just how critical 
that investment is.
    Currently, Illinois has the second largest rail system in the 
nation. In all, 41 railroads provide service throughout the state, and 
from Illinois to every part of the nation. About 500 freight trains 
(totaling about 37,500 freight cars) and 700 passenger trains including 
commuter lines, pass through Chicago every day.
    The role Chicago plays in the national rail network is substantial:
    1.  25% of all US rail traffic touches Chicago
    2.  46% of all intermodal units in the US touch Chicago
    3.  54% of intermodal units to/from the ports of Seattle touch 
Chicago
    4.  26% of intermodal units to/from Los Angeles/Long Beach touch 
Chicago

    Freight rail trade (by value) within Chicago will more than double 
from 2012 to 2045. Region must improve freight movement and minimize 
passenger, motorist delays, and mitigate negative impacts.
    Freight movement is a national and international issue, hence the 
CREATE Program was formed in 2003.
    A $4.6B Public Private Partnership (PPP) designed to improve 
transportation flow through Chicago. Partnership includes the 
following: USDOT (FHWA & FRA); IDOT; CDOT; Cook County: 6 Major North 
American Freight Railroads and 2 Switching Railroads; 2 Passenger 
Railroads (Amtrak and Metra).
    The Program consists of 70 freight and passenger projects focusing 
on:
    a.  Increase capacity, speed, and reliability for freight train 
traffic
    b.  Separation of freight and commuter trains at six key junctions
    c.  Elimination of 25 roadway/rail grade crossings (grade 
separations)

    The CREATE program is a leading example of the progress we can make 
on infrastructure if freight railroads, passenger railroads, local 
communities and state and the federal government all work together. 
Since 2003, over $1.6 billion has been spent and 30 projects have been 
completed through the CREATE program including projects that required 
creative engineering solutions from ACEC members like the Englewood 
flyover and the ongoing 75th CIP project. Just this last year, Illinois 
committed an additional $400 million for the CREATE program as a result 
of its newly enacted capital bill.
      Key Program Benefits (Full Implementation of CREATE program)
    <bullet>  Economic Development--
     <bullet>  30-year benefits (2015$) at $31.5 Billion
     <bullet>  Generate an estimated 44,000 job years*
    <bullet>  Mobility--
     <bullet>  Passenger train delay will be reduced by over 1.3 
million passenger hours annually by 2051
     <bullet>  Average 92,000 hours of truck delay and 230,000 hours of 
motorist and bus passenger delay will be avoided due to elimination of 
at-grade crossings.
    <bullet>  Safety--Avoid estimated 200 vehicle crashes with trains 
over 30 years
    <bullet>  Environmental--2,800 metric tons per year of avoided 
emissions from idling vehicles waiting for trains to pass
    <bullet>  Transportation--Improve rail system capacity will enable 
an extra 50,000 freight trains to travel through Chicago rail network 
annually in 2051 compared to no improvements.

    As successful and data-driven as the CREATE program is, it still 
needs to be fully-funded to achieve the efficiencies and advantages 
outlined above. Not just mobility and economic--but safety. In 
particular, most of the 25 grade separations have not been completed 
yet, with many of those projects not started at all.
    Illinois ranks in the top 5 of grade crossing accidents and 
fatalities. New incentives, greater flexibility and increases in 
funding for grade crossing separations, should be considered a priority 
need in the new Federal bill. ACEC IL members have been working on 
innovative approaches to grade separations and are ready for the 
challenge. Funding these grade crossing separations, and similar 
projects across the country, will provide not just mobility and 
economic benefits--but save lives.
    Grade separation is a local issue with national implications. 
Locally, it's a quality of life and safety issue for communities. The 
lack of grade separations creates longer commutes and poses safety 
risks for commuters, pedestrians as well as threatening access for 
first responders.
    A focus on grade separation will not only increase safety, but also 
mobility on a global scale. More efficient truck movement means getting 
goods and services to markets across the nation and the world quicker.
    The Illinois Department of Transportation, under Acting Secretary 
Omer Osman, operates one of the most substantial, efficient and 
effective passenger rail programs in the United States, but 
implementing multi-year freight and passenger programs that can meet 
rising consumer demand is a challenge for the industry with future 
funding remains inconsistent or unknown. Tackling real infrastructure 
needs in a timely and efficient manner requires a high level of 
consistent and plannable investment.
    As the amount of competitive grant program applicant submittals to 
USDOT over the last decade or so indicate, the capital need in our rail 
industry is large, and we certainly struggle to meet that demand, for 
both freight and passenger rail. The entire mode of transportation 
would truly benefit from robust, sustained and dedicated annual 
funding, similar to other modes of transportation.
    In addition, Congress should look at the need for new rolling stock 
equipment for passenger rail in this country, and do what they can to 
support both Amtrak and the states' ongoing efforts to revitalize the 
passenger rail experience with new fleet replacements. This support 
shouldn't be limited to just initial capital procurement, but also 
carry through the life cycle capital overhauls of that equipment as it 
ages in service.
         Other Project Delivery and Procurement Recommendations
    Finally, allow me to bring three policy recommendations to your 
attention that impact the rail programs that are the subject of today's 
hearing, but also have broader implications for all transportation 
agencies and clients.
    I would urge you to oppose policies that restrict the ability of 
public agencies to contract with private sector firms. From my 
experience working for a public agency, I viewed consultants and 
engineers as a trusted advisor and they played an essential role in 
every aspect of our work--from planning to design to inspection to 
quality control. From my experience, the access to private sector 
experts allowed my public agency to become more innovative, more 
efficient and more forward-thinking.
    Second, I would encourage you to promote contracting and selection 
policies that ensure qualified engineering services. Federal statutes 
and most state laws require procurement of engineering services through 
Qualifications-Based Selection (QBS), a competitive procurement process 
that puts emphasis on identifying the most experienced and technically 
qualified firms at a fair and reasonable cost. This has been the law of 
the land for nearly 50 years, and it is the gold standard for 
professional services procurement.
    The surface transportation reauthorization should maintain and 
expand public procurement rules that require the use of QBS to 
emphasize innovation and qualifications to facilitate successful 
project delivery.
    Third, ACEC would like to promote the utilization of more lump sum 
contracting by federal, state, and local agencies. Lump sum is a 
negotiated payment method that provides for a fixed price not subject 
to adjustment because of changes encountered in the performance of the 
work. The consultant assumes responsibility for costs over or under the 
negotiated price assuming there is no change in the scope of the 
project. This payment method increases the firm's flexibility to manage 
the project (relative to a traditional cost-plus-fixed-fee contract 
using hourly rates), including the assignment of staff and utilization 
of advanced technologies. During my term as COO of the Illinois 
Tollway, we executed a pilot lump sum contract program that was 
immensely successful. Overall, we found lump sum contracting to be 
incredibly more efficient--reducing the amount of paperwork and staff 
time while also reducing the payment cycle.
    There are no statutory barriers to lump sum; it is an authorized 
payment method under federal regulations. However, ACEC would support 
efforts inside the reauthorization bill that might include provisions 
to encourage its use on federally funded projects for state and local 
transportation agencies when utilizing federal-aid funds.
    In conclusion, I want to thank Congressman Lipinski and the 
Subcommittee again for the opportunity to testify. At ACEC-IL, we see 
the need for greater infrastructure investment every day across our 
state, including in our freight and passenger rail systems. It was a 
momentous achievement last year when the State of Illinois passed a 
capital bill for the first time in 10 years and I'm hopeful this will 
be the year Congress steps up to the plate as well. Our nation deserves 
nothing less than a world-class transportation system and ACEC-IL and 
its member companies stand ready to help and figure out how to get 
there. We just need your partnership.

    Mr. Lipinski. Thank you, Mr. Artl.
    And now I recognize Mr. Jefferies for 5 minutes.
    Mr. Jefferies. Thank you.
    Chairman Lipinski, Chairman DeFazio, members of the 
committee, thank you for the opportunity to be here 
representing America's freight railroads. Today's hearing 
coincides with our annual fly-in, where more than 400 employees 
representing railroads, suppliers, and labor are conducting 
some 300 meetings with Members of Congress on both sides of the 
Capitol, and their central message is clear. Thanks to 
sustained private investments, today's freight rail network is 
head and shoulders above the rest of the world.
    With freight demand projected to grow some 30 percent by 
the year 2040, we are excited to help meet the challenges and 
opportunities of tomorrow.
    As you know, freight railroads operate almost exclusively 
on infrastructure they own, build, and maintain. From 2015 to 
2019, railroads spent an average of $26 billion a year--put 
another way, $72 million a day--to maintain and upgrade their 
networks.
    The result: Inflation-adjusted rail rates in 2018 remain 
virtually the same as they were in 1992. We support some 1.1 
million U.S. jobs, directly employing 150,000 employees, who 
are among America's best compensated industrial workers. And, 
while railroads move nearly one-third of long-distance freight 
volume, they account for just 2 percent of transportation-
related emissions. On top of that, our sustained investments 
also provide sound infrastructure for passenger railroads who 
operate over freight lines.
    While freight railroad is almost entirely privately funded, 
robust Federal funding to local and State governments, 
passenger railroads, and other partners is critical. These 
partnerships work best when everyone has skin in the game, and, 
Mr. Chairman, as you know, and under your leadership, a perfect 
example of this is Chicago's CREATE program, funded by 
railroads of both passenger and freight, city, State, county, 
and other government entities. The program is improving the 
flow of goods and people in the region where, as mentioned, 25 
percent of U.S. freight rail traffic begins, ends, or traverses 
and 760 passenger trains pass through daily.
    To date, some $1.6 billion has been spent or authorized on 
CREATE projects, on top of the $6.5 billion spent by railroads 
in the Chicagoland region since 1998. The result is that 30 of 
the 70 projects are complete with 21 in progress. Certainly 
more work to be done, but we are already seeing the benefits of 
CREATE, creating more reliable passenger train operations and 
increased mobility for motorists.
    Policymakers can take several steps to build on successes 
like CREATE. First, successful grant programs, such as INFRA, 
BUILD, and CRISI, which just awarded a $12.9 million grant to 
CREATE this week, should be fully funded. Congress should also 
expand the section 130 grade program, increasing incentive 
payments for closures from the current cap of $7,500 to 
$100,000. And Congress can build on its recent success by 
extending the 45G short line tax credit by making the incentive 
permanent.
    As I mentioned, freight railroads enable passenger rail 
operations, which also enhance mobility and reduce congestion. 
While myriad examples exist of successful collaboration between 
host freights and passenger tenants, no one-size-fits-all 
solution exists. But, at a high level, successful freight and 
passenger rail agreements abide by several key principles. One, 
safety must always come first and be priority number one. Two, 
current and future capacity needs of shippers and railroads 
must be preserved. Three, whether it is Amtrak or any other 
passenger railroad, sufficient funding on the passenger side 
and to the passenger side is an absolute necessity for any 
additional expansion that may be necessary. And, fourth, 
mutually agreed-upon timetables and service levels must be 
established from the outset.
    So, in closing, while railroads are evolving to meet future 
commands and advance safety, our commitment to investment is a 
constant. Our guiding principle is safety, and our job is not 
complete until we achieve an accident-free future.
    Now, while the 2019 FRA safety data showed such statistics 
as employee fatalities at an all-time low and significant 
improvements in track-caused accidents, other categories 
demonstrate that our work is not done, especially regarding 
human-caused incidents. But we are investing each day in 
initiatives and technologies that will make a real impact, such 
as Positive Train Control, which was mentioned before, which is 
now in operation across 98.5 percent of the 54,000 Class I 
required route-miles. Indeed, a well-maintained railroad is a 
safe railroad.
    Thank you, and we look forward to working with Congress to 
develop and implement policies that best meet this Nation's 
transportation needs.
    [Mr. Jefferies' prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Ian Jefferies, President and Chief Executive 
               Officer, Association of American Railroads
                              Introduction
    On behalf of the members of the Association of American Railroads 
(AAR), thank you for the opportunity to testify today. AAR members 
account for the vast majority of America's freight railroad mileage, 
employees, revenue, and traffic. Amtrak is a member of the AAR, as are 
various commuter railroads that in aggregate account for more than 80 
percent of U.S. commuter railroad trips.
    Freight railroads operating in the United States are the best in 
the world, connecting businesses with each other across the continent 
and with markets overseas over a network spanning close to 140,000 
miles. Their global superiority is a direct result of a balanced 
regulatory system that relies on market-based competition to establish 
rate and service standards, with a regulatory safety net available to 
rail customers who need it. This balanced regulation has allowed 
America's railroads to spend huge amounts on improving their networks 
and meeting their customers' needs.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    I'm proud to point out that the date of this hearing corresponds 
with our annual ``Railroad Day on the Hill,'' during which more than 
400 railroaders from all over the country will fan out across the 
Capitol. They will meet with over 300 members of Congress to urge them 
to support pro-rail policies that will help ensure railroads are able 
to meet our nation's transportation needs safely and efficiently now 
and in the future. Specifically, they will discuss the following 
topics:
    <bullet>  Make the short line railroad 45G tax credit permanent. 
While the recent extension of this important tax credit through 2022 is 
much appreciated, making it permanent would help preserve and upgrade 
rail service for thousands of rail customers and communities, 
especially in rural areas, across the country. We urge you to cosponsor 
HR 510, the Building Rail Access for Customers and the Economy (BRACE) 
Act, to make this tax credit permanent.
    <bullet>  Oppose increases in truck length and weight limits, 
including pilot programs or special exemptions for commodities. Raising 
truck length and weight limits would mean billions of dollars in higher 
taxpayer costs to repair damage to our highways and bridges; more 
highway gridlock; and more harm to the environment. The taxes and fees 
that big trucks pay today are far less than the damage they cause to 
our highways. This multi-billion-dollar annual underpayment--which 
others have to make up through higher taxes--would become even greater 
if truck length and weight limits were increased. Rail is the safest 
and most environmentally friendly way to move freight over land and new 
policies should be avoided that would artificially shift traffic away 
from rail.
    <bullet>  Oppose legislative or regulatory efforts that would upset 
the existing balanced regulatory structure regarding railroad rates and 
service. Today's balanced system protects rail customers against 
unreasonable railroad conduct while allowing railroads to largely 
decide for themselves how to manage their operations. The current 
system ensures railroads can continue to provide safe, reliable, and 
sustainable service to their customers. We ask members of Congress to 
write and urge the Surface Transportation Board (STB) to maintain the 
balanced framework established by Congress that has been the bedrock of 
STB decisions for almost 40 years.
    <bullet>  Modernize the Railroad Retirement Board (RRB), the 
independent agency that administers retirement, survivor, unemployment, 
sickness, and Medicare benefits to more than 750,000 railroad 
beneficiaries. Wholly funded by railroad workers and the nation's 
railroads, the RRB is in dire need of congressional approval to access 
its trust fund dollars to fully staff the agency and modernize its 
antiquated computer systems.

    The hundreds of railroaders visiting Congressional offices today 
are making other important points about freight rail, including the 
following:
    <bullet>  Railroads are the environmentally sound way to move 
freight. On average, railroads are three to four times more fuel 
efficient than trucks. Moving freight by rail instead of truck reduces 
greenhouse gas emissions by up to 75 percent, on average. And because a 
single train can replace several hundred trucks, railroads reduce 
highway gridlock and the need to spend scarce taxpayer dollars on 
highway construction and maintenance.
    <bullet>  The affordability of freight rail saves rail customers 
billions of dollars each year and enhances the global competitiveness 
of U.S. products. Average rail rates (measured by inflation-adjusted 
revenue per ton-mile) were 44 percent lower in 2018 than in 1981. 
Millions of Americans work in industries that are more competitive in 
the tough global economy thanks to the affordability and productivity 
of America's freight railroads.
    <bullet>  An October 2018 study from Towson University found that, 
in 2017 alone, the operations and capital investment of America's major 
freight railroads supported approximately 1.1 million jobs, $219 
billion in economic output, and $71 billion in wages.
    <bullet>  America's approximately 150,000 freight rail employees 
are among America's most highly compensated workers. In 2018, the 
average U.S. Class I freight rail employee earned total compensation of 
$130,200. By contrast, the average full-time equivalent U.S. employee 
in 2018 had total compensation of $78,800, 61 percent of the rail 
figure.
    <bullet>  Without railroads, American firms and consumers would be 
unable to participate in the global economy anywhere near as fully as 
they do today. International trade accounts for around 35 percent of 
U.S. rail revenue, 27 percent of U.S. rail tonnage, and 42 percent of 
the carloads and intermodal units that U.S. railroads carry.
            What Policymakers Can Do to Support Rail Funding
    America's freight railroads operate overwhelmingly on 
infrastructure that they own, build, maintain, and pay for themselves. 
By contrast, trucks, airlines, and barges operate on highways, airways, 
and waterways that are overwhelmingly publicly financed. From 1980 
through 2019, America's freight railroads spent more than $710 
billion--of their own funds, not taxpayer funds--on capital 
expenditures and maintenance expenses related to locomotives, freight 
cars, tracks, bridges, tunnels and other infrastructure and equipment. 
From 2015 through 2019, railroads poured an average of $72 million 
every day back into a rail network that keeps our economy moving.
    Railroads are much more capital intensive than most industries. 
Over the past decade, the average U.S. manufacturer spent about three 
percent of revenue on capital expenditures. The comparable figure for 
U.S. freight railroads is close to 19 percent, or about six times 
higher.

                Capital Spending as % of Revenue <dagger>
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Average all manufacturing                     2.9%
 
Food                                          2.2%
Petroleum & coal products                     2.4%
Machinery                                     2.6%
Fabricated metal products                     3.1%
Primary metal products                        3.1%
Wood products                                 3.1%
Motor vehicles & parts                        3.2%
Chemicals                                     3.4%
Plastics & rubber products                    3.6%
Paper                                         4.0%
Nonmetallic minerals                          4.8%
Computer & electr. products                   5.1%
 
Class I Railroads                             19.1%
------------------------------------------------------------------------
<dagger> Avg. 2007-2016
 Source: Census Bureau, AAR


    The Federal Highway Administration forecasts that U.S. freight 
tonnage will rise 30 percent from 2018 to 2040. For railroads, meeting 
this demand requires having adequate capacity and using it well. Thanks 
to their massive investments over the years, their infrastructure today 
is in its best overall condition ever. The challenge for railroads, for 
members of this committee, and for other policymakers is to ensure that 
the current high quality of rail infrastructure is maintained; that 
adequate freight rail capacity exists to meet our nation's future 
transportation needs; and that the many public benefits of freight rail 
continue to accrue.
    Today's balanced rail regulatory system is critical to enabling 
freight railroads to provide capacity for shippers and rail passengers 
alike. If artificial regulatory or legislative restraints were put into 
place that unnecessarily and unreasonably restricted rail earnings, 
rail spending on infrastructure and equipment would shrink. Either 
taxpayers would have to make up the difference or the rail industry's 
physical plant would deteriorate, needed new capacity would not be 
added, and rail service would become slower, less responsive, and less 
reliable.
    Policymakers can help by enacting policies, including the 
following, that encourage railroads to make investments in their 
networks; that do not discourage private rail investment; and that 
enhance modal connectivity in critical areas.
Expand Public-Private Partnerships like CREATE
    Public-private partnerships offer a mutually beneficial way to 
enhance rail capacity for freight and passenger railroads. Under 
public-private partnerships, public entities devote public dollars to a 
project equivalent to the public benefits that will accrue, while 
private railroads contribute resources commensurate with expected 
private benefits. Without a partnership, many projects that promise 
substantial public benefits (such as increased rail capacity for use by 
passenger trains) in addition to private benefits (such as enabling 
faster freight trains) are likely to be delayed or never started at all 
because neither side can justify the full investment needed to pursue 
them. Cooperation makes these projects feasible.
    The most well-known public-private partnership involving railroads 
is the Chicago Region Environmental and Transportation Efficiency 
Program (CREATE). Chicago is the epicenter of the nation's rail 
system--about 25 percent of all U.S. freight rail traffic goes through 
the region--so what happens in Chicago impacts rail operations 
nationwide.
    CREATE is a program of long-term capital improvements aimed at 
increasing the efficiency of the region's rail and roadway 
infrastructure. A partnership among various railroads, the city of 
Chicago, the state of Illinois, the federal government, and Cook 
County, CREATE comprises some 70 projects, including 25 new roadway 
overpasses or underpasses; six new rail overpasses or underpasses to 
separate passenger and freight train tracks; 35 freight rail projects 
including extensive upgrades of tracks, switches and signal systems; 
viaduct improvement projects; grade crossing safety enhancements; and 
the integration of information from the dispatch systems of all major 
railroads in the region into a single display. To date, 30 projects 
have been completed, four are under construction, and 17 are in various 
stages of design. Some $1.6 billion has been spent or authorized so far 
on CREATE projects.
    In recognition of Chicago's importance to the rail industry, in 
December 2015 the industry established the Chicago Integrated Rail 
Operations Center (CIROC). CIROC represents a significant expansion of 
what had been known as the Chicago Transportation Coordination Office. 
Staffed around the clock by rail operations experts, CIROC monitors 
freight rail traffic going to, from, and through the Chicago region and 
helps coordinate the operations of the many railroads serving the 
region to ensure optimal safety and efficiency.
    In addition to making operational changes, from 1998 through 2018 
freight railroads spent some $6.5 billion on infrastructure projects in 
the Chicago region outside CREATE. This spending, CIROC, and the 
development and implementation of highly advanced information 
technology that allows railroads to measure real-time traffic flows and 
proactively identify potential problems throughout the region speak to 
railroads' willingness to address head-on the challenges associated 
with improving their fluidity and resiliency.
    CREATE has already yielded incalculable public benefits, including 
much more efficient and reliable Amtrak and commuter train operations 
and tens of thousands of fewer hours of delay for motorists at 
previously congested rail-highway grade crossings. CREATE has 
benefitted from the strong support that Congress has given to 
discretionary grant programs that enable the public sector to partner 
with private railroads. For example, CREATE was named one of the first 
``projects of national and regional significance (PNRS)'' when Congress 
created the PNRS program in 2005. The $100 million funded through PNRS 
jumpstarted the CREATE program. Since then, federal grant programs such 
as the American Recovery and Reinvestment Act (ARRA), the 
Transportation Investment Generating Economic Recovery (TIGER) program, 
the Better Utilizing Investments to Leverage Development (BUILD) 
program, Infrastructure for Rebuilding America (INFRA) and Consolidated 
Rail Infrastructure and Safety Improvements (CRISI) grants have all 
supported this highly successful collaborative effort.
    This partnership is already demonstrating results nationally, 
regionally and locally. According to USDOT, the volume of imported and 
exported goods transported via rail to, from, or through Chicago is 
forecast to increase nearly 150 percent between 2010 and 2040. More 
high value products will be shipped via rail in the coming years, so 
efficient and reliable service will be increasingly important. 
Infrastructure improvements planned through CREATE are critical to 
fully unlocking the potential of the national freight rail system to 
serve significant future demand.
    Locally, CREATE means a better quality of life for northeastern 
Illinois, enhancing passenger rail service, reducing motorist delays, 
increasing public safety, improving air quality, and creating and 
retaining jobs. When fully completed, CREATE will reduce the time 
Chicago-area motorists spend waiting at railroad crossings by thousands 
of hours a day; potential crashes and injuries at 25 existing grade 
crossings will be eliminated; police and fire emergency vehicle routes 
will be improved in neighborhoods with new overpasses or underpasses of 
rail lines; travel times for commuters on many Metra lines will improve 
and schedules will become more reliable; and capacity on Metra's 
SouthWest and Heritage lines will increase. CREATE also will permit the 
increased use of LaSalle Street Station, freeing capacity at Union 
Station. And importantly, emissions from cars, trucks and locomotives 
will be greatly reduced, improving air quality and reducing noise from 
idling or slow-moving trains in residential neighborhoods.
    Members of this committee are invited anytime to visit CIROC to see 
firsthand what railroads are doing to improve transportation flow in 
the region and learn how CREATE is helping.
Support Grade Crossing Safety Programs
    The intersection of rail tracks and roadways is an important 
element of rail infrastructure that often involves a public-private 
cooperative approach, in Chicago and elsewhere. Under the federal 
``Section 130'' program, approximately $245 million in federal funds 
are allocated each year to states for installing new active warning 
devices, upgrading existing devices, and improving grade crossing 
surfaces. The program also allows for funding to go towards highway-
rail grade separation projects. Without a budgetary set-aside like the 
Section 130 program, grade crossing needs would fare poorly in 
competition with more traditional highway needs such as highway 
construction and maintenance.
    I respectfully suggest that Congress should take steps to help 
improve grade crossing safety as part of the FAST Act reauthorization. 
For example, in addition to at least maintaining (or, better yet, 
increasing) dedicated funding for the federal Section 130 program, 
Section 130 incentive payments for grade crossing closures could be 
increased from the current cap of $7,500 to $100,000. In addition, FAST 
reauthorization could incentivize states to bundle grade crossing 
projects into a single grant application under applicable discretionary 
grant programs.\1\
---------------------------------------------------------------------------
    \1\ As part of the FAST Act reauthorization, Congress could take 
other actions that would make crossings safer. For example, it could 
expand flexibility in the use of Section 130 funds by eliminating the 
existing arbitrary 50 percent cap on spending for hazard elimination 
projects, and by allowing Section 130 funds to be used to replace 
functionally obsolete warning devices at crossings. A more detailed 
discussion of the AAR's FAST Act priorities for grade crossings is at 
https://www.aar.org/article/freight-railroad-industry-fast-act-
reauthorization-priorities/.
---------------------------------------------------------------------------
Improve First-Mile and Last-Mile Connections
    One of the main reasons why the United States has the world's most 
efficient total freight transportation system is the willingness and 
ability of firms associated with various modes to work together in ways 
that benefit their customers and the economy. Policymakers can help 
this process by implementing programs that improve ``first mile'' and 
``last mile'' connections where freight is handed off from one mode to 
another--for example, at ports from ships to railroads or from ships to 
trucks, from railroads to trucks at intermodal terminals, or from short 
line railroads to Class I railroads. These connections are highly 
vulnerable to disruptions. Improving them would lead to especially 
large increases in efficiency and fluidity and forge a stronger, more 
effective total transportation package.
    Some multimodal connection infrastructure projects that are of 
national and regional significance in terms of freight movement could 
be too costly for a local government or state to fund. Consequently, 
federal funding awarded through a competitive discretionary grant 
process is an appropriate approach for these needs.
    More generally, freight railroads support funding for grant 
programs that enable the public sector, including state and local 
governments and passenger railroads, to partner with freight railroads 
to advance projects of mutual interest. These include projects to help 
reduce road and port congestion, enhance safety at highway-rail grade 
crossings, improve port connectivity, facilitate intercity passenger 
and commuter rail service, and improve the quality of life for 
communities. We suggest that the following programs should continue to 
be authorized at existing or increased levels:
    <bullet>  INFRA Discretionary Grants ($1 billion in FY 2020). Caps 
should be upwardly adjusted or removed on multimodal freight 
eligibility in proportion to general fund contributions to the Highway 
Trust Fund;
    <bullet>  BUILD Discretionary Grants (not authorized, but typically 
$1 billion appropriated);
    <bullet>  CRISI Discretionary Grants ($330 million in FY 2020);
    <bullet>  Federal-State Partnership for State of Good Repair ($300 
million in FY 2020); and
    <bullet>  Funding and authorization for Amtrak and state-supported 
passenger routes.
Address Modal Inequities
    No one, and certainly not railroads, disputes that other 
transportation modes are crucial to our nation, and the infrastructure 
they use should be world-class--just like U.S. freight railroad 
infrastructure is world-class. That said, public policies relating to 
the funding of other modes have become misaligned.
    With respect to federally funded capacity investments in public 
road and bridge infrastructure, the United States has historically 
relied upon a ``user-pays'' system. Unfortunately, the user-pays model 
has been eroded as Highway Trust Fund (HTF) revenues have not kept up 
with HTF investment needs and so have had to be supplemented with 
general taxpayer dollars. General fund transfers to the HTF since 2008 
have totaled almost $144 billion, according to the Congressional Budget 
Office (CBO). Not long ago, the CBO estimated that between 2020 and 
2029, the HTF will require an additional $191 billion to keep it 
solvent.
    Moving away from a user-pays system distorts the competitive 
environment by making it appear that trucks are less expensive than 
they really are and puts other modes, especially rail, at a 
disadvantage. This is especially problematic for railroads precisely 
because they own, build, maintain, and pay for their infrastructure 
themselves (including paying well over a billion dollars in property 
taxes each year on that infrastructure).
    This committee could help ameliorate this modal inequity by 
reaffirming the ``user pays'' requirement. Through application of 
existing technologies, the current fundamental imbalance could be 
rectified by ensuring that commercial users of taxpayer-financed 
infrastructure pay for their use. This could be done through several 
different mechanisms. An increase in the fuel tax could be helpful as a 
short-term bridge to a longer-term future that should include a vehicle 
miles traveled fee or a weight-distance fee.
Make the Short Line Infrastructure Tax Credit Permanent
    The freight rail industry congratulates and thanks the many members 
of this committee who were instrumental in the recent passage of H.R. 
1865, which extended the Section 45G short-line tax credit for five 
years, making it retroactive to 2018 and effective through 2022. 
Section 45G creates a strong incentive for short line railroads to 
invest private sector dollars on freight railroad track rehabilitation. 
Railroads urge this committee to continue to support this tax credit, 
which is vital to preserving the first and last mile of rail 
connectivity to factories, grain elevators, power plants, refineries, 
and mines in rural America and elsewhere.
   Principles for Successful Freight and Passenger Rail Partnerships
    Passenger railroads play a key role in enhancing mobility, reducing 
congestion, decreasing dependence on foreign oil, and reducing 
emissions. Today, freight railroads provide the foundation for much of 
our nation's passenger rail. Nearly all of Amtrak's more than 20,000-
mile system outside the Northeast Corridor consists of tracks owned and 
maintained by freight railroads. In addition, hundreds of millions of 
trips occur each year on commuter rail systems that operate at least 
partially over tracks or right-of-way owned by freight railroads.
    Looking ahead, America can--and should--have both safe, effective 
passenger railroads and safe and productive freight railroads. Mutual 
success for railroads of all types requires collaboration and a 
recognition of the challenges, especially capacity, they face.
    Once passenger trains begin operating over freight rail lines, it 
is in both the host freight railroad and passenger entity's interest 
for the service to work as intended. And while there is no one size 
fits all model as each situation presents unique challenges and 
opportunities, success will be more likely if certain overarching 
principles are followed to ensure what all of us want: the long-term 
success of passenger rail and a healthy freight rail system that 
shippers all over the country rely on every day.
    First and foremost, safety comes first. Railroads are an extremely 
safe way to move people and freight, and we must keep it that way.
    Second, current and future capacity needs of both shippers and 
passenger railroads must be protected. Freight corridors are expensive 
to maintain, and many freight corridors today lack excess capacity. 
Passenger rail use of freight rail corridors must be balanced with 
freight railroads' need to provide safe, reliable service to present 
and future customers. If adding new infrastructure is necessary to 
expand passenger service, which is usually the case, freight railroads 
should not be responsible for funding that expansion.
    Third, policymakers should provide passenger railroads with the 
dedicated funding they need to operate safely and effectively, and to 
pay for expanded capacity when they require it. It's not reasonable to 
expect Amtrak or other passenger and commuter railroads to be able to 
plan, build, and maintain an optimal network when it doesn't know what 
its capital and operating funding will be from one year to the next. If 
Congress provided predictable and needed levels of federal support, 
Amtrak and its state partners could better deliver a future of improved 
reliability, enhanced capacity, more service, and reduced trip times.
    Fourth, many factors--such as bad weather, heavy traffic, 
accidents, and equipment failures--can adversely affect fluidity on the 
nation's railroad network. All parties must recognize that the 
preference given to Amtrak's trains over freight trains does not mean 
there will never be delays to Amtrak trains. Amtrak is given 
preference, but preference does not mean a guarantee.
    These principles have served railroad customers and passengers well 
over the years and have led to many successful results. For example, 
CSX and the VRE recently announced an agreement with Virginia that will 
enable the expansion of passenger rail service, both commuter and 
intercity, to serve the growing demands of the Washington D.C. region 
while preserving CSX's ability to serve the current and future freight 
demands of the Interstate 95 corridor.
    Union Pacific (UP) has a robust partnership with the Capital 
Corridor Joint Powers Authority (CCJPA), which operates 28 trains a day 
between Sacramento and Oakland, CA, and the Altamont Corridor Express 
(ACE) between Stockton and San Jose, CA, which operates eight trains a 
day. These are model partnerships because the agencies understand the 
value of capacity and invest in infrastructure improvements necessary 
for on-time service. Both agencies spend millions of dollars every year 
to maintain shared infrastructure used by commuter and freight trains 
and when challenges have arisen they have worked cooperatively with UP 
on capacity planning studies and capital improvements resulting in 
improved speeds and schedules for their commuters.
    In Chicago, BNSF and the Commuter Rail Division of the Regional 
Transportation Authority (Metra) have worked closely for decades in 
safely moving up to 60,000 weekday riders between Chicago and Aurora, 
Illinois. With commuter trains operating at 96.55 percent on-time 
during February 2020, BNSF operates and dispatches the service; 
maintains the tracks, signals, structures, and rolling stock; and, 
coordinates every day with Metra's management team. Of equal 
importance, together with BNSF, Metra continues to provide millions of 
dollars in annual funding for its share of the cost of replacing and 
upgrading the railroad's infrastructure, like rail, ties, and ballast, 
to keep it in an excellent state of good repair.
    Norfolk Southern (NS) also works closely with Metra to enhance 
commuter performance in the Chicago area. The two railroads hold 
regular calls to discuss in detail any freight attributable delays to 
the Southwest service and the Heritage Corridor. They also work closely 
together in real time as delays are incurred so that NS can coach and 
train dispatching personnel to make the best and most efficient 
operating decisions. Metra also recently installed a full-time 
superintendent in the Chicago Integrated Rail Operations Center, a 
facility that monitors and facilitates efficient rail operations 
through Chicago, who works closely with his NS counterpart to address 
tactical and strategic issues affecting both railroads.
                     Positive Train Control Update
    Before I close, I want to provide an update on railroad efforts to 
implement PTC. The seven Class I freight railroads all met statutory 
requirements by having 100 percent of their required PTC-related 
hardware installed, 100 percent of their PTC-related spectrum in place, 
and 100 percent of their required employee training completed by the 
end of 2019. In aggregate, Class I railroads had 98.5 percent of 
required PTC route-miles in operation as of the beginning of this year. 
Each Class I railroad expects to be operating trains in PTC mode on all 
their PTC routes no later than 2020, as required by statute. In the 
meantime, railroads, in coordination with Amtrak, other passenger 
railroads, and other tenant railroads, are continuing to test and 
validate their PTC systems thoroughly to ensure they are interoperable 
and work as they should.
                               Conclusion
    Of the many different factors that affect how well a rail network 
functions, the basic amount and quality of infrastructure is among the 
most significant. That's why U.S. freight railroads have been 
expending, and will continue to expend, enormous resources to improve 
their capacity base. Policymakers too have a key role to play, though. 
Freight railroads look forward to working with this committee, others 
in Congress, and other appropriate parties to develop and implement 
policies that best meet this country's transportation needs.

    Mr. Lipinski. Thank you, Mr. Jefferies.
    We now will begin questioning, and I will defer to Chairman 
DeFazio for the first questions, so I recognize the chairman 
for 5 minutes.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Gardner, I was a bit confused by Secretary Chao's 
appropriations testimony that you are going to begin 
rehabilitating the North River Tunnels under the Hudson River, 
and, when I toured those tunnels, it was pretty definitively 
said that there is no really feasible way to rehabilitate them 
significantly while given the pressure and utilization.
    What has changed?
    Mr. Gardner. Thank you, Mr. Chairman.
    Well, let me confirm your view. Our rehabilitation of the 
North River Tunnel is an extensive, complete rehabilitation of 
vital elements of the tunnel, and what the Secretary, I think, 
was referring to is our recent efforts to look at options to 
bring forward some elements of that rehabilitation given the 
delays associated with advancing the Hudson Tunnel project.
    So our goal here is to see if there are----
    Mr. DeFazio. Well, she is delaying the Hudson Tunnel 
project because EIS is lost somewhere on her desk, which I am 
sure she is very busy, and so now she is recommending we begin 
to do some patchwork stuff on one of the tunnels, which really 
isn't going to do much.
    Mr. Gardner. Well, I think our view is that we have got--at 
this stage, given the delays, we are looking at somewhere along 
the lines of 10 years until we have the full new tunnels built 
which will allow a complete rehabilitation, so----
    Mr. DeFazio. OK.
    Mr. Gardner [continuing]. We think it is incumbent upon us 
to ensure----
    Mr. DeFazio. I would like to know what you are actually 
planning, if you can be more specific, because, again, given 
the tour----
    Mr. Gardner. Sure.
    Mr. DeFazio [continuing]. Given the spalling and the 
deterioration of the knee wall, the 12,000-volt cable that run 
through there, the frequent failures, the sinking track--I 
mean, all sorts of things. I would just like to know what 
critical elements you think you can address while still using 
the tunnels 20 hours a day, which is what I understand you have 
to do.
    Mr. Gardner. That is right. So we are looking at, right 
now, to see if there are any elements of that work that we can 
do----
    Mr. DeFazio. Right. Thank you.
    Mr. Gardner [continuing]. On those nights and weekends, but 
we don't yet have the answer.
    Mr. DeFazio. OK. Thank you. But, when you come up with 
something because of the delay by the Secretary, let me know.
    You mentioned in here two dozen promising corridors do not 
serve or do not serve well today, and existing corridors of 
unmet demand, and you are going to have an analysis soon? We 
would like to see the list.
    Mr. Gardner. Absolutely. We will be releasing that in----
    Mr. DeFazio. Right.
    Mr. Gardner. In this spring.
    Mr. DeFazio. There are two major issues I have raised with 
Mr. Jefferies. I will raise them with you----
    Mr. Gardner. Yep.
    Mr. DeFazio [continuing]. Which are preference, which I 
think you said 67 percent of delays on long-distance trains 
were due to freight?
    Mr. Gardner. Freight interference, yes, sir.
    Mr. DeFazio. Yes. OK. And what progress are we making on 
the issue of integrating schedules better and preference? Are 
we making any?
    Mr. Gardner. So we have worked collaboratively with the 
Federal Railroad Administration to have the metrics of 
standards that were----
    Mr. DeFazio. Uh-huh.
    Mr. Gardner [continuing]. Prescribed under PRIIA to be 
advanced. Those, I think, are waiting for final issuance. And 
we remain in conversations with our host partners, but, 
fundamentally, we think, as you said, we need to ensure there 
is an effective way to enforce the preference statute, and we 
need a better way to get our access rights translated into 
actual service, because, today, there is no clear path for us 
to add service----
    Mr. DeFazio. OK. Thank you.
    Mr. Gardner [continuing]. For our railroad.
    Mr. DeFazio. Mr. Jefferies, what can AAR do to help 
facilitate this process?
    Mr. Jefferies. Sure. So we certainly agree that we need 
metrics and standards in place. Obviously, the hosts and the 
tenants all have contracts that they are bound to abide by, and 
I certainly don't have a window into those contracts, but they 
have performance metrics in them, and that is what is the basis 
of incentive payments, whether they are paid or not.
    Currently, the statute provides a path if Amtrak wants to 
access--excuse me--freight facilities, there is a path laid out 
in the statute at the Surface Transportation Board. To the best 
of my knowledge, that hasn't been used in over 20 years, so I 
would say let's try that path that is there. Whether that can 
be improved or not, I certainly can't comment on that, because 
it hasn't been used.
    Mr. DeFazio. It seems like CSX has been working with 
Amtrak. How do we get UP to even begin a discussion about 
additional routes of these city pairs? I mean, I have been in a 
number of States where their people have proposals, and they 
are saying, UP won't even talk to us, period, zero. What is 
going to hurt them to have a little discussion?
    Mr. Jefferies. Certainly. Not having been a part of any of 
those discussions, I will point to the fact that I think, you 
know--and you just referenced the--I think the developments in 
Virginia, and I know that UP, for example, has very positive 
relationships with several of the railroads in California.
    Whether or not there is a series of best practices out 
there, I think that is worth examining, because I think all 
sides would agree, when both parties come to the table and 
agree that, OK, here is the capacity desired, here is the 
investment needed to make sure that capacity is available, and 
here is what everyone is willing to step up and contribute, and 
here is the agreed-upon timetables and service metrics, I think 
that is when everything works best, and works best when those 
parties can do it on their own.
    So I think it is important to figure out why does this work 
really well in some situations, and why hasn't it worked as 
well in other situations, and----
    Mr. DeFazio. OK.
    Mr. Jefferies [continuing]. I certainly don't have a read 
into----
    Mr. DeFazio. Well, I hope we can facilitate that gently 
without something indiscriminate, so I look forward to further 
discussions.
    Thank you.
    Mr. Lipinski. Thank you, Mr. Chairman.
    I now recognize Mr. Weber for 5 minutes.
    Mr. Weber. Thank you, Mr. Chairman.
    I am going to follow up on something you were saying, Mr. 
Jefferies, but, before I do that, in your prepared remarks you 
said that the rail line system and carrying freight was 
responsible for 2 percent of emissions while carrying a 
percentage of freight, and I missed that percentage. You said 
we carry X amount of freight, but we only are responsible for--
--
    Mr. Jefferies. So freight rail carries 30 percent of long-
distance freight and accounts for 2 percent of transportation-
related emissions.
    Mr. Weber. OK. Thank you for that.
    Mr. Jefferies. Yes, sir.
    Mr. Weber. My question--my prepared question is: What are 
the railroads' capital expenditure priorities? But, before we 
go there, I want to follow up on what Chairman DeFazio was 
talking about, where you have a system--a situation where you 
all sat to come to the table, whether it is UP, whoever it is, 
and I guess have an agreed-upon system of working together in 
that particular instance.
    Does AAR have a--do they have a system in place where, when 
something like this comes up, they bring in those parties and 
they kind of facilitate that?
    Mr. Jefferies. So we do not have a formal system in place, 
and, given that most of these relationships are bound in 
contracts, those are certainly between the individual host 
railroad and the passenger tenant and privy to those two 
parties.
    Now, we certainly collect information on positive 
relationships and successful projects that have worked 
together, whether it is passenger, whether it is broader things 
like the CREATE program, but we don't have a formal, I guess, 
adjudication or mediation role.
    Mr. Weber. Well, I wouldn't expect there to be an 
adjudication or legal, formal binding, I guess, but just a 
system where the members all come together and say, let's work 
on this.
    Mr. Jefferies. Well, so I would certainly say that, at a 
broad level, that is part of the role of the AAR, is the fact 
that whether it is this issue we are talking about or whether 
it is any issue related to rail, the AAR has probably got a 
committee focused on that where each of our members are working 
together towards an end goal.
    This one is probably a more challenging issue because of 
the unique needs, capacity needs for each rail line, host rail 
line out there, versus the needs that the passenger railroad 
desires as well, so that is why I say a one-size-fits-all 
solution is probably not something that is viable when it comes 
to these types of agreements, that you do have to take into 
account the individual traffic demands, et cetera.
    Mr. Weber. OK. Well, that is going to be in case by case, I 
am sure.
    So my question is: What are, in your estimation, the 
railroads' capital expenditure priorities? What should they be?
    Mr. Jefferies. So those are certainly dictated, I think, by 
each railroad based on its capital needs. At a broad level, the 
industry has averaged over $25 billion in capex and maintenance 
back into their networks. So, when you look at some of the 
major projects that have occurred around the country, a lot of 
that is opening up capacity to increase throughput, whether it 
is allowing for double-stacking of trains through major 
corridors like we have seen on the east coast, whether it is 
double-tracking areas--in the past several years, double-
tracking across the northern tier to account for increased 
movements, whether it is technology investments and ports and 
other rail yards to allow for a quicker or----
    Mr. Weber. Or tunnels. Don't forget tunnels.
    Mr. Jefferies. And don't forget tunnels, certainly.
    We see the Federal Government as having a major role there. 
But, you know, it is--so you have what is called kind of the 
core maintenance, which is track and rail, is making sure the 
system that we have now is functioning at the highest level 
possible, and then expanding where appropriate.
    Mr. Weber. I don't mean to put you on the spot, but you 
have watched this from a broad view, and surely you see the 
areas of the country and things that need to be priorities, so 
if you can name one or two or three priority areas, what would 
they be?
    Mr. Jefferies. Well, you certainly mentioned the tunnels 
under the Hudson, and, if you are looking at the passenger side 
and where the Feds can play a major role, it is in the 
Northeast Corridor. I think Stephen outlined the investment 
needs there, and that is certainly a major public role to play.
    When it comes to the freight side, each of our companies 
are looking at individual projects based on their long-term 
projections, their capacity needs, and, again, a lot of that is 
certainly at the first mile, last mile, moving things in and 
out of ports and yards at a faster clip, but also building out 
just the capacity that is necessary in certain areas as well, 
whether it is to allow for double-stacking, et cetera.
    Mr. Weber. OK. Well, you are a politician. That is a broad 
answer. I was wanting specific examples, but my time has 
expired.
    Mr. Chairman, I yield back.
    Mr. Lipinski. Thank you, Mr. Weber.
    I now recognize myself for 5 minutes.
    Mr. Artl, your testimony focused on the need for more grade 
separations. There was a grade separation that was funded by 
Illinois last year, $150 million for grade separation at 65th 
and Harlem. I was just out there this past week talking about 
it. It is going to be a much-needed help both for the people 
driving on 65th and 63rd there, but also for the businesses and 
for the beltway area there.
    So I wanted to ask: What are some recommendations that you 
have for what Congress can do to help advance these projects 
such as this?
    Mr. Artl. Certainly, and I think a starting point is the--
--
    Mr. Lipinski. Can you pull your microphone closer?
    Mr. Artl. A starting point would be the effort you took 
during the last FAST Act to ensure that grants for grade 
separations would be eligible under CREATE, so that was a huge 
first step in advancing a lot of grade separation projects.
    In addition, what we support, what Mr. Jefferies outlined, 
full funding of section 130, and increasing funding through 
that would be helpful to enable additional funds to go to our 
grade separation program projects.
    We would support increasing the incentive payments for 
grade crossing closures from the current cap of $7,500 upwards 
up to $100,000, and then expanding the flexibility by 
eliminating the arbitrary 50-percent cap on spending for hazard 
elimination projects. Those three would be good, but ensuring 
that CREATE still has access to grants for grade separation 
projects.
    Mr. Lipinski. And Mr. Jefferies, just to be clear, this is 
also something that the railroads want and find helpful, 
correct? Grade separations?
    Mr. Jefferies. Oh, absolutely. And that is certainly a huge 
part of CREATE over the next several years as you know as well.
    Mr. Lipinski. Thank you. I want to ask Mr. Shanahan. Back 
in September last year, I had sent a letter to Amtrak that 
touched on some of the issues in your testimony about the 
third-party contract workers Amtrak is using and I received a 
letter back in October from Amtrak saying that these workers, 
third-party contract workers Amtrak uses have provided an equal 
or higher degree of protection than BMWED workers. Why do you 
say that that is not the case?
    Mr. Shanahan. Well, specifically, FRA regulation 243 was 
amended January 1, 2020, and right now currently BMWED 
employees working on Class I railroads are subject to more 
stringent FRA testing than contractor employees who could be 
working right next to them.
    Mr. Lipinski. And what is it about the training that you 
receive that--you have the experience, what was it about that 
that made you better at doing the job at making sure you 
maintain safety?
    Mr. Shanahan. Well, the training is--one example I guess I 
can use is, the training is always ongoing. When you are an 
employee for the railroad, you are not there for just one job. 
You are there day in and day out for multiple years myself 
being there for 13 years. You are constantly engaged in safety 
training processes that the contractors generally are not.
    Mr. Lipinski. Thank you. And I am going to ask Dr. Bury. 
You had talked about adding more service to the Metra line. 
What would this mean for your community and have you--what has 
it been like in terms of working with the railroads in terms of 
adding more service?
    Is your microphone on?
    Dr. Bury. No it was not. Thank you. Thank you. Sorry. Our 
train line has the worst service, I would say, on the weekends 
of the entire regional area. We have absolutely no Sunday 
service, no Saturday service that is really viable. There is, I 
think, three trains in, three trains out on Saturday. So if you 
want to go to an event with your family, you want to make sure 
you can get home, you know. You need a variety of times. Most 
people find it easier, sadly, to just get in their gas-guzzling 
car, go down, and add to the smog, the congestion, and, you 
know, it is just not viable.
    Asking for more service, it is a chicken and egg issue a 
little bit. They say, well, look at your ridership on Saturday, 
why should we add more? You don't have enough and you want 
more. You always want more. Other lines in the same system have 
dozens of weekend trains and so it really holds our community 
back in terms of property values, in terms of what we can do.
    The economic development around our train station is nice, 
but it could be so much more than it is. And that lack of 
funding is the primary thing and it would just mean a lot to 
our community. We feel like the poor stepsister, you know. 
Everyone else gets the really fancy stuff, we get the scraps. 
And we are, again, if you look at the population growth, the 
fastest growing area in the State is serviced by the line. So 
it is kind of silly that we can't get the fastest growing 
service to correspond.
    Mr. Lipinski. You do have a very nice station, though, 
there, the Patriot Station there.
    Dr. Bury. Yes, yes. The train station, yes.
    Mr. Lipinski. All right. My time is expired.
    I will now recognize Mr. Perry for 5 minutes.
    Mr. Perry. I thank the chairman. Mr. Jefferies, I thank the 
panel for being here. Mr. Jefferies, Executive Order 13868 
requires PHMSA to finalize a rulemaking that permits the 
transportation of LNG by rail setting a mid-May deadline. 
Giving the growing domestic supply of natural gas and the 
increasing number of communities underserved due to regulatory 
barriers, this regulatory change I think is a step in the right 
direction.
    Rail transportation offers a safe alternative pathway to 
get natural gas to export markets, underserved communities, and 
to provide alternative fuels for the maritime industry. The 
industry already carries most hazardous materials throughout 
the Nation without incident. I am just curious, once this 
rulemaking is finalized, what economic, environmental, and 
safety benefits do you foresee and how will access to the 
additional business opportunities due to the policy shift 
impact the industry's capacity to reinvest in rail 
infrastructure?
    Mr. Jefferies. Thank you, Congressman.
    Look, you certainly hit the nail on the head. If this 
product's going to move, rail is by far the safest mode of 
transportation to transport that to market. And the Department 
has made it very clear, they want to move forward with this 
rule and we are supportive of that rule.
    We have the most stringent tank car standards that exist 
and certainly specific tank cars for moving LNG as well. And 
the business opportunities, I think there is certainly a market 
in the Northeast, as you said, given the lack of pipeline 
capacity to heat those homes and there is certainly an interest 
in export as well.
    So railroads have the obligation to move that, we will move 
it safely, and we will be ready when that business demand 
develops.
    Mr. Perry. And about reinvestment quickly. Have you made a 
calculation in anticipation of rulemaking about what kind of 
opportunities this will provide or are you just waiting to see 
what it does?
    Mr. Jefferies. So I think our companies are always looking 
at their capacity and potential demand and business as it 
develops. I don't have a read into the specific commercial 
decisions, but I think those calculations and discussions are 
certainly being had inside our companies.
    Mr. Perry. OK. Thank you, Mr. Jefferies.
    Mr. Gardner, on March 2, so that is, what, yesterday or day 
before, Amtrak said that in fiscal year 2019 Amtrak set new 
records in ridership, revenue, and earnings. In 2020, Amtrak is 
on pace to achieve operational break even for the first time in 
the company's 49-year history.
    I think your written testimony echoes that claim. Fiscal 
year 2019 set the Amtrak record for revenue reporting only a 
$29.8 million loss as a result of record ridership where Amtrak 
claimed the fiscal year 2019 operating revenues covered 99.1 
percent of operating costs.
    With all due respect, it seems like these claims are 
disputed and it looks like, basically, due to two reasons. 
Included in Amtrak's reported passenger revenue are all State 
subsidies, at least $235 million a year. So subsidies aren't 
passenger revenue, that is another round of subsidies. And 
then--so that is number one.
    Number two, Amtrak's press release highlights net revenue 
figures that fail to account for depreciation despite its 
inclusion in the audited financial statements for 2019. This 
was $870 million or 20 percent of operating costs. Combined, 
these errors, if you will, hide the significant actual loss for 
Amtrak. Once addressed, I think, and included, Amtrak's actual 
loss exceeded $1 billion or 35 times the figure cited in 
Amtrak's press release.
    I am just curious if there is a reason that Amtrak 
published the figures the way they did? Do you see this as 
misleading at all, or is this all-inclusive and Amtrak's going 
to continue to stand by that and not include the two issues of 
the subsidy in the depreciation?
    Mr. Gardner. Thank you, Congressman.
    First, State payments are done pursuant to section 209 of 
PRIIA, the authorization that covers this portion of our action 
that end business with the States and those payments are 
absolutely transparent. Through all of our reporting, we issue 
service line and asset line documents. We are, I think, very 
clear about the State-supported business being a partnership 
between States who fund a portion of operating costs and a 
portion of the capital costs and then Amtrak using its Federal 
dollars.
    So we, actually under the accounting rules, I think we do 
consider it revenue and that is consistent with the approach it 
has taken and has been for a long time. So we haven't changed 
our approach to accounting for these payments and they are 
contributions from the States from these services, but pursuant 
to the--essentially the rules set out by Congress for us to 
develop a common cautionary methodology of the States.
    As it relates to depreciation, we have long reported on 
essentially the revenues and operating performance outside of 
depreciation. As you said, we do issue our full gap standard 
reporting so that that is completely transparent, but the 
depreciation is cost associated with primarily our vast 
Northeast Corridor infrastructure funded by the Federal 
Government. And our requests, essentially, for funding for that 
comes through our legislative and grant requests.
    So we are--I think we are showing very clearly incremental 
improvement on our operating performance. Do we still require 
Federal funds to operate? Absolutely. And we are very clear 
about that. You have heard my testimony today, but I want to 
put it in perspective. As part of our fiscal year 2021 request, 
we have a $7 billion spend. Out of that $7 billion, we are 
asking from all of our public partners, our States, our 
commuter railroads who use our assets like Mr. Corbett's New 
Jersey Transit, and the Federal Government for only 40 percent 
of that $7 billion spend.
    So the vast majority of our investment comes from our 
ticket revenue and our other commercial revenue that we are 
plowing back into this business so that we can operate as many 
trips and provide service to the Nation for as little public 
subsidy and taxpayer support as possible, which is our mission 
per statute.
    Mr. Perry. I thank the gentleman. The time'sexpired.
    I yield.
    Mr. Lipinski. Thank you.
    And I recognize Mr. Payne for 5 minutes.
    Mr. Payne. Thank you, Mr. Chairman.
    Mr. Corbett, how are you? Good to see you today. The 
collection of infrastructure projects known as the Gateway 
Program is the single most critical infrastructure need facing 
this country. One of those projects is creating a new tunnel 
under the Hudson River connecting New Jersey and New York while 
also repairing the existing 110-year-old tunnel which is 
rapidly decaying due to damage from Hurricane Sandy.
    Last week during the appropriations hearing, Transportation 
Secretary Chao stated that it may be possible to repair the 
existing tunnel now while it is still in use and then build the 
new tunnel later. I had a comment. That is as bad as the 
President asking all of those drug companies and medical people 
if you could use their normal flu shot for coronavirus, but she 
asked it and so did he.
    What is your opinion on this and how do you think repairing 
the existing tunnel while still in use will affect commuters?
    Mr. Corbett. Yes, Congressman. Thank you.
    I think there are two aspects that are sort of joined. One 
is the state of good repair on those tunnels, even if there was 
no demand for increased capacity, 100-year-old tunnels they 
would need to be repaired. And certainly we work very closely 
with Amtrak. We see that with single or ET work. There is a lot 
of work to be done to the degree that it can be done within the 
limited windows without major disruptions.
    In my opening statement, I referred to an incident, what 
happened when we had several hours' disruption and the chaos 
that caused--overcrowding and the situation that happens 
periodically. Last year I know the Gateway Committee came out 
and gave incident reports of how severe those damages are every 
time there is an outage. So to the degree that it affects, it 
impacts that repair, impacts rush hour, or our regular service 
that would be very significant.
    Certainly anything that can improve the existing repairs. I 
know Stephen and our technical people are working together to 
try to maximize those windows, but there is a limited 
opportunity. I will let Stephen speak to that.
    But certainly there is nothing--the major issue, really, is 
the capacity. We have outgrown our capacity. The growth in our 
region is way outstripped. We are in the transit hunger games 
in New Jersey. We have much more demand than we have capacity, 
particularly going into New York.
    So the tunnels, we need those tunnels. We could use those 
tomorrow independent of the repair work. The repair work only 
complicates the matter as far as any potential outages until 
those tunnels are built.
    Mr. Payne. I just don't understand how the Secretary has 
not been able to understand as it has been articulated many 
different ways how that cannot be done that way, but maybe we 
will find somebody that can get her to understand you can't do 
that.
    Also Mr. Corbett, PTC deadline, as you know, you are aware 
that December 2020 deadline for New Jersey Transit to have PTC 
operational is rapidly approaching. Understand that the FRA has 
expressed concern that New Jersey Transit may be at risk of 
potentially not meeting this deadline. However, you have made 
significant progress in the past few weeks on PTC and I am 
committed to ensuring that you have the necessary tools in 
order to meet that deadline.
    In what ways can Congress assist New Jersey Transit in 
fully implementing PTC?
    Mr. Corbett. Thank you, Congressman.
    I think there are two aspects: One, we are succeeding. We 
have excellent cooperation from the FRA and from Amtrak on the 
Northeast Corridor and our freight railroads where we 
intersect, so we are confident we will make that deadline. As 
you know, we recently went into revenue service demonstration 
so we are comfortable, but the financial burden is heavy.
    And also, I think, after everyone makes the 2020 deadline, 
we have to look at what is the future of PTC going forward and 
what does Congress want because certainly the way this is 
originally intended and the way it ended up, I think, has been 
a bit of a, sort of, Tower of Babel with all the different 
railroads having different systems.
    So the integration, certainly interoperability is a real 
challenge for, particularly, the Northeast, and we have freight 
railroads, we have Amtrak system, we have our own, we have 
Metro-North, MTA. So that integration, I think, we have to look 
after 2020 what does Congress expect and how do we make it a 
more effective, more efficient system.
    Mr. Payne. OK. Thank you, sir.
    I yield back.
    Mr. Lipinski. The Chair will now recognize Mr. Smucker for 
5 minutes.
    Mr. Smucker. Thank you, Mr. Chairman.
    Mr. Jefferies, as you well know as has been discussed here, 
railroad infrastructure is critical for moving consumer goods, 
energy resources for connecting people to their families, 
employment opportunities, and much more. Certainly true in the 
district that I represent, Pennsylvania's 11th Congressional 
District, which is home to each of the modes of rail 
transportation.
    Lancaster's Amtrak station is the second busiest in the 
State carrying close to 600,000 passengers annually. Lancaster 
and York Counties' heavy manufacturing base there also move 
products and goods via short line regional and Class I rail 
systems operated by Norfolk Southern and Genesee & Wyoming.
    While all of these lines are vital for the local and State 
economy, investment is needed to ensure that each line can 
continue to function efficiently. The American Society of Civil 
Engineers, unfortunately, gave Pennsylvania's rails a C-minus 
noting that much of my home State's rail infrastructure is over 
80 years old.
    So updating this infrastructure I know is important, will 
require investment by the rail line owners and operators, but 
it also really is an ``all hands on deck'' requiring all 
levels, including there is a role for State government and a 
role for the Federal Government as well.
    You talked in your testimony, you discuss some of the ways 
that Congress can spur greater investment in our railway 
infrastructure, including making the short line tax credit 
permanent, which is a bill that I support and have cosponsored 
as well. Just wondered, if you could, again, just highlight 
some of the top ways that you think Congress can incentivize 
rail investment?
    Mr. Jefferies. Certainly. Thank you.
    So I think it is a multipronged answer. For the short 
lines, you hit the nail on the head: the short line tax credit 
is I think, the life blood to reinvesting back in their 
infrastructure and the evidence is demonstrable over the years 
that the credit's been in place. Specifically, when it comes to 
tie replacement, et cetera, along those lines, the core 
infrastructure. When it comes to our passenger partners, fully 
funding Amtrak, fully funding other passenger grant programs 
that might be out there is critical.
    I think Mr. Gardner commented on the operating revenues and 
the positive on the operating side. The infrastructure deficit 
still needs significant investment, whether it is Amtrak, 
whether it is NJT, whether it is SEPTA. So ensuring that the 
Federal Government is playing a robust role there. And then 
when it comes to the Class I side, I think, it is twofold. One, 
we are fortunate that we can reinvest our own revenues and that 
is because we have got a healthy economic regulatory structure 
that allows us to earn the revenues necessary to invest back 
into our networks and it is absolutely critical we keep that in 
place because the result of that is the billions and billions 
that go back into our network to meet our customers.
    And then, where appropriate, grant programs that support 
public-private partnerships, whether it is BUILD, whether it is 
INFRA, whether it is CRISI, in certain circumstances, I think, 
plays a positive role as well especially in those core 
interconnected regions where you have different types of rail 
all coming together. There are certainly opportunities there.
    Mr. Smucker. Thank you. I do want to mention specifically a 
bill that I recently introduced with Representative Kuster from 
New Hampshire, the Invest in American Railroads Act. It is, 
again, a bipartisan bill, makes the Railroad Rehabilitation and 
Improvement Financing or RRIF program more accessible by 
addressing one of the major challenges associated with the 
credit risk premium by authorizing the U.S. Department of 
Transportation to cover the cost of up to $300 million in RRIF 
credit risk premiums annually.
    Just want to get your reaction to that, maybe talk a little 
bit about your member's use of the RRIF program and 
opportunities for the greater use of the program.
    Mr. Jefferies. So I certainly credit you for trying to make 
that program more effective. It is something that folks have 
been trying--a nut, folks have been trying to crack, for a long 
time. I spent time trying to work on that when I worked on the 
Hill because I think there is such an untapped potential there 
and such a robust funding source that just hasn't, for a 
variety of reasons, whether it is the credit risk premium issue 
or others, hasn't really lived up to its potential.
    So the Class I's, I think, are not necessarily the best 
customers for that, but certainly the short line railroads see 
it as a huge possibility when it comes to supporting 
infrastructure funding. I know Amtrak several years ago went 
through the process which was fairly arduous at that point to 
get a RRIF loan.
    So certainly the opportunities are there and the need is 
there and the resources are there, it is just, like you said, 
making that program work.
    Mr. Smucker. Thank you. I know I am out of time, but just 
love to continue to discuss that and work with you to try to 
make that program more effective.
    Mr. Jefferies. Glad to.
    Mr. Smucker. Thank you.
    Thank you, Mr. Chair.
    Mr. Lipinski. The Chair now recognizes Mr. Lynch for 5 
minutes.
    Mr. Lynch. Thank you, Mr. Chairman, for holding this 
important hearing.
    I also want to thank the full committee chair, Mr. DeFazio, 
for his attention to this issue.
    And I want to thank our witnesses for helping the committee 
with its work.
    As a matter of full disclosure, before coming to Congress, 
I was an ironworker, union ironworker for about 20 years. So 
worked on--we have 42,000 structurally deficient bridges across 
the United States of America right now. So Mr. Shanahan, I 
certainly empathize with your position.
    Also after leaving the ironworkers, I became legal counsel 
to International Brotherhood of Teamsters Joint Council 10 in 
Massachusetts. Also represented Teamsters Local 633 in New 
Hampshire and Local 42 in Lynn, Massachusetts. So I just want 
to express my unbiased viewpoint from where I sit.
    Mr. Shanahan, I know the full benefits of going through a 
union apprenticeship program. I went through myself and I 
honestly say, I wouldn't be where I am now had I not gone to 
the ironworkers apprenticeship program, training program, 
safety program. That really not only benefited me as a worker, 
but I also think made the jobs I worked on safer and made the 
public safer, lowered the cost price for the end user on those 
projects.
    And I know that Chairman DeFazio has a bill that we are 
considering right now to provide $55 billion to rail. We don't 
have anybody better in Congress than Dan Lipinski on rail, but 
he is working closely with our chairman in order to get that 
done.
    Could you talk a little bit about--and, by the way, nothing 
shakes my confidence in Amtrak more than hearing that they are 
dividing the workforce by bringing in people who are less 
qualified to work on rail projects. That just--that just 
destroys my confidence in Amtrak, frankly. It is part of the 
reason why, for our commuter rail, we got rid of Amtrak a 
number of years ago in Massachusetts and now we went with 
another company.
    But with all of the challenges we have, do you really want 
to pick that fight to try to save a couple of bucks by bringing 
in less trained workers who are not trained on FRA standards 
that don't have that experience and that regular training, 
ongoing training, on working on rail systems. It is a very 
different--as an ironworker, it is a very different environment 
when you are working on a live transportation system on rail, 
when you got the public coming through that system, and so many 
things that could go wrong if you don't have skilled workers in 
place.
    So Mr. Shanahan, could you talk about what that means for 
the American rail passenger and American workers? You know, IBT 
workers and Brotherhood of Locomotive Engineers and Trainmen 
are also within your bargaining unit as well, what that means, 
that $55 billion provided, provided we have skilled workers on 
that job?
    Mr. Shanahan. Yes. Thank you.
    That funding creates stability in our workforce, it 
provides an opportunity for the American public to rest assured 
that, assuming our members are involved in performing that work 
and union members as well, to rest assured that it is being 
done in a safe and efficient manner.
    I agree with you wholeheartedly when you say, you know, is 
this a place where we want to worry about saving a couple 
pennies, but jeopardizing the general public or the employees. 
It is just--I think it is a long overdue--these projects, and 
specifically the Chicago region, are long overdue and it 
would--it needs to be done. It really, really does.
    Mr. Lynch. Right. And I know, as I said, we have 42,000 
structurally deficient bridges across the country right now, 
many of those are rail, you know, that carry rail, but I think 
generally, we need to be on the same page and that means Amtrak 
as well. We put great responsibility on Amtrak to really 
spearhead our rail operations, at least our passenger rail, and 
I just hope that they will step up and do the right thing.
    Mr. Chairman, I yield back.
    Mr. Lipinski. Thank you. The Chair now recognizes Mr. Pence 
for 5 minutes.
    Mr. Pence. Thank you, Chairman Lipinski. Thank you all for 
being here today and happy Railroad Day. I am thrilled to have 
450 industry attendees from railroads, rail labor, rail 
contractors, and rail supply companies on Capitol Hill today 
for Railroad Day. I look forward to meeting with fellow 
Hoosiers who operate in my Indiana Sixth Congressional District 
this afternoon.
    In my home State of Indiana, 22 regional railroads span 
over 1,200 miles in the crossroads of America, 6 of those Class 
III short lines run through my district in southeast Indiana. 
Bordering the Kentucky State line at the tip of my district, 
Madison Railroad in Madison, Indiana, is a Class III short line 
railroad with 26 miles of operational tracks. Over the years, 
Madison Railroad has competed for funding from multiple Federal 
grant programs to improve the safety of their tracks and 
bridges in rural America--in rural Indiana.
    Of the numerous programs Madison Railroad applied for last 
year, they received one grant, the Consolidated Rail 
Infrastructure and Safety Improvement grant, or CRISI. This 
grant provided $4.2 million to update the aging Graham Creek 
Bridge, which was built in 1880 to ensure heavy commercial 
freight loads can be accommodated.
    With short line freight accounting for nearly 30 percent of 
all freight rail, these grants have substantial impact on rural 
economies like those in Madison, Indiana. Mayor Bury--who is 
from the city my grandparents lived in for many years; I spent 
a lot of time in there in that town--can you speak to any 
initiatives like the CRISI grant that support short line 
railroads such as 45G tax credit and INFRA grants?
    Dr. Bury. Thank you for your question. I am sorry I don't 
have expertise on those items. I am very sorry.
    Mr. Pence. OK. That is OK. Thanks. Thank you, Mayor. I just 
want to get in that shout for Oak Lawn.
    Dr. Bury. It is good to give a shout-out to Oak Lawn. We 
have a saying here, all roads lead to Oak Lawn, and you would 
be amazed how many connections we have. Thank you. I am sorry I 
can't help you, sir.
    Mr. Pence. Well, let me ask a different question then of 
some of you. At our last hearing, I highlighted the impact of 
railroad crossing blockages on Hoosier day-to-day lives in my 
district. Just last weekend, my wife spent over an hour waiting 
and was finally rerouted about a mile from our house. This 
particular crossing became such a particular problem for 
Columbus, Indiana, that the city, the State, the railroad, and 
Cummins Engine Company located in our town all got together and 
put funds to address this problem by building a bridge over the 
rail.
    If it weren't for all their generosity, this crossing would 
likely still be waiting on public funding. Unfortunately, this 
story is common in rural America, my district, Indiana 
specifically.
    Mr. Jefferies and Mayor Bury, in your testimony you cite 
the CREATE program, a public-private partnership grant program, 
is a valuable tool for revitalizing local infrastructure. With 
my town's project as an example of successfully leveraging 
public-private investment, how can we encourage more public-
private partnerships to address the critical gap in funding for 
infrastructure projects in small, rural communities?
    Mayor Bury.
    Dr. Bury. Thank you. The CREATE program really brings all 
partners to the table with a little skin in the game and, you 
know, it is how Government should work. Everyone should kind of 
participate, contribute, and in a rural community it is a 
little harder, I imagine, to get all those parties together, 
but I know when, for example, we are trying to upgrade our 
signal, we had some money from the mayor's caucus that we could 
contribute and that got Metra's attention. And they said, well, 
if you have money, we can get money and it just moved the 
project along. The CREATE program should be the model for 
funding to get things done.
    Mr. Pence. OK. Thank you.
    Mr. Jefferies.
    Mr. Jefferies. Certainly. I certainly credit the State of 
Indiana and your community specifically for looking at 
innovative ways to deal with grade crossings and separating 
crossings because, you know, as the mayor said, when everybody 
comes to the table and everybody puts skin in the game, then 
that is how you get real results and real buy-in.
    On the Federal side, certainly the BUILD grants or the 
INFRA grants are certainly viable options and I believe--I am 
getting a little out of my lane here--I believe they have rural 
set-asides. If not, certainly something to look at when it 
comes to, like you said, smaller communities.
    And when it comes to grade crossing specifically, while 
road and rail intersecting is a natural tension, the best is 
where there is no intersection, but understanding that it is 
impossible to close or to separate every grade crossing out 
there. It is key that we have the most up-to-date crossing 
protection equipment, through the section 130 grant program for 
where those crossings that do exist especially in rural 
communities to make sure they are safe for motorists and 
railroaders alike.
    Mr. Pence. Thank you, Mr. Chairman.
    Mr. Lipinski. I thank Mr. Pence for his shout-out there for 
recognition of Oak Lawn there.
    I now will recognize Mr. Malinowski for 5 minutes.
    Mr. Malinowski. Thank you, Mr. Chairman.
    I would like to use my time, and you won't be surprised, to 
talk a bit about the importance of the Gateway Program, ask 
some questions about it. And recognizing this is a very 
expensive project and sometimes my colleagues, especially from 
across the aisle, ask, you know, why is it that their 
constituents should be subsidizing such an expensive program in 
a Northeastern State and I remind them that the State I 
represent gets about $0.82 back from the Federal Government for 
every dollar that our taxpayers send.
    To pick a few other States, seemingly at random, Texas, the 
figure's about a $1.03. Indiana, who just had Mr. Pence here, 
it is about a $1.30, Arkansas is about a $1.77 for every dollar 
they send they get that amount back from the Federal 
Government.
    So it feels to my constituents as if we are actually 
subsidizing infrastructure and other services in other States 
while contributing a lot of the economic growth that sustains 
our country. And we are happy to do that because we are all 
Americans and we all benefit from each other's success.
    So with that in mind, I wanted to start with Mr. Corbett 
and Mr. Gardner and ask you about the national significance of 
this project. This is the busiest rail corridor or passenger 
rail corridor in the country.
    Is that not correct?
    Mr. Corbett. So maybe Stephen, I will take the first view. 
Certainly, Congressman, from the New Jersey perspective, when 
you mentioned the subsidy, but I look at the tunnels and Portal 
Bridge, those are investments that give a return to the State, 
Federal, local. If you look at the economic growth, you see in 
London what the Crossrail project did through multiple 
administrations over there has boomed the economy, and I think 
that is how our Nation grew and where we get to create the 
actual wealth.
    So I would argue that is a very good investment. As far as, 
as I said in my opening, the tunnels and the approach we have 
very limited capacity as you well know. We have 24 trains an 
hour that can go through the tunnels. We need right now, aside 
from the safety and the repair and all those concerns, for such 
tunnels. If you think of what happened on 9/11 when we had to 
close lower Manhattan, the impact--our national impact to our 
economy.
    So we are constrained in our growth. We could really be 
growing certainly in your district if we had more capacity in 
those tunnels.
    Mr. Malinowski. So we need the growth, but on the negative 
side, what would be the consequence to the regional and 
national economy if the Hudson--one of the tunnels, one of the 
tubes, failed for a significant period of time or if there was 
significant disruptions to traffic on the Northeast Corridor as 
a result of this?
    Mr. Corbett. I think as the center of global capitalism, 
New York, or obviously New Jersey right across the river, but 
we are all part of that regional economy, center of global 
capitalism. We saw what happened after 9/11 when we had a 
significant adverse impact in our ability to get trans-Hudson 
capacity. It would be in that order of magnitude.
    Mr. Malinowski. Thanks. And let me build on some of the 
questions that you heard from Congressman Payne about Secretary 
Chao's testimony recently. This idea that we might be able to 
repair the existing tunnel without closing it. And I think what 
she suggested was, we might be able to, quote, ``take a page'' 
from New York City's efforts to repair the Canarsie Tunnel in 
that same manner, but my understanding is that there are key 
differences between the Canarsie Tunnel and the Hudson River 
Tunnels. So for example, the power cables in Canarsie are 600-
volt cables; whereas, the Hudson River Tunnel, if I am not 
wrong, is 12,000 volts and, therefore, needs to be encased in 
concrete.
    There is a difference in the tracks that really repair the 
Hudson River Tunnel. We have wooden ties that degrade when they 
are wet and need to be replaced by a more modern system.
    Can you talk a little bit more about that because I think 
that is really specifically why we think this wouldn't work?
    Mr. Gardner. Yes, Congressman. And just to echo Mr. 
Corbett's answer as well, 2 percent of the land mass in the 
Northeast, 20 percent of the GDP, a loss to the Northeast 
Corridor for a day produces about a $100 million impact. It is 
absolutely the main line of passenger railroading in North 
America. More than 200,000 daily trips between New Jersey 
Transit and Amtrak on the Northeast Corridor.
    So it is an essential conduit for quality of life, 
commerce, and mobility in the region. And to your point, there 
are many significant differences between the Canarsie tube on 
the MTA subway and Amtrak's Northeast Corridor tunnels, those 
East River and North River tunnels.
    And I think to be clear, what Amtrak's position is, is that 
we absolutely need a new tunnel and we need to rehabilitate the 
existing tunnel, both to protect current services and to create 
long-term opportunity for growth.
    We, however, are facing a situation where it is unclear 
when we will start to build a new tunnel and we need to 
preserve reliability for the benefit of Amtrak's passengers and 
New Jersey Transit's passengers. And Kevin and I talk all the 
time about the needs to make sure that his trains and all of 
his passengers are able to successfully complete their trips.
    So the work needed to be done in the North River tubes 
includes, as you said, addressing the high-voltage cables which 
are, as you say, high-voltage, 12,000-volt cables. The subway 
tunnels have DC third rail, very low-voltage situation.
    In addition to replacing those cables, modernizing them, we 
also need to change entirely the track structure. And this is 
the main difference that requires a very different approach 
because we have to be able to excavate the current track 
structure, repair the drainage underneath the track structure, 
also inspect the invert, the tunnel lining, and bottom there, 
which hasn't been looked at, frankly, in 109 years behind the 
bench walls or underneath this in any comprehensive way.
    We need to make sure that those repairs are made and to do 
that on a 4-hour slot in the evening or on several 55-hour 
outage scenarios on the weekend could present credible 
difficulty. It is just not clear that there is any way to do 
that kind of comprehensive work, which is why we have always 
proposed to do a full rehabilitation of the tunnels once new 
tunnels are in place, allowing us to maintain all of New Jersey 
Transit's and Amtrak's current service and to be able to do the 
full rehabilitation of this 100-year-old asset so that it can 
provide utility and reliability for the decades to come.
    Mr. Malinowski. Thank you. We want it to last another 100 
years.
    And I yield back.
    Mr. Lipinski. The Chair now recognizes Mr. Balderson for 5 
minutes.
    Mr. Balderson. Thank you, Mr. Chairman, and thank you all 
for being here this morning and to this afternoon. My first 
question will be to Mr. Jefferies.
    Mr. Jefferies, my question is, you mentioned that forecast 
from the Federal Highway Administration show that U.S. freight 
tonnage will rise 30 percent from 2018 to 2040. Can you expand 
on the current state of freight rail infrastructure, the 
investments your companies have made in the past 10 years, and 
the investments freight rail will need to make in the next 10 
to 20 years to meet this growing demand?
    Mr. Jefferies. Sure. Thank you, Congressman.
    So over the past--you are certainly right about the 
projected increase in freight movements and it is something 
that everybody has been planning for, but over the past 10 
years, railroads have averaged--the Class I's have averaged 
about $25 billion back into their networks every year, so it is 
about $250 billion and that trend continues and that is two 
types of investment.
    That is core maintenance, that is ensuring the 
infrastructure that you have is at a high level of performance, 
that it can handle the capacity that is there, and then it is 
also expansion or capital expenditures, whether that is track 
expansion, whether it is increasing--or rehabilitating tunnels 
to allow for double stack, but, you know, as we look forward, I 
think this is something all of our companies are constantly 
evaluating.
    So, you know, each company is looking at its commodity mix. 
Certainly when you look at historically, coal played such a 
massive part in rail revenues. That is much less the case than 
it was. Coal continues to decline based on a variety of 
factors, but as railroads continue to invest in new track and 
new ways of operating and new technologies, they get more 
competitive with other types of traffic.
    So truck competitive traffic. Railroads are competing in 
much shorter distances than they used to and the goods economy 
is certainly an area of growth into the future. So that is 
going to be an area of certainly focus. And, of course, you are 
always going to have, you know, rail being the primary way to 
move most chemicals, grain, construction materials, et cetera.
    So there is a certain level of predictability there and 
there is also a lot of scenario analysis looking at what is out 
over the long-term, but I think the important thing is that our 
railroads--the consistency of the investments that have 
occurred--have the network and really strong shape and they 
have all taken steps to optimize operations and so our folks 
feel comfortable that we are ready to meet, you know, whatever 
demand does arise and when it arises.
    Mr. Balderson. Thank you. Appreciate that answer.
    My next question is for Mr. Artl. Thank you for being here 
today also.
    In your testimony, you note that having the funding in 
projects certainty from the Federal Government is critical in 
your operations. You go on to say that it is difficult for 
ACEC's members to complete a project on time or on budget if it 
is not clear how the project will be funded or if the right 
partners are not part of the project.
    I have heard concerns numerous times from my State and 
Department of Transportation, construction and engineering 
companies in my district in planning organizations about 
various Federal rules and regulations complicating surface 
transportation projects.
    Some of these regulations haven't been updated in decades 
and can create significant project delays and increased cost. 
Do your member companies face any similar issues when it comes 
to completing rail projects?
    Mr. Artl. I think one of the most--the largest concern is 
just oncertainty and timing overall. When applying for grants, 
if the grants aren't properly funded--each time we have to 
apply for a grant, we have to go through a series of 
environmental reviews and environmental paperwork. If that 
grant doesn't get funded and then we apply, again, the next 
year, all that work has to be redone.
    So clearly on that issue the ability to fully fund grants 
and make them available will alleviate a lot of the work 
upfront and could achieve some cost savings overtime.
    Mr. Balderson. Thank you very much.
    Mr. Chairman, I yield back my remaining time.
    Mr. Lipinski. Thank you.
    The Chair will now recognize Mr. Cohen for 5 minutes.
    Mr. Cohen. Thank you, Chairman, and I appreciate your 
holding this hearing today and all the witnesses who come and 
testified.
    One issue that probably pales in comparison to the tunnels 
under the Hudson and some of the other issues that have been 
addressed, but one that I am concerned about and continue to be 
concerned about, in my long-standing support of Amtrak--and I 
have been a long-standing supporter of Amtrak--is the threat to 
the dining car service on Amtrak, an integral and iconic part 
of a passenger train experience that I experienced quite often 
as a child, young person, which many in America appreciate and 
would like to see continued, and that is part of the 
experience.
    It is disappointing to see Amtrak eliminate this popular 
tradition on several of its long-distance routes. And while I 
know transportation is getting from point A to point B is 
important, part of it with the trains is the experience. And 
the experience is the dining car and having your ham and eggs 
and Carolina and all those kind of things.
    So it is worrisome that Amtrak has done this and continues 
down what I believe is a misguided path eroding the passenger 
experience and, therefore, hurting Amtrak. We should be working 
together to make Amtrak more attractive to customers, not just 
miserable when you go in those dining cars.
    I have heard from many people that say millennials don't go 
in there and shun them, but the millennials really like to talk 
to them. It is one of the few places Bernieites and Bidenites 
get to meet, speak, and learn something.
    So Mr. Gardner, Mr. Anderson was against this dining 
experience. He tried to eliminate traditional dining service on 
long-distance carriers. When he testified before the committee, 
he mentioned that the survey market data influenced and 
justified these changes. When he was asked to follow up with 
the subcommittee and provide said data, he was unable to do so.
    Mr. Gardner, what will Amtrak's food and beverage service 
look like under your new CEO William Flynn, who I look forward 
to working with? I think he will be a breath of fresh air and a 
provider of good ambience on the train and food. Does Amtrak 
intend to restore traditional dining service on its long-
distance routes?
    Mr. Gardner. Thank you, Congressman.
    And thank you for mentioning our new CEO. William Flynn 
will be joining the company on April 15th, so he is not yet 
with us, but will be coming in about 6 weeks and he certainly 
looks forward to meeting with all of you.
    I completely agree with you that part of the benefit of 
rail is the unique experience, sort of, the generosity that I 
like to think of that we create. We have a more spacious 
environment, more flexible environment, one in which the 
journey is part of the trip and absolutely food service is part 
of this.
    I would say that we are trying to find the continual 
upgrade and modernization of our products across our network. 
We have a 46-State network, a variety of different services, a 
variety of different needs, and that requires us to continue to 
experiment and try new ways to meet the requirements and needs 
of our traveling public.
    As you are well aware, there are major demographic shifts 
underway, major population change, and our population of riders 
is changing over time. And we look to find new ways to attract 
and meet the expectations and needs of our passengers. That 
does mean that we have changed some of our service for our 
single night overnight meal service on our long-distance 
trains. There are, however, almost an equal number of trains 
for which we still have the traditional dining service.
    And we are going to continue to experiment and try to find 
the right mix, the right balance. For sure we know passengers 
expect a much broader set of food options. Healthier choices, 
different options than sort of the historic railroad menu that 
had been offered. And so we have to upgrade and provide more 
choice. We also know that people prefer a variety of different 
environments to eat in.
    Some folks and, in fact, it has become quite clear that 
many people prefer to be served in their own rooms on long-
distance trains or to be able to use the dining car in a more 
flexible way. Historically, it had been limited to just a few 
couple--a few hours of duration of meal period and closed to 
passenger use, and we have opened that up----
    Mr. Cohen. I think I get the drift. And I appreciate it, 
Mr. Gardner. We are about out of time, but let me ask you this: 
Can you give us the customer survey market data that justified 
this reasoning that Mr. Anderson did not give us when we asked 
for it?
    Mr. Gardner. I understand you have written us a letter. I 
think we will have a response to you by the end of this week.
    Mr. Cohen. Good. And I will just say for this, all of these 
experiments, all I have heard from the public is they don't 
like the food. It is all premade. It is put into a microwave. 
It is not good food. They don't like it.
    I don't care millennials, they may like to look at their 
phones, they don't like bad food either. And if they don't know 
it is bad food because they haven't had the opportunity they 
should be given some regular, good cooked food. They will 
learn. They will like it. They will appreciate it. They will 
ride on Amtrak. They will talk to older people. They will 
learn. They will experience things.
    The Rocky Mountaineer, Canada, the food, it is great. You 
see the bobtail deer or whatever. That is fine too, but the 
food--and you need to put that back and make Amtrak what it 
used to be and you will attract more customers and you are not 
going to get, you know--so welcome, Mr. Flynn.
    Mr. Gardner. I appreciate that and we are investing more in 
the food. We want to have great food on board. We are trying to 
do that. Tastes are changing. We are trying to capture those in 
our service.
    Thank you.
    Mr. Cohen. You are welcome.
    And I yield back the balance of my time and hope that 
people get to eat good food.
    Mr. Lipinski. I now recognize Mr. Babin for 5 minutes.
    Dr. Babin. Yes, sir. Thank you, Mr. Chairman, and thank you 
witnesses for being here today.
    The first question I have would be for Mr. Jefferies. The 
main focus of this hearing, I think, or one of the main focuses 
is examining rail issues in large hubs like Chicago. And while 
urban areas are very important, rural areas are also just as 
important, especially if you live in a rural area.
    As we look to the surface transportation reauthorization, 
what are some of the ways that we can strengthen and protect 
our rural railroad infrastructure? I would like to hear some of 
your ideas.
    Mr. Jefferies. Thank you for that, Congressman. And 
certainly, railroading is as much if not more of a rural 
industry as it is an urban industry, so certainly served both 
areas.
    A few things come to mind. Given that the short line rail 
population is certainly prevalent in rural America, the 
Congress, you know, did the right thing and extended the short 
line tax credit for 5 years and the spending bill at the end of 
2019. There is an effort to make that permanent moving forward, 
and I think that makes sense. The results of it are undeniable 
and that reaches that segment of the rail industry that 
certainly needs that help in reinvesting back into its 
infrastructure.
    When we look at grant programs, larger grant programs, be 
it INFRA, be it BUILD, be it CRISI. I mentioned earlier I 
believe they have rural set-asides. I apologize for my lack of 
indepth knowledge, but that is certainly an area worth 
considering. And when it comes to rural grade crossings, the 
section 130 program, I think, is critical as well to ensure 
that those crossings are safely maintained.
    Dr. Babin. OK. Thank you very much.
    Second question for Mr. Gardner. When you prioritize 
investments, is there a cost-benefit analysis conducted with 
ridership and economic benefits to the local, State, and 
Federal entities that are involved?
    Mr. Gardner. Well, so it depends, sir. I would say we 
obviously in our capital programming, we receive funds from 
Congress, we request those funds, we give the list of our 
priorities, we receive those in two grants, a grant for the 
national network and a grant for the Northeast Corridor. And 
then we go through a detailed capital prioritization process 
and the company, our board of directors, approves our capital 
plan. The FRA provides a grant to implement those projects.
    When we do partner with States and localities on projects, 
oftentimes, of course, a benefit cost is part of the 
development of a project. So when we are looking at new service 
we will look at revenue, ridership, economic impact, impact on 
congestion, mobility, the environment.
    So those are all things that we would undertake typically. 
It depends obviously on State requirements, but our decisions 
around where we prioritize investments are based on our 
analysis of the benefits to the corporation and obviously our 
ability to fulfill the mission that Congress has set for us.
    Dr. Babin. All right. Thank you so very much.
    And I will yield back the balance of my time, Mr. Chairman.
    Thank you.
    Mr. Lipinski. Thank you, Mr. Babin.
    The Chair will recognize Ms. Norton for 5 minutes.
    Ms. Norton. Thank you, Mr. Chairman. And I certainly 
appreciate this hearing from which I have learned much, but 
notice that this is the Subcommittee on Railroads, Pipelines, 
and Hazardous Materials.
    And I want to speak to or ask a question about hazardous 
materials, especially since there was a derailment just a 
couple of years ago here in the Nation's Capital which I 
represent.
    Dr. Bury, you specifically mentioned training for first 
responders and rail disasters in this context. I was so 
concerned about a disaster here that I actually put a bill in 
requiring railroads and rail transit to take the safest route. 
The only reason I didn't press it is because of regulations 
which appear to require that anyway.
    Imagine what is the safest route in a great big city like 
this. There really is no safest route if you have to go through 
the city and we concede that you do have to go through the 
city.
    So this question is for anyone, particularly, though, for 
the representatives from Amtrak, New Jersey Transit, and, of 
course, the Association of American Railroads. This accident 
occurred near a Metro stop here in the District of Columbia, 14 
cars were derailed and one of the substances that was leaked 
was sodium hydroxide.
    This is a highly corrosive substance to the skin and eyes. 
So you can imagine our concern. So I would like to ask 
certainly those of you involved in transit, any of you may have 
ideas or answers, what are you doing?
    What strategies are you employing to mitigate these risks, 
particularly in high-density areas like the one where we are 
meeting, where you don't have alternative routes? So what are 
you doing to mitigate these risks?
    Let me begin with Mr. Gardner of Amtrak.
    Mr. Gardner. Thank you, Congresswoman.
    Well, two things I would say. First, Amtrak has----
    Ms. Norton. This was a CSX train.
    Mr. Gardner. Yep. Amtrak has a complicated and some 
detailed relationship with our freight partners. We are a 
tenant on their railroads across the Nation, and they are a 
tenant, in fact, on our Northeast Corridor. So we work very 
closely with our freight partners to make sure that we have----
    Ms. Norton. Well, as tenants, whose responsibility is it?
    Mr. Gardner. So, in the Northeast Corridor environment, 
where we are the host railroad, we have an obligation to permit 
freight traffic on our lines, so our responsibility is twofold. 
One is to make sure that the infrastructure is safe. We have 
that responsibility and to make sure, through the 
implementation of Positive Train Control and our safety 
management system, that we are elevating our safety abilities 
and trying to drive improvements across our infrastructure.
    The freight railroads have the right to carry their 
commodities on our railroads, so we cannot restrict or control 
their routing or their commodities that they carry. But we do 
work closely with the freight railroads to make sure that we 
have--for our Amtrak police department and our emergency 
response team to make sure that we have good coordination and 
training so that we can respond if things occur.
    But, fundamentally, I would say the goals of the industry 
need to be to adopt a safety management program, a system that 
drives continual improvement across our network, and Positive 
Train Control is a very important step to ensuring that things 
like train collisions or misaligned switches are avoided.
    But there are more and--more efforts necessary, I am sure, 
across our whole industry to improve the safety margins, 
particularly when carrying both people, which is our business, 
and hazardous materials, which is our colleague's business.
    Ms. Norton. Well, OK. Given--any of the rest of you have 
any mitigation ideas given the inevitability we have got to go 
through high-density areas like the Nation's Capital?
    Yes, sir?
    Mr. Jefferies.
    Mr. Jefferies. So thank you for that.
    So, currently, under agreement, I think you referenced 
hazmat does not move through freight through the capital of DC. 
Certainly that doesn't mean it doesn't move through other urban 
corridors. So, when it does, it is, I think, a three-pronged 
approach. It is prevention through track maintenance, making 
sure the track is in good shape, making sure the operating 
practices are safe, implementation of Positive Train Control. 
Most hazmat has to move over a PTC route, so that will be in 
place.
    It is mitigation. It is having up-to-date, safe tank cars. 
In the 2015 FAST Act and also working with DOT several years 
ago, we upgraded all of the tank car standards for moving 
petroleum products and related, and then it is response----
    Ms. Norton. That is the new tank cars?
    Mr. Jefferies. Yes. Phasing out older tank cars and putting 
new requirements in place.
    And then it is response. It is working with first 
responders. It is training first responders so, if something 
happens, they know how to respond.
    And one thing we are really proud of is an app we have 
developed that we are deploying to first responders where, if 
there is an incident, on the app, they enter the railcar. It 
says what is in the car, and it says how to respond, and it 
says who to contact.
    So it is a three-pronged approach for us.
    Ms. Norton. Thank you very much, and thank you, Mr. 
Chairman.
    Mr. Lipinski. The Chair now recognizes Mr. Lowenthal for 5 
minutes.
    Mr. Lowenthal. Thank you, Mr. Chair. My first question--I 
have a couple of questions.
    My first question is to Mr. Jefferies, and it is kind of 
the most recent of the impacts, and the reason I raise this 
question, as we all know, the COVID-19 outbreak has disrupted 
the entire global economy, especially the supply chains that 
consumers and manufacturers have come to rely on.
    In our southern California ports--and I represent the port 
of Long Beach--we have observed container volume decreases of 
25 percent in February, 40 sailings to the port of Los Angeles 
have been canceled.
    So my question is: How has this--have you seen this 
impacting the rail and, especially, what impact has it had on 
your stakeholders? Have there been decreases in rail? Have 
their employees been affected at all by the COVID-19? And I 
would love to know----
    Mr. Jefferies. Thank you for that. It is a very relevant 
question.
    So it is--I put it to two answers there. One, you hit on 
the port volumes that are seeing real decreases and real----
    Mr. Lowenthal. Real decreases.
    Mr. Jefferies [continuing]. And the head of the port 
association said nationwide, potentially a 20-percent reduction 
for Q1, certainly more pronounced on the west coast ports.
    So, you know, that certainly translates in a downtick in 
container traffic moving on the rails, and, in conversations I 
have had with some of our members, they are communicating with 
their intermodal customers, because I think some of the focus 
is, this traffic is going to come eventually, and making sure 
that, when that uptick does occur, that everyone is ready and 
can flex into full capacity to get folks what they need.
    But I think--so planning is in place, and certainly 
monitoring is in place, and we continue to evaluate, because I 
think we are all trying to determine what the overall impact 
is, and certainty the longer the shutdowns in Asia occur, the 
more pronounced that might be.
    But there is also the internal, inward-looking preparation 
as well for the railroads, so--and having conversation--I had 
conversations with our members. They are going through a lot of 
scenario planning on different potential outcomes that can 
result from the virus. But a lot of it is what you are seeing 
in other companies and other industries, is, one, travel 
advisories, it is hygiene advisories, things as simple as that, 
but also looking at where our assets are and being prepared to 
adjust those as needed.
    Now, when you get out into the field, railroading is a 
fairly decentralized industry, so you don't have folks working 
in--you know, in big crowds, so to speak, so certainly, that 
could impact the size of the impact if we get down that road, 
but I know our folks have pandemic task forces. They all have 
emergency response plans based on any sort of incident, whether 
it is a natural disaster, a pandemic----
    Mr. Lowenthal. Have there been any layoffs of employees?
    Mr. Jefferies. Because----
    Mr. Lowenthal. Has it impacted the employees of railroads 
if there has been declining amounts of container traffic at 
this moment? I am just trying to see the overall----
    Mr. Jefferies. Right. I am not aware of any layoffs as a 
result of the virus, no.
    Mr. Lowenthal. Thank you. Thank you, and I appreciate your 
candid answer.
    Mr. Corbett, southern California's commuter rail service, 
Metrolink, has a $444 million backlog of the state-of-good-
repair projects. What kind of backlog do you have at New Jersey 
Transit?
    Mr. Corbett. Thank you, Congressman.
    Certainly, I am somewhat jealous of my colleagues in 
Washington particularly and the dedicated funding stream that 
California has provided for him. Unfortunately, I came into my 
seat 2 years ago, and we did not have a 5-year capital plan. We 
live with a tin cup going to the legislature.
    Half our revenue comes through fare box, a little other 
extra income, real estate, et cetera, parking, and the rest, we 
have to get from our State legislature, other than the capital 
funding we get or the other funding I mentioned in my opening 
comments.
    So it is really--our backlog is, you know--capital projects 
is billions in the last 2 years, and, this year, our State 
budget, we have been able to bring up our operating, but there 
was a decade of where we were raided capital. About a half a 
billion dollars a year of capital funding went to cover 
operating, which is a very insidious practice, I would----
    Mr. Lowenthal. So you are having issues about state-of-
good-repair----
    Mr. Corbett. Yeah.
    Mr. Lowenthal [continuing]. Projects. So my question is: 
Has that backlog affected the reliability and quality of 
service that you offer?
    Mr. Corbett. Absolutely. There is no--we have 50-year-old 
engines, you know, older than Stephen, I think. Our coaches are 
40 years, so we had no investment in our PTC program. When I 
came in, we were only 12 percent complete.
    So all those things--we weren't training crews or 
engineers. So we had a huge backlog. All those things affected 
service. And, if you bring down the average age of your fleet--
there is a healthy average--where your mean distance between 
failure, number of annulments, those kinds of things, become 
virtuous.
    Mr. Lowenthal. So, if we increase the amount of Federal 
Government aid to commuter rail for use, if that increased in 
this coming budget, could you spend that on state-of-good-
repair projects?
    Mr. Corbett. Absolutely. We touched on bridges, ADA. You 
know, where the ADA making it so all platforms--it can't just 
be partial platforms now with the ADA changes. So we have a 
huge backlog.
    And I would say it is also tough because there is more 
competition now, even with, you know, increase in funding, 
where the national population shift from more rural to more 
centralized around urban areas, there is more of us competing 
for--even if there are slight increases in dollars, there is 
more of us competing for the same pot, so it is----
    Mr. Lowenthal. Thank you for that.
    Mr. Corbett. Yeah.
    Mr. Lowenthal. And, Mr. Chair, I yield back.
    Mr. Lipinski. Thank you.
    I now will recognize Mr. DeSaulnier for 5 minutes.
    Mr. DeSaulnier. Thank you, Mr. Chairman. Thank you for the 
hearing. This is enormously important. It may be boring to 
nonengineers and people who are not interested in rail 
infrastructure.
    My question--and Alan, Mr. Lowenthal, and I have similar 
pressures in our district, Mr. Lowenthal with the Port of Long 
Beach and L.A. and the Alameda Corridor, which is such a 
successful project on multiple levels, and our increasing 
demand for exurban trips, and so this first to Mr. Jefferies 
and Mr. Corbett. We have all this pressure in the urbanized 
areas as you were saying.
    For us, it is goods movement out of the Port of Oakland 
through the Altamont Pass in particular, and then the exports 
hopefully that will start to continue again, and there are 
capital improvements there that are very old, and some of them 
lay dormant.
    So, for instance, in my district, we were adding workforce 
housing in the eastern part of the East Bay. We extended the 
Bay Area Rapid Transit system, but, when we were in 
negotiations for that, we were negotiating with UP for a line 
that was largely dormant because that area had gone from 
industrial shipping of wheat 100 years ago to largely urbanized 
suburban.
    As soon as we got that funding source, the negotiations got 
very difficult. We had to switch the capital infrastructure to 
the middle of a 4-lane freeway that became a 10-lane freeway, 
but that added a lot of expenses, and that spur is still empty.
    Now, I understand--I have another issue with Burlington 
Southern and an old line that used to go into the Port of 
Richmond but doesn't anymore through this section of spur, 
because it is open space now, and it is not going to be 
industrialized.
    So my question is: How do we work better knowing that we 
value both, that there is fixed opportunities in terms of 
right-of-way and increasing capacity? And I appreciate the 
comments by Amtrak about the operational coordination, but more 
about expanding capacity, and that can be in the existing 
corridors as well as we use technology to move more freight and 
more passenger rail.
    I have--in the San Francisco Bay area, we have 4 of the 10 
largest commutes in the country, and that is all people that we 
want to get out of their single-passenger cars and into 
passenger rail, but we also want to move products.
    So, Mr. Jefferies, could you talk about opportunities where 
the Federal Government could help facilitate what shouldn't 
really be a conflict in my view, but I understand why the 
private sector wants to hold on and get the best return for 
their investment on capital resources.
    Mr. Jefferies. Thank you, Congressman.
    I think the first thing that we all recognize, capacity is 
finite, especially in those urban areas, so I think the freight 
railroad is going to be very deliberate as it evaluates 
potentially giving up some of that capacity or turning over 
that capacity to increase passenger throughput, because, once--
you know, you just can't--it is kind of like highways in the 
Northeast. In L.A., you can't just add more lanes.
    So I think that is certainly part of it, and these are very 
long-range decisions, and, like you said, hopefully we will be 
able to be moving a whole lot of product back out of those 
ports soon.
    But certainly the Federal Government can play a role when 
there is capacity expansion necessary for the public partner by 
providing that funding source, because, again, with the host 
railroad is really going to be--so safety is going to be first, 
but number two is going to be making sure they can serve their 
customers, and you don't want to end up in a situation where 
you have turned over part of that capacity and you are unable 
to meet your customer demands, present day or forecasted.
    So examining what additional capacity is necessary and then 
finding that funding source, I think, is a huge step forward, 
and then the--you know, none of these--none of these are easy 
processes. There is a great story that came out of Virginia 
here, but it was over several years with the VRE, and Amtrak, 
and CSX, and adding to the right-of-way and building out some 
long-term capacity that is going to benefit everybody.
    But I think just the recognition that, are there best 
practices that can be taken? One hundred percent. Money needs 
to be there for that capacity, and then all sides need to agree 
about kind of what the outcomes are and what the measure--the 
service level metrics are.
    Mr. DeSaulnier. I would love to have a further 
conversation. I am sure the committee staff has had these 
conversations, but wherever we can at least provide best 
practices rather than let it go, because there is an urgency 
both for you to move freight, but for us to move passengers, 
and maybe, Mr. Corbett, you could just--if you have similar 
experiences in New Jersey, I am unaware.
    Mr. Corbett. Yeah. Some of that balance obviously, for us, 
the freight market is very important for New Jersey. We operate 
on--we have Norfolk Southern, Conrail, et cetera, so getting 
that right, that balance, where we are very sensitive to that. 
Certainly PTC has been a driver behind that cooperation, so it 
is very similar in New Jersey. You know, high density, that 
tradeoff, that triage process.
    And, frankly, really it comes down to the question that 
Congressman Lowenthal said. It is funding. There is only a 
limited amount of funding. Freights have to make their profit. 
They have their shareholders, and, us, we have to have fares 
that are reasonable, and so that gap is--you know, that starts 
that sort of a triage process.
    Mr. DeSaulnier. Thank you.
    I yield back, Mr. Chairman
    Mr. Lipinski. The Chair recognizes Mr. Garcia for 5 
minutes.
    Mr. Garcia. Thank you, Mr. Chairman, and Ranking Member 
Crawford, and thank you to all the witnesses.
    I am glad to be joined by three witnesses from Illinois 
today at our hearing. Thank you, Dr. Bury, Mr. Shanahan, and 
Mr. Artl for your testimonies.
    As I said before, Chicago is America's transportation hub. 
With over 7,400 miles of railroad tracks and thousands of rail 
crossings, we are quite familiar with rail and all the benefits 
and challenges that come with it.
    Mr. Gardner, I would like to start with you on Amtrak 
accessibility. In December 2019, Amtrak charged two of my 
fellow Chicagoans $25,000 each to remove seats to accommodate 
their wheelchairs. This was discriminatory and unacceptable, as 
conveyed by a letter from our Illinois delegation.
    And, briefly, the following questions: Can you tell me the 
status of your seat removal policy? Additionally, have you 
accounted for these accessibility needs in the new car 
procurements that are planned for the future?
    Mr. Gardner. Thank you, Congressman.
    So, to describe that incident a little further, we did, in 
fact, have some miscommunication between this organization and 
our Amtrak staff. What the $25,000 was, was not a charge for 
tickets and travel, per se. It was the cost of modifying and 
changing out the interior of a piece of equipment, and that, it 
turned out, was not necessary for us to be able to move this 
group. We were able to accommodate them on a train with a--by 
adding a series of coaches and being able to provide them.
    In fact, that is our obligations under the ADA, is to 
provide equipment that is ADA accessible. As we look to the 
future, we are continuing to work with Access Living to try and 
figure out ways to meet their needs for their trips. They have 
been a group with a long tradition of using Amtrak. We want to 
keep them as good customers.
    And we are, in fact, meeting our ADA requirements and going 
beyond them with our new Acela train sets and as we look to 
procure additional sets to be able to meet the needs of our 
passengers consistent with the requirements of the law.
    Mr. Garcia. Are you reviewing any policies beyond seat 
removal to avoid other incidents that prevent Americans with 
disabilities from accessing Amtrak? Briefly, please.
    Mr. Gardner. Well, we are--we are looking, as Mr. Corbett 
said, at our access on the platform side to create good 
additional access for our equipment within the trains to be 
able to have the right level of width and the right level of 
seat availability. And these are common across the 
requirements, including retrofitting additional equipment where 
we can, we have today.
    Mr. Garcia. Your written testimony noted that Amtrak must 
bring 230 long-distance stations into compliance with ADA 
requirements. In fact, you have sole or shared responsibility 
for 387 stations. Yet, as of February 2020, Amtrak reported it 
has completed all of its ADA responsibilities at only 39 
stations.
    When do you plan to bring all 387 stations into 100 percent 
compliance with ADA?
    Mr. Gardner. So I think our current plan has that being 
accomplished in 2024. We are, in fact, spending record amounts 
and achieving our program--we have a program that is developed 
with the Federal Railroad Administration and required, but it 
is important to note, Congressman, most of those or many of 
those stations, while we have responsibility, we may not have 
ownership, or we may not have the rights to actually execute 
the work.
    So part of what we will be looking for help from Congress 
is how do we advance projects at facilities we don't own but 
have responsibility for?
    Mr. Garcia. Are you investing any revenue, including 
Federal appropriations, in getting stations to meet ADA 
requirements?
    Mr. Gardner. Absolutely. We are given $50 million every 
year through appropriations, and we are spending more than that 
in the fiscal year.
    Mr. Garcia. OK. Thank you.
    Mr. Artl, you spoke to safety concerns related to blocked 
crossings at grade crossings. I too am concerned with the 
safety and also the resulting air quality issues that can arise 
from idling trucks.
    I thank Chairman Lipinski for raising this issue earlier.
    Do you believe that, if the Federal Government could 
provide a more dedicated funding stream to build grade-
separated crossings, we could both reduce blocked crossing 
congestion and accidents?
    And, before you answer that, I just want to add I am 
currently working on legislation to create a dedicated funding 
stream for grade-crossing separations.
    Mr. Artl. Yes, absolutely. A multiyear program with funding 
would give engineers, IDOT, the CREATE program the ability to 
plan forward for years and provide the proper balance of 
funding and teamwork and partnership that would be needed to 
address many of the grade separation problems.
    Mr. Garcia. Thank you so much. Wow, I still have 10 
seconds, and, with that, I yield back, Mr. Chairman.
    Mr. Lipinski. Thank you, Mr. Garcia. Thank you for your 
work in Illinois and on this committee.
    We want to thank all of our witnesses. We have now run 
through all the questions, and your testimony today has been 
very helpful as we head into--this is our last hearing before 
we will be finishing up the final draft of the surface 
transportation reauthorization, and your comments today will be 
very helpful as we write the bill and figure out how best to 
ease congestion for both freight and passenger rail.
    This is something that is very important, especially as we 
are talking about climate change and greening our 
transportation sector. Rail is a big part of doing that, both 
passenger and freight rail.
    So I want to ask unanimous consent that the record of 
today's hearing remain open until such time as our witnesses 
have provided answers to any questions that may be submitted to 
them in writing.
    And unanimous consent that the record remain open for 15 
days for any additional comments and information submitted by 
Members or witnesses to be included in the record of today's 
hearing.
    Without objection, so ordered.
    And this subcommittee now stands adjourned.
    [Whereupon, at 12:20 p.m., the subcommittee was adjourned.]



                       Submissions for the Record

                              ----------                              


  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    I want to thank Chairman Lipinski for holding this hearing, and I 
want to thank our witnesses for attending.
    Today's hearing is a good opportunity to assess the future needs of 
freight and passenger rail services and to discuss opportunities for 
improving the infrastructure used by these industries.
    As this Committee looks at reauthorizing surface transportation 
programs, it is critically important to examine the needs of the rail 
industry, including critical maintenance and upgrades that ensure that 
our railroads remain safe and strong.
    One important factor when considering the future needs of our 
railroads is the relationship between freight and passenger rail. We 
must ensure that the interests of both industries are adequately 
addressed in a manner that best serves the public.
    While I am encouraged by the success of the CREATE Program [Chicago 
Region Environmental and Transportation Efficiency] in alleviating rail 
congestion in Chicago, we must also consider issues facing our rural 
communities. Furthermore, we should examine growing cities and regions 
to ensure that they are able to accommodate future increases in rail 
traffic.
    The rail industry relies on grants from the federal government to 
help with safety, upkeep and growth in the industry. We must look at 
how this money can be most effectively deployed to keep our rail system 
strong.
    Thank you again to our witnesses, and I look forward to our 
discussion.

                                 <F-dash>
  Letter of March 3, 2020, from Bruce H. Bergen, Raritan Valley Rail 
       Coalition, Submitted for the Record by Hon. Tom Malinowski
                                                     March 3, 2020.
Subcommittee on Railroads, Pipelines, and Hazardous Materials,
House Committee on Transportation and Infrastructure,
2167 Rayburn House Office Building, Washington, DC.

RE: Raritan Valley Rail Line of New Jersey Transit

    Dear Hon. Subcommittee Members;
    The Raritan Valley Rail Coalition represents in excess of 23,500 
daily riders and more than a million residents who live in the 28 
municipalities, across 4 counties along the Raritan Valley Line of New 
Jersey Transit. For more than 2 decades, this organization has lobbied 
and fought to secure direct service for our riders to New York 
Pennsylvania station--what we call the ``one seat ride.'' Although our 
line carries a significant number of commuters, comparable to other 
lines, we are totally denied this important service during rush hour, 
and have just a handful of non-peak direct trains.
    Direct service to Manhattan, without changing trains in Newark, is 
a basic quality of life issue. Our constituents are entitled to the 
speed, convenience and comfort of direct rail service, be it for work 
or pleasure, just like riders on every other NJ Transit line. It is a 
matter of fairness and equity. Further, it has been shown that direct 
rail service is an economic benefit to the entire community, increasing 
property values and commerce in general.
    Yet, the ultimate solution to this problem rests with a much larger 
issue, and that is the Gateway Project. We cannot afford to continue to 
gamble our collective future, by failing to promptly approve, fund and 
construct this project. The long-term health and growth of the 
municipalities along our line, no less the entire north east, is 
threatened by the condition of the existing Hudson River Tunnels, and 
the ongoing failure of the federal authorities to provide funding. It 
has been well documented that the Hudson River tunnels are critical to 
the passage of both passenger and freight rail, affecting not only this 
region but the country as a whole.
    We urge you to move forward with funding of the many and varied 
infrastructure projects that are needed across this country, but in 
particular, to fund the Gateway Project which we believe is one of the 
most critically important.
        Respectfully yours,
                                           Bruce H. Bergen,
                           Chairman, Raritan Valley Rail Coalition.

                                 <F-dash>
  Letter of March 3, 2020, from County of Union, New Jersey, Board of 
  Chosen Freeholders, Submitted for the Record by Hon. Tom Malinowski
                       County of Union, New Jersey,
                               Board of Chosen Freeholders,
                                   Administration Building,
                                       Elizabethtown Plaza,
                                      Elizabeth, NJ, March 3, 2020.

Subcommittee on Railroads, Pipelines, and Hazardous Materials,
House Committee on Transportation and Infrastructure,
2167 Rayburn House Office Building, Washington, DC.

Re: Gateway Tunnel Project

    Dear Hon. Subcommittee Members;
    New Jersey's Union County is served by 16 train stations on four 
commuter rail lines carrying thousands of daily commuters, along with 
those seeking recreation and culture, to New York City. Each of those 
trains, along with those from Amtrak and for freight service, must now 
travel through the two more than 100-year-old tunnels under the Hudson 
River. Meanwhile, the Gateway Tunnel Project remains unfunded.
    Should just one of those two aging tunnels be forced out of 
service, it will cut rail traffic by about 75%, creating an economic 
and human disaster for Union County and the entire northeastern region. 
A 2019 report by the Regional Plan Association estimates that a tunnel 
failure could cost as much as $13 billion over 4 years and reduce 
property values by as much as $22 billion, in addition to the 
significant effect on the work, personal and family lives of hundreds 
of thousands of people.
    Further, the RPA report details how a tunnel closure would directly 
affect Amtrak service from New York to Washington and beyond, spreading 
significant costs through Maryland, Virginia and Connecticut, as well 
impacting the ability to move freight within and beyond the region.
    Construction of the Gateway Tunnel and related projects will have 
the most significant positive economic impact of any of the 
infrastructure projects in the nation. This is a national, not a local 
or regional issue. We urge you to include the Gateway Project in the 
next round of funding so we can eliminate this potential disaster as 
soon as possible and ensure safe travels between New York and New 
Jersey for our constituents.
        Sincerely,
                                       Alexander Mirabella,
                                               Freeholder Chairman.
                                             Angel Estrada,
                                          Freeholder Vice-Chairman.
                                       Bette Jane Kowalski,
                                                        Freeholder.


                           [all]
                           
                           
</pre></body></html>
